          OFFICE OF INSPECTOR GENERAL

                                    Catalyst for Improving the Environment



Evaluation Report


          EPA and States Not Making
          Sufficient Progress in Reducing
          Ozone Precursor Emissions In
          Some Major Metropolitan Areas
          Report No. 2004-P-00033

          September 29, 2004
Report Contributors:                               John Price
                                                   Lauretta Ansah
                                                   Jamie Huber




Abbreviations

CAA                 Clean Air Act
CAAA                1990 Clean Air Act Amendments
DQO                 Data Quality Objective
EPA                 Environmental Protection Agency
I&M                 Inspection and Maintenance
MCD                 Milestone Compliance Demonstration
NEI                 National Emissions Inventory
NOx                 Nitrogen Oxide
OAQPS               Office of Air Quality Planning and Standards
OIG                 Office of Inspector General
PAMS                Photochemical Assessment Monitoring Station
PEI                 Periodic Emissions Inventory
ppm                 parts per million
QAPP                Quality Assurance Project Plan
ROP                 Rate-of-Progress Plan
SIP                 State Implementation Plan
tpd                 tons per day
VOC                 Volatile Organic Compound




Cover photo:    Photographs of Houston from a 68th floor monitoring location under
                clear and smoggy conditions. Source: EPA Air Quality Trends Site.
                            UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                         WASHINGTON, D.C. 20460


                                                                                            OFFICE OF
                                                                                       INSPECTOR GENERAL




                                       September 29, 2004

MEMORANDUM

SUBJECT:             EPA and States Not Making Sufficient Progress in Reducing
                     Ozone Precursor Emissions In Some Major Metropolitan Areas
                     Report No. 2004-P-00033

FROM:                J. Rick Beusse /s/
                     Director, Air Issues
                     Office of Program Evaluation

TO:                  Jeffrey R. Holmstead
                     Assistant Administrator for Air and Radiation (6101A)


Attached is our final report regarding Environmental Protection Agency and State efforts to
progressively reduce ozone precursor emissions and measure actual precursor emission reductions
as required by the Clean Air Act. This report contains findings that should help EPA in its efforts
to ensure that the most polluted metropolitan areas expeditiously attain the 1-hour ozone standard,
as well as help the Agency implement and oversee the more stringent 8-hour standard. Also, the
report contains corrective actions the Office of Inspector General (OIG) recommends. This report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determination on matters in this report will be made by
EPA managers in accordance with established procedures.

Action Required

In accordance with EPA Manual 2750, as action official, you are required to provide a written
response within 90 days of the final report date. The response should address all
recommendations. For the corrective actions planned but not completed by the response date,
please describe the actions that are ongoing and provide a timetable for completion. If you do not
concur with a recommendation, please provide alternative actions addressing the findings
reported. We appreciate the efforts of EPA officials and staff, as well as external stakeholders, in
working with us to develop this report. For your convenience, this report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (919) 541-5747
or John Price, Assignment Manager, at (404) 562-9837.
                         Executive Summary
Purpose
                Ground level ozone, the most pervasive urban air pollutant, has been linked to
                respiratory illnesses and other serious public health concerns, such as asthma and
                heart disease. Over 159 million Americans live in areas that do not meet the
                Environmental Protection Agency’s (EPA) current 8-hour ozone standard. Ozone
                also damages sensitive ecosystems and is responsible for more than one billion
                dollars in agricultural crop losses in the United States each year. Many of the
                most polluted metropolitan areas are still struggling to attain EPA’s 1-hour ozone
                standard established over 25 years ago. The more stringent 8-hour standard that
                EPA and States began implementing in 2004 presents even greater challenges.
                The 1990 Clean Air Act Amendments recognized that reducing the precursor
                emissions that cause ozone – nitrogen oxides (NOx) and volatile organic
                compounds (VOC) – was the primary method for assuring permanent ozone
                reductions and, as such, mandated increasing levels of emissions reductions until
                attainment was achieved. Accordingly, our objectives were to answer the
                following:

            •     Have emission reduction controls been as effective as originally projected in
                  reducing ozone precursor emissions (NOx and VOC)?

            •     Have emission reduction plans and related controls been properly completed
                  and implemented to reduce precursor emissions by 3 percent annually within
                  the timeframes established by the Act?

            •     Have EPA and States adequately measured the effectiveness of emission
                  controls in reducing (1) overall precursor emissions as required by the Act,
                  and (2) ambient ozone concentrations?

Results in Brief

          Despite national and regional progress, some major metropolitan areas have not
          achieved the ozone precursor emission reductions required by the 1990 Act. Our
          analysis of EPA emissions data for “serious,” “severe,” and “extreme” ozone
          nonattainment areas indicates that some major metropolitan areas may not have
          achieved the required 3-percent annual emission reductions in ozone precursor
          emissions. For example, 23 of 28 emissions reduction plans submitted since 1990 by
          10 serious to extreme nonattainment areas raised questions as to whether required
          precursor emissions reductions were achieved by the dates specified in the Act.
          Further, precursor emissions in some areas may actually have increased. While EPA
          air trends reports have emphasized that ozone levels are declining nationally and
          regionally, only 5 of 25 nonattainment areas designated serious to extreme have
          experienced substantial downward trends in ozone levels. For some areas, EPA data
          indicate emission controls for the last 10 years have generally offset growth but have
      not significantly reduced ozone levels. Also, analyses by EPA and other researchers
      indicate that recent downward trends in ozone may be more related to changes in
      weather patterns than emission reductions. Delays in reducing ozone levels can have
      serious health implications for persons in nonattainment areas.

      EPA and States encountered numerous difficulties in developing and implementing
      adequate emission control plans for reducing ozone precursor emissions by 3 percent
      annually by the dates mandated in the Act. In addition, States may have used
      inaccurate data, assumptions, and projections of emission growth, resulting in fewer
      reductions planned than appropriate. For example, the ozone emissions reduction
      plan for the Atlanta metropolitan area assumed a growth rate that was about half of
      the population growth rate that the Atlanta metropolitan area experienced from 1980
      to 2000, and about one-third of Atlanta’s growth rate for employment. The Act
      requires emission reductions of at least 3 percent annually over and above an area’s
      growth. Limited EPA oversight of the development and implementation of emission
      control plans contributed to the difficulties States encountered in reducing emissions
      by the required 3 percent annually. Additionally, a 1997 EPA policy allowing
      nonattainment areas to claim emission reductions from selected sources outside of
      the nonattainment areas allows for potential double-counting and does not ensure
      that reductions do more than just offset growth.

      EPA and States have not adequately measured whether the Nation’s worst ozone
      nonattainment areas have made acceptable progress in reducing ozone precursor
      emissions. In the 14 years since passage of the 1990 Amendments, EPA has not
      issued rules requiring States to demonstrate progress in reducing precursor
      emissions, nor guidance on how such demonstrations should be conducted, despite
      the Act’s requirement to do so. Consequently, there is no approved, consistent, or
      reliable method to measure the success of ozone precursor emission reduction
      efforts. EPA still needs to develop specific, quantifiable goals and measures for
      ozone precursor emission reductions in nonattainment areas, and improve quality
      assurance processes and plans for emissions data reporting.

Recommendations

      This report contains information that should help EPA in its efforts to ensure that the
      most polluted metropolitan areas expeditiously attain the 1-hour ozone standard, as
      well as help the Agency implement and oversee the more stringent 8-hour standard.

      We are making multiple recommendations to the Assistant Administrator for Air and
      Radiation to promulgate new ozone rules, issue guidance, and take other actions
      necessary to: (a) provide consistent and reliable methods to demonstrate that
      precursor emissions have been reduced; (b) ensure that States perform such
      demonstrations and implement needed controls where necessary; (c) expand the use
      of meteorologically adjusted ozone trends; (d) strengthen EPA oversight of planning;
      (e) ensure that control measures are timely developed, approved, and implemented;


                                          ii
       and (f) develop data quality objectives and proper quality assurance plans and
       processes.

Agency Comments and OIG Evaluation

       In his September 17, 2004, response to the draft report, the Assistant Administrator
       noted that the report provides insightful recommendations for EPA’s consideration.
       He also noted that some of the recommendations, such as those concerning the draft
       rule for milestone compliance demonstrations, seemed reasonable and would be
       explored as to how they can be implemented. However, he said other
       recommendations were “good in theory” but practical considerations constrain EPA
       from implementing them.

       The Agency’s response generally agreed with the report’s findings except for the use
       of National Emissions Inventory (NEI) data as an indicator as to whether selected
       nonattainment areas had achieved ozone precursor emission reductions required by
       the Act. EPA’s response indicated that NEI emissions data was not of sufficient
       quality and did not contain emission data in the proper units of measure needed to
       adequately determine the amount of emission reductions achieved by individual
       nonattainment areas. However, EPA has promoted the NEI as the highest quality
       emissions data available, has used the data for regulatory planning and support, and
       continues to use the data for national, regional, and State emission trends in
       publically released reports. Further, during our evaluation, senior EPA experts told
       the OIG that updated NEI emissions data could provide a reliable indicator of
       emissions reductions achieved by individual nonattainment areas. Additionally, the
       Agency provides NEI-developed emissions data to States for use in their periodic
       emissions inventories. As such, we continue to believe that NEI data is the best
       available indicator of whether individual nonattainment areas have met the precursor
       emission reductions required by the Act, and that analysis of the precursor emissions
       data in NEI will help EPA ensure that permanent ozone reductions have been
       achieved as required by the Act. The use of NEI data is further discussed in the
       OIG’s evaluation of the Agency’s response at the end of Chapter 2.

       The Agency’s response also indicated that EPA preferred to focus its limited
       resources on current and future implementation of the 8-hour standard rather than
       assess the effectiveness of its planning, controls, and emission reductions under the
       1-hour standard since enactment of the 1990 Clean Air Act Amendments, over 14
       years ago. We do not disagree that the Agency should utilize available resources on
       effective implementation of 8-hour policies, plans, and related emission controls.
       However, we believe that the Agency first needs to assess the effectiveness of its
       ozone policies, plans, and controls under the 1-hour standard before it can determine
       the most efficient and effective methods and controls for implementing the 8-hour
       standard. The Agency also provided technical comments on the draft report, and we
       have made changes in the final report as deemed appropriate.



                                           iii
The Agency’s responses to individual recommendations and our evaluation are
summarized at the end of each chapter. The Agency’s response is included in its
entirety as Appendix H, and that appendix includes a detailed OIG evaluation of the
Agency response.




                                   iv
                                     Table of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



 Chapters

           1        Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1



                                                     Effectiveness of Controls

           2        Despite National and Regional Progress, Some Major Metropolitan
                    Areas Have Not Achieved Required Emission Reductions . . . . . . . . . . .                                       6



                                                    Emission Reduction Plans

           3        Rate-of-Progress Plans Delayed or in Error . . . . . . . . . . . . . . . . . . . . . . . .                       18

           4        EPA Policy Allowing Outside Emission Reduction Credits
                    Creates Inequities and Hampers Attainment . . . . . . . . . . . . . . . . . . . . . . . 31



                                                              Measurement

           5        Reliable Processes Needed to Measure Overall
                    Emission Reductions and Related Impacts . . . . . . . . . . . . . . . . . . . . . . . .                          39

           6        Opportunities Exist to Enhance Measurement of
                    Emission Reductions and Ozone Trends . . . . . . . . . . . . . . . . . . . . . . . . . .                         46

           7        Specific Performance Goals and Measures Not Developed . . . . . . . . . . . 50

           8        Quality Assurance Reviews and Plans Need Improvement . . . . . . . . . . . . 54




                                                                   v
Appendices
    A        Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           60

    B        Timeline of Clean Air Act Requirements . . . . . . . . . . . . . . . . . . . . . . . . . .                             64

    C        Details on EPA Analyses of Meteorologically-Adjusted
             Ozone Observations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               65

    D        Details on State Delays in Submitting ROP Plans . . . . . . . . . . . . . . . . . . .                                  67

    E        Growth Factors Used In Projecting ROP Emissions for Atlanta Area . . .                                                 72

    F        Outside NOx Reductions Claimed in Post-1996
             Chicago-Gary-Lake County Nonattainment Area ROP Plan . . . . . . . . . . .                                             74

    G        Examples on Use of Outside Emission Credits . . . . . . . . . . . . . . . . . . . . .                                  76

    H        Agency Response to Draft Report and OIG Evaluation . . . . . . . . . . . . . .                                         78

    I        Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       95



                                                            Tables

 1.1:   Sources of Precursor Emissions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          2
 1.2:   Designation Status of 50 Areas in Nonattainment, May 2004 . . . . . . . . . . . . . . . . . .                           3
 2.1:   Percent Reduction in Precursor Emissions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                8
 2.2:   Nonattainment Areas With Increasing NOx and/or VOC Emissions . . . . . . . . . . . . .                                  9
 2.3:   Summary for Trend Report With Nonattainment Area Totals . . . . . . . . . . . . . . . . . .                            11
 3.1:   Differences in VOC Targets and VOC Emissions in PEIs . . . . . . . . . . . . . . . . . . . . .                         23
 3.2:   Differences in NOx Targets and NOx Emissions in PEIs . . . . . . . . . . . . . . . . . . . . .                         24
 3.3:   Outside Emission Reduction Credits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           25
 3.4:   Attainment Date Extensions and Suspension of ROPs . . . . . . . . . . . . . . . . . . . . . . .                        27
 8.1:   Regional Receipt and Review of Nonattainment Area PEIs . . . . . . . . . . . . . . . . . . .                           56
 A.1:   12 Nonattainment Areas Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            61
 D.1:   15-Percent ROP Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   68
 D.2:   Post-1996 (9%) ROP Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       70
 F.1:   NEI NOx Data for Illinois Power Plants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           75


                                                        Illustrations

 1.1:   Map of Ozone Nonattainment Areas for the New 8-hour Standard . . . . . . . . . . . . . .                                4
 2.1:   Comparison of Actual and Meteorological Adjusted 8-Hour O3 Trends, 1993-2002 .                                         10
 B.1:   Timeline of Clean Air Act Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             64
 C.1:   Baltimore 8-hour Ozone Trends . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        66




                                                               vi
                                Chapter 1
                                 Introduction
Purpose

          The most complex, difficult to control, and pervasive urban air pollutant is
          tropospheric, or ground level, ozone. Tropospheric ozone has been linked to
          respiratory illnesses and other serious health concerns, such as asthma and heart
          disease. About 109 million Americans live in areas that do not meet EPA’s
          1-hour ozone standard – issued over 25 years ago – that requires ozone levels not
          exceed an average of .12 parts per million (ppm) over a 1-hour period.

          Concerned with the lack of progress in controlling ozone, Congress enacted the
          Clean Air Act Amendments of 1990 (Act), in part, to ensure attainment of EPA’s
          1-hour ozone standard by specific dates. The 1990 Act recognized that reducing
          the precursor emissions that cause ozone – nitrogen oxides (NOx) and volatile
          organic compounds (VOC) – was key to ensuring permanent ozone reductions
          and, as such, mandated increasing levels of emissions reductions until attainment
          was achieved. Since then, research has found that ozone causes adverse health
          effects at lower levels and over longer periods of time than once thought. As a
          result, EPA issued a more stringent ozone standard that took effect in April 2004
          requiring ozone levels not to exceed an average of .08 ppm over an 8-hour period.
          Because of difficulties in bringing areas into compliance with the 1-hour standard
          and the even greater challenges associated with the new 8-hour standard, our
          objectives were to answer the following:

          •   Have emission reduction controls in place been as effective as originally
              projected in reducing ozone precursor emissions (NOx and VOC)?

          •   Have emission reduction plans and related controls been properly completed
              and implemented to reduce precursor emissions by 3 percent annually within
              the timeframes established by the Act?

          •   Have EPA and States adequately measured the effectiveness of emission
              controls in reducing (1) overall precursor emissions as required by the Act,
              and (2) ambient ozone concentrations?

Background

          Ozone (O3), a gas composed of three oxygen atoms, occurs naturally in the
          stratosphere approximately 10 to 30 miles above the earth’s surface and forms a
          layer that protects life on earth from the sun’s harmful rays. This is stratospheric
          ozone. Ozone is also formed at ground level by a complex, atmospheric chemical

                                           1
reaction of oxides of nitrogen and volatile
organic compounds in the presence of
sunlight and heat. In addition to serious       VOC + NOx + Sunlight/Heat = Ozone

adverse health effects, this ground-level,
or tropospheric, ozone also damages
sensitive ecosystems and is responsible for more than one billion dollars in
agricultural crop losses in the United States each year.

Known as precursor emissions, sources of NOx and VOCs include a wide range
of stationary, area, and mobile sources, including:

                      Table 1.1: Sources of Precursor Emissions
     Source                                  Examples of Sources

 Stationary       Utilities, refineries, chemical manufacturers, automobile manufacturers,
                  most other industrial activities

 Area             Dry cleaners, service stations, wood burning stoves

 Mobile           On-road:    Cars, trucks, locomotives
                  Off-road:   Heavy construction machinery, generators, off-road vehicles



Clean Air Act Mandate for Precursor Emission Reductions

In accordance with the Act, EPA and States are required to obtain increasing
levels of VOC and NOx emission reductions until attainment is achieved. For
example, nonattainment areas were to have reduced ozone precursor emissions
15 percent by 1996 and 24 percent by 1999 from a 1990 baseline.

The 1990 Act requires that ozone nonattainment areas reach attainment by
specific dates based on their nonattainment classification. These requirements
came about, in part, because States did not always fulfill State Implementation
Plan (SIP) requirements during the 1980s to implement controls and reduce ozone
precursor emissions. The 1990 Act established five nonattainment classifications
(marginal, moderate, serious, severe, extreme), with varying compliance dates
depending on the severity of an area’s nonattainment in 1990, or at time of
nonattainment designation. In accordance with Sections 110 and 185 of the Act,
sanctions may be imposed against areas that fail to submit and implement
adequate plans. Attainment status is determined from ambient air monitor
readings from over 1,100 air monitors located throughout the United States.

Ozone Attainment Status

As of May 2004, 47 areas initially classified “marginal” or “moderate” for ozone
nonattainment had subsequently achieved the 1-hour ozone standard and been
redesignated to attainment. However, 50 areas initially classified “marginal” to
“extreme” under the 1990 Act still have not attained the 1-hour standard.

                                    2
             Table 1:2: Designation Status of 50 Areas in Nonattainment, May 2004
                                                           Clean Air Act              Areas Still
     Nonattainment            Population Affected            Mandated             Nonattainment as of
      Designation              by Nonattainment           Attainment Date             April 2004
 Extreme                            17,784,000                  2010                         2
 Severe                             55,853,000               2005-2007                      12
 Serious                            19,265,000                  1999                        10
 Moderate                             3,251,000                 1996                         6
 Marginal                             6,944,000                 1993                        19
 Othera                               6,542,000                 2005                         1

 Totals                            109,639,000                                              50

 a   San Francisco, California, was designated nonattainment and classified as a moderate nonattainment
     area in 1999 with a 2005 attainment deadline.


Twenty-one of the 25 areas classified “serious,” “severe,” or “extreme” were
metropolitan areas. Only 4 of 25 areas classified serious or above have been
redesignated to attainment since the 1990 Act was passed; 5 areas classified
serious or above have been reclassified to a lower nonattainment classification.

As shown in Table 1.2, the attainment date specified in the Act has already passed
for 35 of the 50 areas. Additionally, three areas (Atlanta, Georgia; Baton Rouge,
Louisiana; and Washington, DC) were recently elevated from serious to severe
nonattainment because of their failure to attain the 1-hour standard by 1999. The
San Joaquin Valley, California, nonattainment area was elevated from severe to
extreme nonattainment in 2004.

In April 2004, EPA designated 126 areas containing 474 counties as
nonattainment for the more stringent 8-hour health-based ozone standard. The
219 counties that still have not achieved the 1-hour standard, as of May 17, 2004,
are included in these 474 counties. The map below shows the location of the 474
counties; most lie within the largest metropolitan areas.




                                           3
                         Illustration 1.1: Map of Ozone Nonattainment Areas for the New 8-hour Standard




                  Source: The Ozone Report: Measuring Progress Through 2003, EPA report published April 2004


                  Responsibility for national ozone policies, guidance, and program management is
                  principally vested in the Office of Air Quality Planning and Standards (OAQPS),
                  Research Triangle Park, North Carolina, which is within EPA’s Office of Air and
                  Radiation. Oversight of State and local ozone reduction programs is the
                  responsibility of EPA’s 10 regional offices.

                  Health Concerns Associated With Prolonged Ozone Exposure

                  Health researchers have frequently associated ozone pollution with a variety of
                  human respiratory problems, including asthma attacks, respiratory-related
                  hospitalizations, reductions in lung function, respiratory symptoms (such as
                  coughing, shortness of breath, and nausea), increased susceptibility to respiratory
                  infection, and pulmonary inflammation. The health care costs of human exposure
                  to outdoor air pollutants range from $40 to $50 billion annually. In addition, an
                  estimated 50,000 to 120,000 premature deaths are associated with exposure to air
                  pollutants. People with asthma experience more than 100 million days of
                  restricted activity with an economic cost exceeding $4 billion.

                  Health effects can result from exposure to high levels of ozone over short time
                  periods, but also from longer exposure to lower levels of ozone. One of the most
                  common health problems attributed to unhealthy ozone levels is asthma. The
                  prevalence of asthma in the United States has been increasing steadily. In 1980,
                  an estimated 7 million people in the United States were diagnosed as having
                  asthma, while in 2000 there were an estimated 29.5 million cases.1 Recent studies
                  have linked elevated ozone levels to school absences due to asthma and other


       1
           It should be noted that a 1997 change in the survey form used may have had some impact on the different
numbers.

                                                           4
         respiratory ailments, and scientists have found that ozone may not only trigger
         asthma but also could contribute to the development of the disease in children.
         According to several public health organizations, including the American Public
         Health Association and Harvard Medical School, cases of asthma are rising so fast
         it is now widely viewed as an epidemic – one that is hitting hardest at the very
         young, minorities, elderly, and the poor.

Scope and Methodology

         To assess the effectiveness of ozone emission control efforts by EPA and States,
         we reviewed documentation, regulations, and guidance, and EPA and external
         analyses/studies of air monitoring data for individual ozone nonattainment areas.
         We also performed analyses of data from EPA’s National Emissions Inventory
         (NEI) and Air Quality System, and interviewed officials from OAQPS, six EPA
         regions, and two States. Additional interviews were conducted with external
         atmospheric modeling scientists/engineers and other external stakeholder
         organizations. Budget and staffing information related to EPA’s ozone program
         were obtained from OAQPS and the EPA’s Office of the Chief Financial Officer.
         We also reviewed pertinent sections of the Clean Air Act, as amended.

         Our field work was generally conducted from February 2003 to May 2004. We
         conducted this evaluation in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States. Additional details on our
         scope and methodology are in Appendix A.




                                         5
                             Effectiveness of Controls

                                Chapter 2
      Despite National and Regional Progress,
  Some Major Metropolitan Areas Have Not Achieved
          Required Emission Reductions
          Our analysis of EPA emissions data for serious, severe, and extreme ozone
          nonattainment areas indicated that some areas may not have achieved the emission
          reductions mandated by the CAA, and precursor emissions of NOx and VOCs in
          some areas may actually be increasing. While EPA air trend reports have
          emphasized that ozone levels are declining nationally and regionally, only 5 of 25
          serious to extreme nonattainment areas have experienced significant downward
          trends in ozone levels. Also, recent downward trends may be more related to
          changes in weather patterns than emission reductions. For individual serious to
          extreme nonattainment areas, EPA data indicate emission controls for the last
          10 years have generally offset ozone growth but have not significantly reduced
          ozone levels. Factors that contributed to these conditions included delays in
          developing Rate-of-Progress Plans and controls (see Chapters 3-4), insufficient
          measurement of emission reductions (see Chapters 5-7), and inadequate EPA
          guidance and oversight.

Act Required Specific Emission Reductions
          Section 182 of the Act required that ozone nonattainment areas develop and
          implement specific emission reduction plans within certain time frames to reduce
          precursor emissions until attainment was achieved. The Act also required that
          precursor emissions be reduced an average of 3 percent annually “net of growth”
          (the minimum percentage reduction plus any projected growth in emissions) for
          each 3-year period subsequent to the enactment of the 1990 Clean Air Act
          Amendments (CAAA). Further, the Act required that plans include contingency
          control measures in case the primary controls did not achieve the required
          reductions in precursor emissions or the area failed to attain the ozone standard by
          the statutory attainment date. The following emission reduction plans were
          required:

          •   The first emission reduction plan, referred to by EPA as the 15-percent
              Rate-of-Progress (ROP) Plan, was to be submitted by State and local agencies
              within 3 years of enactment of the 1990 Act (November 15, 1993), and
              achieve a minimum 15-percent reduction in VOCs within 6 years
              (November 15, 1996).



                                           6
         •   Additional ROP Plans to reduce precursor emissions at a rate of at least
             3 percent annually “net of growth” were required for each 3-year period after
             1996 until an area attains the 1-hour standard. These additional plans, referred
             to by EPA as “post-1996 ROP Plans,” or 9-percent ROP Plans, were required
             to be submitted by States within 4 years of enactment (November 15, 1994).
             The first post-1996 ROP Plan had a November 15, 1999, milestone date.

         In addition to ROP Plans, Section182(g)(2) of the Act required States to
         demonstrate that these emission reductions had actually been achieved. States
         with serious and above nonattainment areas were to submit milestone compliance
         demonstrations within 90 days after the milestone date for achieving emission
         reductions. The Act also required States to submit 1990 baseline VOC and NOx
         emission inventories for each nonattainment area and, thereafter, develop periodic
         emission inventories for every 3-year period, until attainment of the ozone
         standard. According to OAQPS, their interpretation of the Act is that the
         demonstrations should include a comparison of baseline inventories to the
         applicable periodic emission inventories as a measure of emission reductions.

         A timeline of the Act’s requirements is provided in Appendix B.

Required Emission Reductions Not Achieved

         The NEI, maintained by OAQPS, is a continuously updated national database of
         air emissions information based on input from numerous State and local air
         agencies, tribes, and industry. This database contains information on stationary
         and mobile sources that emit criteria air pollutants and their precursors, such as
         VOCs and NOx, as well as hazardous air pollutants. The inventory is
         continuously updated, focusing on every third, periodic inventory year (1990,
         1993, 1996, 1999, etc.). Starting in 2003, OAQPS initiated a major effort to
         update the inventory’s VOC and NOx data back to 1990 based on the EPA’s latest
         models, methodologies, and emission factors. As of January 2004, inventory data
         had been updated from 1990 through 1999. According to Agency officials, the
         NEI is EPA’s best available data on facility emissions at the present time.

         Our analysis of 1990-1999 VOC and NOx data in EPA’s NEI database for
         12 serious or severe nonattainment areas indicated that some areas may not have
         achieved the emissions reductions required. For example:

         •   Seven areas did not achieve a 15-percent reduction in VOCs by the November
             15, 1996 deadline, and six of the seven areas still had not achieved a
             15-percent reduction by the next deadline – November 15, 1999.

         •   Eight areas did not achieve the combined 24-percent reduction in precursor
             emissions by the November 15, 1999, deadline; however, two of the eight



                                          7
                      areas (Sacramento, California, and Washington, DC) were within 1 percent of
                      the required 24-percent reduction.

                 Table 2.1 shows the emission reductions achieved by the 12 nonattainment areas
                 between 1990-1996 and 1990-1999. Nonattainment area reductions that did not
                 meet the Act’s required 15-percent VOC reductions by 1996 are shown in bold
                 blue text; similarly, combined VOC and/or NOx reductions that did not meet the
                 24-percent reduction requirement by 1999 are shown in bold red text. A negative
                 number indicates an increase in emissions. Also, 1990 NEI emissions for each
                 nonattainment area were adjusted for noncreditable emissions as required by the
                 Act.2

                                        Table 2.1: Percent Reduction In Precursor Emissions
                                                                    % Reductions                     % Reductions by
                                                                    by 11/15/1996                       11/15/1999
                               Nonattainment Area
                                                                         VOC              VOC            NOx      Combined

                   Atlanta (GA)                                         -10.92 a         -14.04         -17.68     -31.72 b
                   Baltimore (MD)                                        28.73            23.90          6.97          30.87
                   Boston-Lawrence-Worcester (MA, NH) c                  5.39             10.11          17.68         27.79

                   Chicago-Gary-Lake County (IL, IN) c                  -13.33            0.81           -1,72         -0.91
                                                                                                 d
                   Dallas-Fort Worth (TX)                                11.73           17.25          -12.11         17.25
                                            c                                                    d
                   Milwaukee-Racine (WI)                                -26.44           12.68          -17.80         12.68

                   Portsmouth-Dover-Rochester (NH)                       -2.10           -18.67          17.61         -1.06
                   Providence (RI)                                       19.38            8.19           6.50          14.69
                   Sacramento Metro (CA)                                 20.28            15.88          7.75          23.63
                   San Joaquin Valley (CA)                               42.78            35.53          -0.85         34.68
                   Springfield (MA)                                      18.48            16.51          15.23         31.74
                   Washington DC Area (DC, MD, VA)                       3.82             9.25           14.38         23.63

                  a   Blue text indicates nonattainment area reductions that did not meet the required 15-percent reduction in
                      VOCs by 1996. The negative sign in front of the numbers means that there was an increase in precursor
                      emissions.
                  b   Red text indicates nonattainment area combined reductions that did not meet the required 24-percent
                      reduction in VOC and/or NOx emissions by 1999.
                  c   States claimed either NOx or VOC emission reductions outside of nonattainment areas in post-1996
                      ROPs for Illinois portion of Chicago-Gary-Lake County, New Hampshire portion of Boston-Lawrence-
                      Worcester, and Milwaukee-Racine. The emission sources outside of these areas, for which emission
                      credit was claimed, were added to analysis of overall reductions.
                  d   Dallas-Fort Worth and Milwaukee-Racine 15-percent and post-1996 ROPs included only VOC controls;
                      therefore, only VOC reductions were included in combined reduction total for each.


                 EPA’s NEI data indicate that precursor emissions actually increased between 1996
                 and 1999 for eight areas. For many of these areas, the increase could indicate that,
                 although the minimum 9-percent in required emission reductions may have been

        2
         The Clean Air Act prohibits nonttainment areas from receiving credit for emission reductions from certain
pre-1990 emission controls, primarily Federal emission control programs. Nonattainment area baseline emissions
must be adjusted for projected reductions from these controls between 1990 and the applicable ROP milestone date.

                                                             8
          achieved, the reductions attained between 1996 and 1999 were not “net of
          growth.” Similarly, one area (Providence) that achieved a 15-percent VOC
          reduction by November 15, 1996, had significantly less than 15-percent by
          November 15, 1999, potentially due to growth in VOC emissions. According to
          the 1990 Act, required reductions should be the minimum specified percentage
          plus any projected growth in emissions.

          Table 2.2 shows those areas where VOC and/or NOx emissions increased between
          1996 and 1999.

                     Table 2.2: Nonattainment Areas With Increasing NOx and/or VOC Emissions
                                                               % Change in        % Change In      % Change In
                 Nonattainment Area            Precursor       Emissions          Emissions         Emissions
                                                                1990-1996          1990-1999       1996-1999 a

           Atlanta                               VOC                12.6             14.04             1.44
           Baltimore                             VOC               -28.73             -23.9            4.83
           Dallas-Fort Worth                      NOx               0.76             12.11            11.35 b

           Portsmouth-Dover-Rochester            VOC                2.1              18.97             16.87

           Providence                             NOx              -18.55             -6.5             12.05
                                                 VOC               -19.38             -8.19            11.19

           Sacramento Metro                       NOx              -20.28             -7.75           12.53 b
           San Joaquin Valley                     NOx              -13.87             0.85            14.72 b
                                                 VOC               -42.78            -35.53            7.25

           Springfield                            NOx              -22.96            -15.23            7.73

                                                 VOC               -18.48            -16.51            1.97

          a   Red text indicates those areas that experienced an increase in VOC or NOx emissions between 1996 and
              1999. The negative sign in front of the numbers means that there was a reduction in emissions.
          b   These areas did not include NOx controls in their post-1996 ROPs.


EPA Analyses and Reports Indicate No Significant Improvements
in Ozone Levels for Many Nonattainment Areas

          Despite the decreases in ambient ozone concentrations nationwide and regionally,
          recent EPA analyses and long-term trend reports show that there have been no
          significant improvements in ozone levels for individual nonattainment areas,
          especially metropolitan areas. As discussed below, decreases in ambient ozone
          observations may be more related to temporary factors such as changes in weather
          and wind patterns than in reduction of precursor emissions.

          EPA Analyses of Meteorologically Adjusted Ozone Observations

          In 2003, OAQPS developed and analyzed 1990 through 2002 meteorologically
          adjusted ambient 8-hour ozone observations for 53 metropolitan areas, which
          included 19 serious, severe, and extreme ozone nonattainment areas. Our analysis
          of the ozone levels and charts developed by OAQPS for the 19 nonattainment

                                                   9
areas indicated that, once weather had been excluded as a factor in ozone
formation, 12 areas had achieved little or no improvements in ozone levels over
the 13-year period. Ten of the 12 areas had approximately 5 percent or less
decrease in ozone levels, while two actually had increases in ozone levels of up to
9 percent since 1990. Three of the 12 areas had also exhibited upward trends in
ozone levels between 1999 and 2002. The remaining seven areas had downward
trends in ozone, ranging from reductions of about 7 percent to almost 15 percent
(Los Angeles area). Further details are in Appendix C.

EPA included an analysis of the 1993 through 2002 meteorologically adjusted
ozone data for the 53 metropolitan areas in the publically released report, Latest
Findings on National Air Quality, 2002 Status and Trends, dated August 2003.
EPA’s conclusions generally confirmed the results of our analysis of the same
data, stating “. . . the meteorologically adjusted trend for this 10-year period can
be seen as relatively flat.” This trend indicates that emission controls have
effectively eliminated growth in ozone pollution but have not significantly
reduced ozone levels since 1993, as shown in Illustration 2.1.

                                      Illustration 2.1:




Ozone Trends from EPA’s Air Quality System

At our request, OAQPS performed a special trend analysis of 1-hour and 8-hour
ozone exceedance days and maximum observed ozone levels for the period 1992
through 2003 using EPA’s Air Quality System. The study included 25 serious to
extreme nonattainment areas covering 21 metropolitan and 4 non-metropolitan
areas. For the 25 serious to extreme nonattainment areas:


                                 10
                 •       Four experienced statistically significant downward trends in the number of
                         ozone exceedance days for the 1-hour standard;

                 •       Five experienced downward trends under the 8-hour standard; and

                 •       The remaining areas showed no statistically significant upward or downward
                         trends.

                 In terms of maximum ozone level observations between 1992 and 2003 for the
                 25 serious to extreme areas,

                 •       Five experienced statistically significant downward trends under the 1-hour
                         standard;

                 •       Five experienced statistically significant downward trends under the 8-hour
                         standard; and

                 •       All but one of the remaining areas showed no statistically significant upward
                         or downward trends (El Paso area showed statistically significant upward
                         trend).

                 Details are in Table 2.3.
                                 Table 2.3: Summary for Trend Report With Nonattainment Area Totals
                                        Ozone Exceedance Days 1992-2003           Maximum Ozone Observations 1992-2003

                                   Down Trenda         No        Up Trenda         Down Trenda        No           Up Trenda
                  Standard                            Trend
                                                        a
                                                                                                     Trend
                                                                                                       a
                                  Sig.     Not Sig.           Sig.    Not Sig.     Sig.   Not Sig.            Sig.     Not Sig.

                     1-hour         4         13       3        0         5        5         16        0       0          4

                     8-hour         5         10       0        0        10        5         13        0       1          6

                     a   EPA determined the up and down trends through a linear regression analysis of the actual ozone
                         exceedance days and observed maximum ozone levels for each nonattainment area.


                 Analysis of Two Major Metropolitan Areas Shows Little Change in
                 Precursor Emissions

                 The Photochemical Assessment Monitoring Station (PAMS), established within
                 most metropolitan nonattainment areas in 1994, measures ambient concentrations
                 of NOx and many VOCs. In 2002 EPA performed a limited analysis of PAMS
                 data for two severe nonattainment areas – Atlanta and Chicago-Gary-Lake
                 County. According to the EPA study,3 composite NOx trends for the 1995-2001
                 period were generally flat for the Chicago area, and showed a slight upward trend
                 for the Atlanta area. None were statistically significant, indicating little change in

        3
         The report, Analysis of Ambient Air Quality Trends in the Chicago and Atlanta Ozone Nonattainment
Areas, was issued on September 30, 2002.

                                                              11
                  NOx emissions. However, 1995-2001 VOC concentrations did decline during the
                  morning precursor buildup period, although this decline was not consistent and
                  needed further study.

                  The EPA report further stated that decreases in ambient peak ozone
                  concentrations in the Chicago area from 1991-2001 (1-hour) and 1996-2001
                  (8-hour) were fairly modest, and none of the composite trends were found to be
                  statistically significant. For the Atlanta area, annual 1-hour ozone design values4
                  showed a slight upward trend for the 1991-2001 period, while annual 8-hour
                  design values decreased between 1996-2001, primarily because of a relatively
                  large drop in 2001 ozone levels.

                  Despite National and Regional Progress, Many Metropolitan Areas
                  Show Little Change

                  EPA air quality trend reports for 2001 through 2003 generally documented
                  downward trends in ozone levels and in precursor emissions, especially VOCs, at
                  the national and regional level over the last 10- and 20-year periods. Recently,
                  however, EPA reports5 have noted that NOx emissions have only been reduced
                  12 percent in the last 10 years and only 15 percent over the last 20 years, and that
                  more NOx reductions will be necessary before more substantial ozone air quality
                  improvements are realized. For example, in its September 2003 report on ozone
                  trends, EPA noted there were increases in certain key areas:

                       Ozone concentrations are on the increase in several cities in the
                       southeastern and midwestern United States, while urban areas on the West
                       Coast and in New England generally show decreasing trends. The 1-hour
                       trends show an increasing number of cities with upward ozone trends in
                       the western and mid-Atlantic urban areas and a decreasing number of
                       cities with upward ozone trends in the Southeast.

                  Similarly, in April 2004, EPA reported6 that the 2003 ozone season had exhibited
                  the lowest observed ozone levels since 1980, yet some areas – especially
                  metropolitan areas – had not experienced a significant downward trend in ozone
                  levels. EPA also noted that favorable weather conditions assisted in the lower
                  ozone concentrations, and EPA cites a study of meteorologically adjusted ozone
                  trends for individual regions and 35 metropolitan areas, which found that:


         4
          Ozone design values generally represent the 4th highest daily maximum value (reading) over a 3-year
period; however, if only 2 years of data are available, the design value is the 3rd highest daily maximum value; if only
1 year, the 2nd highest daily maximum value is the design value.
         5
         Latest Findings on National Air Quality, August 2003, and National Air Quality and Emission Trends
Report, 2003, September 2003.
         6
          The Ozone Report: Measuring Progress Through 2003, April 2004

                                                          12
             ...The influence of weather makes it difficult to isolate the specific changes in
             ozone concentrations that result from VOC and NOx reductions. In addition...
             assessing trends in ozone levels nationally or by EPA Region may mask
             important local differences that make it difficult to determine direct influence
             of emission reductions....

             Before adjusting for weather, EPA Regions 3, 4, and 6 show improving air
             quality, with average reductions in ozone levels of 9% to 21%. After
             adjusting for weather, however, each Region demonstrates a more
             moderate decline. The most dramatic effect of the meteorological
             adjustment is in Region 4, where the adjusted trend shows a 4% decrease,
             compared with a 21% decrease for the unadjusted trend. Region 6 shows
             the largest improvement, 9%, after adjusting for meteorology. Ozone
             levels in the midwest and central regions of the country show the same
             percent increase in ozone both with and without the meteorological
             adjustment. EPA Region 2 shows a larger increase in ozone levels after
             the meteorological adjustment is applied.

Reports By Others Also Find Little Change in Some Areas

          EPA analyses indicating little improvements in ozone levels for many
          nonattainment levels are supported by an independent analysis for the Atlanta
          nonattainment area and reports issued by the American Lung Association.

          Atlanta Report Notes 2001 Ozone Levels Same as 1981

          A 2002 independent study of Atlanta’s meteorologically adjusted 8-hour ozone
          levels for the period 1981 through 2001 was performed by an atmospheric
          research scientist with the Georgia Institute of Technology. He used the EPA
          method of statistically adjusting out weather variations for the 20-year period.
          The study concluded that, between 1981 and 2001, there had been no statistically
          significant changes in ozone levels for the Atlanta area due to reductions of
          precursor emissions, once weather was eliminated as a factor. In essence,
          reductions in precursor emissions had only offset emissions growth during the
          period.

          American Lung Association Reports Indicate
          Ozone Decreases May Be Weather Related

          State of the Air reports published by the American Lung Association for 2003 and
          2004 indicated that ambient ozone levels have decreased, but the reports also
          suggest that reductions may be primarily attributable to cooler summers and more
          rain than usual in some areas. For example, one American Lung Association
          news release stated that analysis of ozone data since the mid-1990s showed no
          significant ozone improvements except where there were changes in weather

                                          13
         patterns. Additionally, another American Lung Association report was quoted as
         stating that the air quality improvements for the Atlanta nonattainment area were
         largely attributed to rain and cooler temperatures during the past three summers.

Conclusions

         Our analysis of EPA emissions data indicate that some serious to extreme major
         metropolitan nonattainment areas have not reduced emissions as required by the
         Act. Also, EPA air quality data and trend reports show that although ozone levels
         have improved nationally, some areas have not experienced these improvements,
         especially metropolitan areas. At least 21 of the 25 serious to extreme ozone
         nonattainment areas represent some of the largest metropolitan areas in the
         country, and a majority of the nonattainment areas are still struggling to achieve
         the 1-hour standard.

         Given the health consequences of ozone and the repeated delays in achieving
         meaningful reductions over and above emissions growth, EPA needs to fully
         utilize all available methods to measure the effectiveness of emission controls
         implemented by individual nonattainment areas, especially metropolitan areas, in
         reducing ozone and determining whether nonattainment areas have achieved
         reductions in emissions required by the Act. EPA should consider using the NEI
         or other available methods to analyze whether all serious and above 1-hour
         nonattainment areas met emission reduction requirements, and require
         implementation of contingency measures where reductions may not have been
         achieved. If areas have failed to properly implement required emission controls,
         enforcement actions or sanctions as authorized under Section 185 of the Act may
         be necessary.

         Delays in developing ROP Plans and implementing emission controls (see
         Chapters 3-4), and insufficient evaluating and measuring of emission reductions
         (see Chapters 5-7) contributed to these conditions. Recommendations that
         address correcting these specific problems are also in those chapters. Delays in
         reducing emissions and related ozone levels have serious health implications for
         persons in nonattainment areas, particularly persons with chronic respiratory
         illnesses and vulnerable populations such as children and older adults. Therefore,
         it is necessary to address these problems as expeditiously as possible.

Recommendations

         We recommend that the Assistant Administrator for Air and Radiation:

         2-1    Perform an in-depth evaluation of the compliance of all serious to extreme
                nonattainment areas with emission reduction requirements using, at a
                minimum, precursor emissions data contained in the Agency’s NEI
                database.

                                         14
         2-2    Implement contingency measures and additional controls, where
                appropriate, as required under Section 182(g)(3) of the Act, if
                nonattainment areas have not met the Act’s emission reduction
                requirements, including the use of any enforcement and/or sanctions
                available under Section 179 of the Act for failure of a State to submit
                adequate plans and/or failure to timely and adequately implement planned
                controls to achieve required emission reductions by the statutory milestone
                dates.

Agency Comments and OIG Evaluation

         The Agency did not agree with our use of NEI data to measure emission
         reductions by individual nonattainment areas. EPA’s response stated that the use
         of NEI data to measure emission reductions would produce “dubious results”
         because: (1) the Act requires that States demonstrate reductions on a tons per
         summer day basis - using the NEI only allows an analysis of reductions using
         annual emissions data, a significant difference; (2) the NEI database simply does
         not have the same quality of data as emission inventories developed by States -
         the OIG’s draft report provides that a major failing of the NEI is its lack of
         documentation of methods used by the States to prepare emission estimates; and
         (3) EPA efforts to update the NEI emissions data efforts did not produce emission
         estimates that match State SIP emission inventories for all years, and, again,
         represent annual, not daily emission values.

         As stated in our report, the Act requires that States demonstrate that precursor
         emissions have been reduced an average of 3 percent annually “net of growth” for
         each 3-year period subsequent to the enactment of the 1990 Act. The Act does
         not require that States demonstrate attainment of emission reductions in “tons per
         summer day.” Also, EPA adjusts the NEI every 3 years based on State emissions
         data that is expressed in tons per day or tons per summer day to a tons per year
         expression.

         EPA has indicated that the NEI is the highest quality emissions data maintained
         by the Agency and has used this data for regulatory planning and support;
         national, regional, and State emission trends; and public information reports.
         However, the Agency now states that the NEI is not of sufficient quality to
         indicate whether nonattainment areas met emission reduction requirements in the
         Act, and asserts that State SIP inventories are best for such measurements.
         According to EPA documentation and our analysis, State inventory data is used
         every 3 years to update NEI; therefore, NEI and State emissions data should
         reflect the same level of quality. The Agency further asserts that state inventories
         cannot be used to measure nonattainment area accomplishments in reducing
         precursor emissions because baseline and subsequent periodic inventories were
         produced using different models and factors. EPA has stated that requiring
         updates to baseline and periodic inventories would be too burdensome on States.

                                          15
These contentions by EPA would leave no actual, comparable emissions data
available, State or national, to assess nonattainment progress as required by the
Act. However, the OIG looked for emissions data that could provide a reliable
indicator as to whether nonattainment areas had achieved precursor emission
reductions required by the Act. Noting that the NEI was being updated for the
1990 to 1999 period based on the latest models and emissions factors, EPA senior
officials – including some regional officials – said that this updated NEI data
would provide a reliable indicator of whether nonattainment areas met emission
reduction mandates. This is the data we used in our analysis.

In response to recommendations presented in Chapter 2, the Agency indicated that
it preferred to focus its efforts and resources on developing plans and strategies
that will implement the more health-protective 8-hour standard rather than
evaluate progress toward the 1-hour standard. We agree that the Agency should
focus resources on implementation of the 8-hour standard. However, the Agency
and States need to measure and assess the actual effectiveness of controls
implemented under the 1-hour standard before developing controls for the 8-hour
standard. This assessment could be a valuable tool in identifying 1-hour controls
that were not effective, overestimates of emission reductions from 1-hour
controls, and methods for increasing the effectiveness of controls to be included in
8-hour Rate-of-Progress Plans. Many new nonattainment areas were designated
under the 8-hour standard. These areas will be implementing many of the
emission controls already implemented by 1-hour nonattainment areas. EPA
needs to know how effective these 1-hour controls were in reducing emissions and
identify where improvements may be needed before developing 8-hour emission
control plans for these areas. An assessment of actual reductions achieved by 1-
hour controls could identify the need for EPA to adjust the expected emission
reductions from these controls and/or develop alternative controls to meet 8-hour
milestones. A viable method for assessing control effectiveness is to measure
emission reductions that actually occurred from implementation and compare
reductions achieved to the projected or expected reductions included in 1-hour
plans. Finally, EPA needs to identify 1-hour areas that did not achieve required
emission reductions for the 1-hour standard and implement the available
contingency measures. For areas that have struggled for years to meet the less
stringent 1-hour standard, implementation of contingency measures should further
reduce emissions in these areas and better facilitate the achievement of the more
stringent 8-hour standard. Therefore, we continue to believe that the
recommendations in Chapter 2 are valid and realistic actions that EPA needs to
take to ensure more effective implementation of the 8-hour standard.




                                 16
                          Emission Reduction Plans

                               Chapter 3
       Rate-of-Progress Plans Delayed or in Error
         EPA and States encountered numerous difficulties with the timely development
         and implementation of Rate-of-Progress (ROP) Plans for nonattainment areas, and
         often did not approve and begin implementing those plans until deadlines in the
         1990 Act for achieving the emission reductions had passed. Furthermore, States
         may have used inaccurate assumptions and projections of emission growth in
         ROPs, resulting in unmet emission reduction goals. There were numerous reasons
         for these conditions, including inadequate EPA oversight and insufficient policies
         and guidance related to ROP development and technical support.

         Because the number of ozone nonattainment areas has greatly increased with
         implementation of the new 8-hour standard, States will be required to develop
         many more ROPs and related SIP revisions than were required under the 1-hour
         standard. To facilitate the timely development and implementation of State ROPs
         and emission controls for those areas struggling to meet the 1-hour standard, as
         well as those areas required to implement the new 8-hour standard, EPA must
         improve its ozone guidance and oversight.

States Encountered Problems in Submitting Acceptable ROPs

         As noted in Chapter 2, each ozone nonattainment area is required to develop
         emission reduction plans (in the form of ROP Plans) that articulate how precursor
         emissions will be reduced to achieve required ozone levels. The 1990 CAAA sets
         specific deadlines for submission of ROP Plans. For example, States were
         required to submit the initial ROP Plan for 15-percent VOC reductions by
         November 15, 1993, with implementation of controls and achievement of
         emission reductions by November 15, 1996. However, our evaluation of the first
         ROP Plans developed by States under the 1990 CAAA for 10 serious or severe
         nonattainment areas, involving a total of 14 ROP Plans, found that only 5 of 14
         ROP Plans were submitted on time, and these often required revisions. Some
         were submitted nearly 2 years late.

         Many States were also late in developing acceptable ROP Plans for the
         subsequent 9-percent reduction of VOCs and NOx that were to be submitted by
         November 15, 1994, with emission reductions achieved by November 15, 1999.
         EPA allowed States until mid-1997 to submit these plans, but only 3 of the 14
         ROP Plans were submitted by the revised 1997 deadline.




                                         17
According to EPA, many of the proposed plans were deficient and had to be
revised several times before final approval. Also, States took extensive periods of
time to make revisions (often more than a year and as much as 6 years), and EPA
took a great deal of time to review and approve the revised and final ROP Plans.
These conditions contributed to a substantial delay in EPA’s proposed and final
ROP Plan approvals, as well as delays in the implementation of related emission
controls. Section 110(k)(3) of the Act requires that ROP Plans be approved or
disapproved within 18 months of State submission unless EPA grants a
conditional approval (which only provides at most a 1-year extension). However,
none of the plans received final approval within 18 months of initial State
submission. ROP Plans in many cases were not approved until years after the
milestone dates for achieving required emission reductions. Appendix D provides
details for each of the 10 nonattainment areas.

Officials in five EPA regions stated that major changes in Inspection and
Maintenance (I&M) guidance and State delays in implementing I&M programs
were two primary reasons for delays in developing acceptable ROP plans. In one
region, several nonattainment areas had temporarily attained the ozone standard
and the region suspended ROP Plan development until the areas again violated the
standard. Regional officials also noted the following additional problems:

•   Lack of definitive EPA guidance for the States on how to prepare and
    document ROP Plans.

•   Lack of EPA guidance concerning emission reduction crediting for various
    local and regional control measures.

•   The transitory nature of some EPA guidance, which created uncertainty among
    States as to how to revise and finalize ROP Plans.

•   Delays in development of final, acceptable 15-percent ROP Plans led to delays
    in the subsequent 9-percent plans because one was dependent on the other.

•   Timing of controls not yet implemented by the States, and the State’s ability to
    support likelihood of expected emission reductions.

As will be discussed below, we also found that, in order to reasonably ensure
permanent ozone attainment before suspending ROP development, improvements
are needed in EPA’s “Clean Data Policy.”

Criteria in Clean Data Policy Needs Updating

A May 1995 EPA policy, referred to as the “Clean Data Policy,” provides that
certain SIP requirements, including ROP Plan development, may be suspended
once ambient air monitoring data indicate attainment of the 1-hour standard.
Generally, this means an area has gone for 3 years with a total of three or less 1-

                                 18
         hour exceedances. Using this policy, four nonattainment areas suspended their
         development of post-1996 ROP Plans when ambient air monitoring data showed
         that they had achieved the 1-hour standard in either 1998, 1999, or 2000.
         However, all four subsequently violated the standard again. ROP development
         then had to be re-started and, as a result, emissions control plans for these areas
         were delayed. According to EPA officials, changes in meteorological conditions
         caused these areas to again violate the 1-hour standard, indicating that the
         standard had not been achieved by permanent and enforceable emission reductions
         within the nonattainment area or by upwind contributing sources.

         Today methodologies and data exist that were not available in 1995 that allow
         regulators to better assess the permanence of attainment. In our view, the Clean
         Data Policy should be revised to require meteorologically adjusted ozone trend
         analyses along with a trend analyses of ambient VOC and NOx concentrations for
         nonattainment areas that subsequently reach attainment based on ambient ozone
         monitoring data. These changes would better ensure the permanence of such
         attainments. EPA should also consider whether upwind contributing sources have
         been sufficiently controlled to allow attainment to continue before suspending
         ROP requirements.

Planned Emission Reductions Not Always Achieved by
Required Milestone Date

         Twenty-three of the 28 ROP Plans we reviewed for 10 serious and severe
         nonattainment areas indicated that the emission reductions projected in these plans
         were not achieved by the dates specified in the Act. While there were multiple
         reasons for delayed ROP implementation, delays in implementing vehicle I&M
         programs and promulgating Federal rules for VOC reductions were the primary
         reasons that statutory deadlines were missed.

         Delayed I&M Programs

         ROP Plans for 9 of the 10 nonattainment areas projected significant emission
         reductions from implementation of vehicle I&M programs, but 7 of these
         experienced delays in implementing their I&M programs. Approved ROPs and
         related documentation for five of the nine areas indicated that the I&M programs
         were not fully implemented until 2000 or 2001, several years later than needed to
         meet the Act’s deadlines. Also, we found that one I&M program (Georgia) had
         projected VOC emissions reductions based on an assumption of 100-percent
         effectiveness, whereas program records showed that their I&M program was only
         81-percent effective. As a result of these conditions, estimated emission reductions
         in both the 15-percent and 9-percent ROP Plans were not achieved by November
         15, 1999.




                                          19
                While some delay in State implementation of vehicle I&M programs can be
                attributed to statutory and EPA guidance changes in 1995 and 1996, this does not
                explain why I&M programs were still not fully implemented by 2000 and 2001.
                For example, the Texas I&M program represented 51 percent of the VOC
                emissions reductions in the Dallas-Fort Worth 15-percent ROP Plan. However,
                neither the 15-percent nor the subsequent 9-percent ROP Plans for the Dallas-Fort
                Worth area were proposed for final approval until January 18, 2001. An August
                1997 Federal Register notice for a proposed conditional interim approval of Texas’
                15-percent ROP noted that the State had discontinued implementation of its I&M
                program after initial submission of the 15-percent ROP plan, and that emission
                reductions related to the I&M program had not been achieved by November 15,
                1996. EPA Region 6 granted Texas’ request for conditional interim approval
                based on the premise that the reductions would be achieved “as soon as
                practicable.” Subsequently, full conditional interim approval of the 15-percent
                ROP Plan was granted in November 1998, with the condition that final approval
                would not be granted until actions related to the I&M program were complete.
                However, the January 18, 2001, proposed approval of the 15-percent and 9-percent
                ROP Plans indicated that the Texas I&M program had still not received final EPA
                approval.

                Delayed Promulgation of Federal VOC Rules

                Initial 15-percent ROP Plans for the 10 nonattainment areas included emission
                reductions for Federal VOC rules that were not promulgated until September 1998
                and not effective until 1998 or 1999. These projected reductions ranged from 4 to
                20 percent of total projected emission reductions in 15-percent ROP Plans.
                However, two States (Massachusetts and Wisconsin) subsequently issued State
                VOC rules to ensure that the emission reductions occurred before November 15,
                1996. In addition, 15-percent ROPs for three areas included VOC reductions for a
                Federal rule on off-road/small engine standards that had compliance dates of May
                1997 and January 1998, 6 to 14 months after the Act’s milestone date of November
                15, 1996.

                EPA guidance7 allowed States to claim VOC reductions for these delayed Federal
                rules even though the emission reductions would not be accomplished until after
                the milestone date for the 15-percent ROP Plan. EPA indicated that because States
                had counted on these Federal rules for their 15-percent plans, they should not be
                penalized because EPA was unable to promulgate the rules on time. As a result,
                significant amounts of VOC emission reductions were not achieved until almost
                3 years after the Act’s required milestone date of November 15, 1996. For
                example, the Washington, DC, nonattainment area claimed a total of 25.81 tons per

        7
          “Credit for the 15 Percent Rate-of-Progress Plans for Reductions from the Architectural and Industrial
Maintenance (AIM) Coating Rule and the Autobody Refinishing Rule,” November 29, 1994; “Regulatory Schedule
for Consumer and Commercial Products under Section 183(e) of the Clean Air Act,'' June 22, 1995; and “Guidance
on Projection of Nonroad Inventories to Future Years,'' February 4, 1994.

                                                       20
         day, or 20.81 percent of total emission reductions in its 1996 15-percent ROP Plan
         based on Federal VOC rules that were not issued until September 1998. These
         VOC rules included architectural and industrial maintenance coatings, auto
         refinishing, and commercial/consumer products.

         Extended Dates for Achieving Emission Reductions

         ROP Plans for six nonattainment areas stated that projected VOC emission
         reductions had not been accomplished by the milestone date of November 15,
         1996. For two areas, ROP Plans further indicated that the 15-percent in VOCs and
         9-percent reductions in VOCs and NOx would not occur until 2001, almost 2 years
         after the post-1996 ROP Plan milestone of November 15, 1999. EPA approved the
         ROP Plans based on achievement of the reductions as expeditiously as practicable.
         These approvals were primarily based on general nonattainment area plan
         provisions in Section 172(c)(1) of the Act, which provides for implementation of
         all reasonably available control technology “as expeditiously as practicable.”

Emission Reductions Underestimated Due to Inaccurate Growth
Projections and Other Factors

         For 15 of 28 ROP Plans, the projected VOC and/or NOx target levels for the
         applicable milestone date were significantly less than the actual Periodic Emissions
         Inventory (PEI) for the same date. These differences potentially represent an under
         estimation of required emission reductions needed by 1996 and 1999, respectively.
         Differences between PEIs and VOC and/or NOx target levels exceeded 10-percent
         for 15 of 28 ROPs. The potential under projection of required emission reductions
         in these cases ranged from about 7 tons to over 175 tons per day.

         To ensure that actual emission reductions will be “net of growth,” ROP Plans
         usually include two primary calculations of VOC and NOx emissions as of the plan
         milestone date: (1) a projection of emissions growth to include an estimate of
         uncontrolled emissions as of the milestone date, and (2) an emission target level
         calculated by subtracting an amount equal to a 9- or 15-percent reduction in the
         area’s 1990 anthropogenic baseline emissions plus any noncreditable emission
         reductions from the 1990 anthropogenic baseline or the previous ROP target level.
         The difference between the projected uncontrolled emissions and target level
         emissions represents the required ROP emission reductions, net of growth.

         VOC Target Levels Not Met

         Table 3.1 shows projected target levels for VOCs in 15- and 9-percent ROP Plans
         as compared to VOC emissions per 1996 and 1999 PEIs. Negative differences
         between the target levels and PEIs for seven nonattainment areas indicate that the
         growth of projected emissions may have been underestimated and the implemented
         ROP emission controls and related reductions (to include emissions growth) were

                                          21
          inadequate to achieve the subject target levels. Since the differences between
          projected uncontrolled VOC emissions and target emission levels for 1996 and
          1999 were usually greater than 9 or 15 percent of the ROP baseline inventories, the
          differences between PEIs and target levels shown in Tables 3.1 and 3.2 may
          represent an under projection of emissions growth and, therefore, the emission
          reductions needed by 1996 and 1999 to assure emission reductions of 9 to 15
          percent (net of growth). The potential under projections of required VOC
          reductions ranged from 0.57 to over 104 tons per day (tpd).

                  Table 3.1: Differences In VOC Targets and VOC Emissions in PEIs
                                                                     Difference                                       Difference
                                       1996                         1996 Target         1999                         1999 Target
       Nonattainment                  Target        1996 PEI            Less           Target        1999 PEI            Less
           Area                      VOC (tpd)      VOC (tpd)         1996 PEI        VOC (tpd)      VOC (tpd)         1999 PEI

Atlanta                                444.21         548.32           -104.11           NA a          433.61            NA a
Baltimore                              253.3          274.03           -20.73           252.85          237.1            15.75
Boston-Lawrence-Worcester
  -Massachusetts                        658             738              -80             588           631.74           -43.74
  -New Hampshire                        40.8           41.37            -0.57            38.4           41.98            -3.58
Chicago-Gary-Lake County
  -Illinois                            857.02         770.46            86.56           807.82         685.27          122.05
  -Indiana                             137.28         164.51           -27.23           146.01        Unknownb        Unknownb
Dallas-Fort Worth                      465.52         528.46           -62.94           405.54         390.74             14.8
Washington DC Area                     384.6           423.5            -38.9            380.2          361.6             18.6
                                                               c                 c
Milwaukee-Racine                       288.4        Unknown          Unknown            237.57          210.6            26.97
Portsmouth-Dover-Rochester              30.3           22.25            8.05             27.9           25.65             2.25
                                                               d                 d                              d
Providence                             141.5        Unknown          Unknown             137.3       Unknown          Unknownd
Springfield                             118             115               3               115           99.65            15.35

      a   Post-1996 ROP Plan did not include VOC reductions. Therefore, no VOC target level was calculated for 11/1999.
      b   Indiana did not develop a complete 1999 PEI its portion of the Chicago-Gary-Lake County area.
      c   Wisconsin did not develop a 1996 PEI for the Milwaukee-Racine area.
      d   Rhode Island did not document/publish 1996 and 1999 PEIs for Providence area; State transmitted data directly to OAQPS.


          NOx Target Levels Not Met

          For the 10 nonattainment areas, 9 post-1996 ROP (9 percent) Plans included NOx
          emission controls and related projected emission reductions to be achieved by
          November 15, 1999. A comparison of 1999 NOx target levels to the relevant
          1999 PEI disclosed that for eight ROPs, the ROP NOx target levels were
          significantly less than the actual NOx inventory reflected in the 1999 PEI. As
          reflected in Table 3.2, these differences, ranging from 7.08 to over 175 tons per
          day, may represent under projections of required NOx reductions.




                                                          22
                 Table 3.2: Differences In NOx Targets and NOx Emissions in PEIs
                                                                                                      Difference
                                              1999 NOx                     1999 PEI                1999 Target Less
     Nonattainment Area                   Target Level (tpd)               NOx (tpd)                1999 PEI (tpd)

Atlanta                                          439.64                       614.7                      -175.06
Baltimore                                        397.05                      467.35                       -70.3
Boston-Lawrence-Worcester
 Massachusetts                                    828                        914.89                      -86.89
 New Hampshire                                    48.2                        41.12                       -7.08
Chicago-Gary-Lake Cty
 Illinois                                        1820.5a                    1963.49a                     -142.99
 Indiana                                           NAb                      Unknownc                       NAb
Dallas-Fort Worth                                  NAb                       523.84                        NAb
Washington, DC                                    614.7                       626.4                       -11.7
Milwaukee-Racine                                     NA                       306.5                        NA
Portsmouth-Dover-Rochester                        38.7                        48.18                       -9.48
Providence                                        85.5                      Unknownc                   Unknownc
Springfield                                          97                      136.33                      -39.33

   a Illinois claimed NOx emission reductions for sources outside of the Chicago and East St. Louis nonattainment areas. The
     “Illinois Attainment Area” 1990 NOx baseline emissions inventory was used as ROP baseline for computing 1999 NOx
     target level, projected 1999 uncontrolled NOx emissions and required NOx reductions. Therefore, Illinois’ 1999 PEI for
     the Illinois Attainment Area was used to compare to the 1999 NOx target level.
   b Indiana and Wisconsin did not include any NOx controls in their post-1996 ROP Plans for the Chicago-Gary-Lake County
     and Milwaukee-Racine nonattainment areas. Therefore, there were no NOx target levels projected for 1999 in the
     respective ROP Plans.
   c Indiana and Rhode Island did not develop or publish 1999 PEIs for the Chicago-Gary-Lake County and Providence
     nonattainment areas, respectively; thus, a comparison was not possible for these nonattainment areas.




EPA officials and the staff for Georgia indicated that this condition could have
resulted from the use of inaccurate growth rates and factors (such as Vehicle
Miles Traveled) in projecting target year emission inventories. A Georgia official
indicated that, in addition to incorrect growth factors, the difference between its
nonattainment area 1996 VOC target level and the 1996 VOC PEI may be caused
by the delayed implementation of ROP Plan controls after the date that such
reductions were supposed to have been achieved or differences in models used to
estimate emission levels. In one case, a region accepted growth factors used to
project ROP target levels that were not supported by past actual growth rates for
the area, indicating an inadequate review. In addition, a local planning
commission commented that the ROP projections used an outdated estimate of
Vehicle Miles Traveled but EPA allowed its use, stating that any under
projections could be resolved in subsequent attainment plans. Use of inaccurate
growth projections can result in underestimating uncontrolled emission
inventories and the amount reductions needed to the meet the Act’s requirements.
None of the five EPA regions we contacted had performed a comparative analysis
of ROP projections and PEIs; thus, they were not aware of the need to implement
contingency measures to resolve any under projections of required reductions.
Appendix E provides additional information on the growth factors used for the
Atlanta area ROP.


                                                23
          EPA did not grant final approval for many of the ROP Plans until after the date
          that relevant PEIs should have been developed. Under the Act, the 1996 and 1999
          PEIs for each nonattainment area were due to be completed by September 1998
          and September 2001, respectively. EPA final approvals of the 15-percent ROPs
          for 8 of 10 nonattainment areas did not occur until after the 1996 PEIs were due.
          Five of 10 areas received final approval for the 9-percent ROP Plans subsequent
          to the September 2001 due date. In these instances, there should have been
          sufficient emissions inventory data developed prior to ROP Plan final approval for
          EPA regions and States to validate the ROP emission target levels.

EPA Regions Did Not Always Obtain Adequate Technical Data to
Support State Claims for Emission Reductions

          Post-1996 ROPs for 3 of 10 nonattainment areas included emission reductions
          from outside nonattainment area boundaries (see Table 3.3). Such emission
          reduction credits were permitted under a December 1997 EPA policy
          memorandum.
          However, this policy                Table 3.3: Outside Emission Reduction Credits
          does not preclude
          double-counting of             Nonattainment Area                Outside Credits
                                         Chicago-Gary-Lake County      261.97 tons per day NOx
          emission reductions and        Boston-Lawrence-Worcester        6.0 tons per day NOx
          raises other concerns          Milwaukee-Racine                 6.5 tons per day VOCs
          that are discussed further
          in Chapter 4. Our
          contacts with EPA
          regional officials indicated that the regions had not obtained sufficient technical
          support or researched available data to ensure that these reductions had actually
          occurred by November 1999. Our subsequent analysis of 1990 to 1999 NEI data
          indicated that these emission reductions may not have been obtained for two of
          the three nonattainment areas. Details follow.

          Two States claimed outside power plant NOx reductions from the Federal Acid
          Rain program in post-1996 ROPs for two severe nonattainment areas (Chicago-
          Gary-Lake County and New Hampshire portion of Boston-Lawrence-Worcester).
          The post-1996 ROP Plans for these two areas received final approval from 1 to
          almost 3 years after November 1999. Since EPA receives power plant NOx
          emissions directly from these sources as part of the Acid Rain program, these
          emissions should have been available for EPA regions to use to verify ROP
          emission reduction claims prior to ROP final approval. However, one region
          relied primarily on the State’s claims of 40 to 60 percent emissions reductions at
          specific power plants without verifying the reductions with NEI or other sources
          of NOx emissions data for these plants. Our analysis of NEI data for 1990
          through 1999 NOx emissions for these power plants indicated that the combined
          NOx emissions had been reduced by only 12.5 percent. Further details on
          Chicago-Gary-Lake County are in Appendix F.

                                            24
                 Only one State (Wisconsin) claimed VOC emission reductions outside of the
                 nonattainment area boundaries. In the post-1996 ROP for the Milwaukee-Racine
                 nonattainment area, Wisconsin claimed a 20 to 37 percent8 (6.5 tons per day)
                 reduction in VOC emissions for specific VOC source categories between 1990
                 and 1999 related to State rules for autobody refinishing, degreasing, and organic
                 solvent use in 14 counties outside the nonattainment area. However, our analysis
                 of NEI data for 1990 through 1999 VOC emissions (overall and category specific)
                 indicated that the VOC reductions claimed by the State for the 14 counties were
                 not achieved because the NEI data showed only an 8.2-percent decrease in total
                 VOC emissions between 1990 and 1999 for the 14-county area. Further, a
                 comparison of 1990 and 1999 NEI data for VOC emissions from solvent
                 utilization within the 14-county area indicated that solvent VOC emissions
                 increased from 42,252.81 to 43,053.01 tons per year, a 1.17 percent increase.

EPA Suspended Requirement for Post-1996 ROP Plans and
Related 3-Percent Reduction for Six Serious Non-Attainment Areas
                 In March 1999, EPA promulgated a policy9 that allowed extension of the
                 November 1999 attainment date for serious nonattainment areas under post-1996
                 ROP Plans, without elevating these areas to the next higher nonattainment
                 classification, if the nonattainment areas were impacted by ozone transport. This
                 policy was contrary to the Act, which requires that nonattainment areas be
                 elevated to the next level if they do not attain the ozone standard by the statutory
                 attainment date. Such an elevation requires more stringent emission control
                 measures.

                 Six of 14 areas classified serious prior to 2003 had not attained the 1-hour ozone
                 standard by November 1999, and had been either proposed for approval or
                 received final approval for attainment date extensions under this policy. Even
                 though the attainment dates for the six areas were extended to between 2003 and
                 2007, EPA regions did not require that the SIP revisions related to the attainment
                 date extensions include requirements for ROPs or for demonstrations of the
                 annual 3-percent reductions of precursor emissions after 1999. These areas were
                 already struggling to achieve the 1-hour standard when EPA suspended the
                 requirement for ROPs and minimum annual emission reductions.

                 Such extensions may have precluded or prolonged the planning and
                 implementation of additional emission controls needed to facilitate attainment and
                 improve air quality in these areas. Additional 9-percent reductions (3 percent per
                 year) in precursor emissions would have been required by November 15, 2002,

        8
         Estimated percent emissions reductions ranged from 20 to 37 percent depending on the category involved
(autobody refinishing, degreasing operations, or organic solvents).
        9
          Federal Register Volume 64, pages 14441-14444, dated March 25, 1999, titled Extension of Attainment
Dates for Downwind Transport Areas.

                                                       25
          and November 15, 2005, if these areas had been reclassified to severe
          nonattainment.

          Attainment date extensions for three serious areas were legally challenged. These
          extensions were either reversed by Federal court decisions or EPA voluntarily
          reclassified these areas to severe before an adverse court ruling could be issued.
          In each case, Federal courts ruled or indicated that such attainment date extensions
          without elevation to the next higher level of nonattainment were not authorized by
          the Act. The courts also ruled that suspension of ROP requirements and related
          3-percent annual precursor emission reductions were also not within the intent or
          authorization of the Act.

          Table 3.4 includes the serious nonattainment areas that received proposed or final
          approval of attainment date extensions under the March 1999 policy. None of the
          areas promulgated ROP Plans for periods subsequent to 1999 despite the
          attainment date extensions.

                         Table 3.4: Attainment Date Extensions and Suspension of ROPs
               Serious            Extended        Date Extension
            Nonattainment         Attainment        Approved/                           Current
                Area                 Date           Proposed                            Status
           Atlanta                11/15/2004         05/07/2002         Remanded to EPA by Federal court.
                                                                        Elevated to severe in 2003.
           Baton Rouge            11/15/2005         10/02/2002         Extension overturned by Federal court.
                                                                        Elevated to severe in 2003.
                             a
           Dallas-Fort Worth      11/15/2007         01/16/2001         Proposed approval. No final approval.
                                                                        Still classified serious.
           Greater                11/15/2007         01/03/2001         No legal challenge. Still classified
           Connecticut                                                  serious.
           Springfield            11/15/2003         01/03/2001         No legal challenge. Did not attain by
                                                                        2003 but still classified serious.
           Washington DC          11/15/2005         01/03/2001         Extension overturned by Federal court.
                                                                        Elevated to severe in 2003.

            a Because of adverse court rulings related to attainment date extensions under the March 1999 policy,
              Region 6 did not issue a final approval of the extension for the Dallas-Fort Worth area, since a final
              approval would permit the extension to be legally challenged. However, Region 6 has not elevated
              Dallas-Fort Worth to severe nonattainment as required by the Act. The Dallas-Fort Worth area has been
              in “limbo” since January 2001, when approval of the extension was proposed and, thus, has received a
              “defacto” attainment date extension for over 3 years that cannot be legally challenged.




Insufficient EPA Oversight Contributed to Delays in ROP Plans and
Implementation of Controls

          As noted above, delays in ROP Plans and implementation of required emission
          controls can be attributed to a variety of reasons, including insufficient EPA
          oversight of ROP Plan development; changes in EPA guidance on major emission
          controls, especially the vehicle I&M program; and extended ROP milestone dates

                                                  26
         for achievement of emission reductions required in the Act (see Appendix D).
         Other reasons for delays include the fact that EPA headquarters and regional
         officials:

         •    Allowed States extensive periods of time (up to 8 years) to develop acceptable
              ROP Plans and make changes to draft plans. EPA took extensive time to
              review and/or approve ROP Plans or ROP changes by States.

         •    Did not consistently review assumptions/projections used in ROP Plans and
              challenge questionable projections of future inventory levels.

         •    Did not compare projected emission levels in ROPs with actual inventories
              subsequently developed to ensure that adequate emission controls were
              implemented.

         •    Did not obtain sufficient supporting documentation for emission reductions
              claimed by States in ROP Plans.

         •    Allowed emission reductions in ROP Plans for Federal VOC rules that were
              not promulgated or effective until 3 or more years after the ROP milestone
              date for achieving these VOC reductions.

         •    Suspended ROP development when areas temporarily attained the 1-hour
              standard before again violating the standard (see also Appendix D).

         •    Suspended requirement for post-1996 ROPs related to six serious
              nonattainment areas whose attainment dates were either extended or proposed
              to be extended beyond November 1999.

Conclusions

         EPA did not effectively oversee the development of ROP Plans under the 1-hour
         standard to ensure that (1) ROPs were developed and implemented within the
         time frames required by the Act, (2) required emission reductions were achieved
         by the milestone dates specified in the Act, and (3) projected emission levels and
         emission reductions were correct and properly supported. EPA should not
         suspend requirements for ROPs and related minimum annual emission reductions.
         Once air quality data indicate that an area has achieved the standard, the
         permanence of the achievement should be supported with meteorologically
         adjusted trend analysis of ambient ozone observations and analyses of trends in
         ambient concentrations of VOCs and NOx for the nonattainment area.

         Implementation of the 8-hour standard effectively doubled the number of ozone
         nonattainment counties. EPA needs to improve its oversight of the 8-hour SIPs to
         include the development and approval of ROP Plans and subsequent State


                                          27
        implementation of emission controls to ensure that the 8-hour ROPs are accurate,
        developed and approved in a timely manner, and implemented within the ROP
        milestone dates established in the Act and EPA regulations. EPA should require
        States to provide adequate documentation of emission projections claimed,
        including projected VOC and NOx target levels.

Recommendations

        We recommend that the Assistant Administrator for Air and Radiation:

        3-1    Develop oversight procedures and guidance that will expedite
               development, approval, and implementation of ROP Plans and related
               emission controls.

        3-2    Require evaluation of proposed ROP Plans by EPA regional air programs
               to assure the propriety of ROP assumptions, projections, and related
               emission reductions in comparison to available emission databases and
               historical data.

        3-3    Develop guidance for analyzing and comparing periodic emission
               inventories to projected emission target levels and evaluating assumptions
               used in applicable ROP Plans, in order to: (1) reconcile differences
               between projected and actual inventories; (2) identify any incorrect
               assumptions or projections and understatement of needed emission
               reductions; and (3) establish improvements that may be needed in the ROP
               development process, and ensure training of staff in conducting these
               analyses.

        3-4    When EPA staff determine that an underestimation of emission reductions
               needed to meet the ROP target level has occurred, require States to
               implement contingency or other measures needed in a timely manner to
               ensure that required emission reductions are achieved.

        3-5    Revise EPA’s “Clean Data” policy to require meteorologically adjusted
               ozone trend analyses and trend analyses of ambient VOC and NOx
               concentrations for nonattainment areas that attain the ozone standard based
               on ambient ozone monitoring data, to better assure the permanence of such
               attainments before suspending ROP Plan development and approval.

        3-6    Require that EPA make and publish a determination that the ozone
               standard has been achieved through permanent and enforceable emission
               reductions before suspending ROP Plans and related emission reductions
               required by the Act.




                                        28
Agency Comments and OIG Evaluation

         For Chapter 3, the Agency’s response generally addressed the recommendations
         presented in the chapter. The Agency indicated actions were being contemplated
         or planned in regard to Recommendations 3-1, 3-3, 3-5, and 3-6. The Agency’s
         comments regarding Recommendation 3-2 generally were non-responsive and
         provided no actual planned corrective actions. Comments on Recommendation
         3-4 did not address the content of this recommendation and provided no planned
         or contemplated corrective actions. EPA’s response also suggested several
         technical corrections to certain statements in the section related to differences
         between ROP target levels and PEIs. Changes were made to clarify these
         statements. The Agency’s responses regarding Chapter 3 and our detailed
         evaluation of these responses are included in Appendix H.




                                         29
                                         Chapter 4
                        EPA Policy Allowing
                Outside Emission Reduction Credits
             Creates Inequities and Hampers Attainment
                In 1997, EPA issued an ozone policy10 intended to grant States greater flexibility
                in obtaining precursor emission reductions by allowing them to claim emission
                reductions from sources outside of their nonattainment areas for post-1996 ROP
                Plans. However, as designed, the policy creates potential inequities between
                nonattainment areas, allows for double-counting of the same facility’s emissions,
                and is not based on scientific modeling of emissions impact. Additionally, the
                statutory basis for the policy is unclear, EPA has expressed differing positions
                regarding the legal basis for the policy, and the policy was not subjected to
                rulemaking and public comment. Of most concern is that the policy can lead to
                fewer emissions reductions for areas that use the policy to claim outside emission
                reductions. Our review of post-1996 ROP Plans for the 10 serious nonattainment
                areas showed that three areas included credit for emission reductions outside of
                the nonattainment areas, but it is not clear that the claimed emission reductions for
                two areas were actually achieved.

Policy Creates Inequities, Allows Double-Counting, and May
Not Achieve Emission Reductions Net of Growth

                The policy allowing nonattainment areas to “pick” outside sources for credit in
                ROP Plans allows these areas to ignore other sources from outside areas that may
                produce emissions that offset reductions. For example, one outside electric utility
                that had reduced emissions may be included in the ROP baseline, but another
                outside utility within the same specified area that had increased emissions may,
                under EPA’s 1997 policy, be ignored. In addition, not including all outside source
                baselines in the ROP calculations can result in emission reductions that are less
                than needed to meet the Act’s “net of growth” requirement.

                To ensure that emission reductions are net of growth, the Act specifies that the
                calculation of required reductions is to include the anthropogenic VOC (or NOx)
                baseline emissions for all sources within the nonattainment area, once adjustments
                for noncreditable reductions are accounted for (generally involving reductions
                from certain pre-1990 emission controls). EPA often refers to this adjusted
                nonattainment baseline as the adjusted “ROP baseline.”



        10
         Memorandum from Acting Assistant Administrator for Air and Radiation to Regional Administrators,
“Guidance for Implementing the 1-Hour Ozone and Pre-Existing PM10 NAAQS,” issued in December 1997.

                                                     30
The 1997 policy allows nonattainment areas to include in ROP baseline emissions
only the baseline emissions for the specific sources or source categories for which
outside emission reduction credit is being claimed. Exclusion of baseline
emissions for the entire outside area from the ROP calculation does not ensure
that emissions within and outside the nonattainment area are being reduced net of
growth as required by the Act. Under the policy, there is no assurance that
excluded outside sources have not increased their emissions to an extent that
offsets or exceeds the emission reductions of the selected sources or source
categories. In addition, allowing States to “pick and choose” specific outside
sources and only include the baseline emissions for these selected sources in
calculating required reductions creates an inequity between nonattainment areas
that reduce emissions within the nonattainment area and nonattainment areas that
include selected outside sources.

Nonattainment areas that limit emission controls to the nonattainment area are
required to calculate the required reductions based on the entire nonattainment
area baseline of VOC and/or NOx emissions. However, nonattainment areas that
choose specific outside sources for emission credit only have to calculate
reductions against the baseline for these specific sources and not the baseline for
the entire outside area. Since the required reduction of 9 percent is applied to the
baseline used, this condition may result in less emission reductions for those areas
that choose to calculate reductions based on the baselines of specific outside
sources.

The Act specifies that the 9-percent emission reduction is the minimum
requirement. Required reductions are supposed to eliminate emission growth plus
an additional 9-percent reduction from the baseline emissions. As a result, most
ROPs include emission reductions substantially more than the 9-percent minimum
requirement in the Act. Including only the baseline emissions for selected outside
sources in ROP calculations may result in a 9-percent reduction – net of growth –
for these particular sources, but not a reduction net of growth for the
nonattainment area or the outside areas as a whole.

Post-1996 ROP Plans for two of the three nonattainment areas claiming outside
emission reductions included only the baseline emissions for the selected sources
in calculating required emission reductions. The ROP for the third nonattainment
area included emission baselines for the entire outside area where emission
reductions were claimed. Details on the three areas are in Appendix G.

Policy Does Not Preclude Double Counting

Currently, a number of States have multiple nonattainment areas under the 1-hour
standard, and the number of nonattainment counties more than doubled with
implementation of the 8-hour standard in April 2004. However, EPA’s 1997
policy does not safeguard against two or more nonattainment areas improperly
claiming the same outside emission reduction credits in their individual ROP

                                 31
                 Plans. If two or more nonattainment areas claim benefit from emission reductions
                 by the same outside source, the State needs to prove that all of the areas received
                 an emissions benefit and the estimated extent of benefit received. In our opinion,
                 areas should not be allowed to claim the total emissions reduced but only receive
                 the extent of emissions benefit on its ozone levels. To show the benefit and
                 impact of outside emission reductions on individual nonattainment areas would
                 require atmospheric modeling; however, the current policy does not require such
                 modeling as a condition of this claim.

                 Policy Inhibits Ability to Use Periodic Emissions Inventory Data to
                 Assess Control Strategy Effectiveness

                 The 1990 Amendments to the Act required that a 1990 baseline emissions
                 inventory for each nonattainment area be developed and updated for every 3-years
                 thereafter. Although the Act did not require that the PEI be used to assess control
                 effectiveness, OAQPS and State officials said they believed that the PEIs were to
                 be used to measure emission reductions achieved by nonattainment areas. A PEI
                 for all nonattainment areas was required for 1999. However, EPA staff and our
                 comparison of 1999 PEIs to post 1996-ROP baseline emissions for the three
                 nonattainment areas that claimed outside emission reductions indicated that the
                 outside sources or areas for which emission reductions were taken were not
                 included in the 1999 PEIs. In these three cases the PEIs were limited to VOC and
                 NOx emissions within the nonattainment areas. As a result, there was no
                 correlation between the post-1996 ROP baseline emissions (used to determine the
                 emission reductions to be accomplished by November 1999) and the 1999 PEI.

                 This occurred because EPA’s policy allows nonattainment area credit for outside
                 emission reductions without requiring that outside areas or sources claimed in
                 post-1996 ROPs be included in subsequent PEIs. This requirement would
                 facilitate comparison of PEIs to ROP emission target levels as a measure of the
                 effectiveness of ROP controls in reducing emissions.

                 Selection of Outside Emission Sources Not Based On Modeling

                 Selection of outside emission sources for emission reduction credit is not based on
                 a scientific method, such as atmospheric modeling of emission transport. Instead,
                 the policy is based on distance from the nonattainment area boundary. For
                 example, the distance limit for VOC reductions is 100 kilometers outside the
                 nonattainment area boundary. For NOx, it is 200 kilometers, unless the State was
                 a core State11 in the Ozone Transport Advisory Group study, in which case NOx
                 reduction credit may be expanded to the whole State.


        11
          Alabama, Connecticut, Delaware, District of Columbia, Georgia, Illinois, Indiana, Kentucky, Maryland,
Massachusetts, Michigan, Missouri, New Jersey, New York, North Carolina, Ohio, Pennsylvania, Rhode Island,
South Carolina, Tennessee, Virginia, West Virginia, and Wisconsin.

                                                       32
          When the policy was issued in 1997, atmospheric modeling was expensive and
          resource intensive. The policy was originally based on a Federal Advisory
          Committee Act committee recommendation to EPA. According to committee
          members, States wanted an alternative to modeling, so EPA had an environmental
          engineer and modeling expert judgmentally set distances that States could use in
          lieu of modeling. Atmospheric modeling experts on the FACA committee said
          the distance limits are not strictly supported by science, and that modeling is the
          only scientific method to identify emission sources that contribute to a
          nonattainment area’s zone levels. One of the modeling experts said the distance
          limits are arbitrary limits that may or may not include sources that most impact an
          area’s attainment of the ozone standard. The expert further stated that
          atmospheric modeling is no longer costly and resource intensive, and can be run
          on laptop computers.

Legal Basis of Policy Not Clear

          Section 182(c)(2)(B) of the Act states that the post-1996 ROP Plans shall reduce
          by 9 percent “baseline emissions,” and defines “baseline emissions”' to mean the
          total amount of actual VOC emissions from anthropogenic sources within the
          nonattainment area. Section 182(c)(2)(C) also provides that NOx reductions can
          be substituted for or combined with VOC reductions, since both contribute to
          ozone, a requirement that EPA lawyers said was clear and legally supportable.
          During our interview with EPA Office of General Counsel Air and Radiation
          attorneys, the attorneys could not find any language in Section 182 (c)(2)(1)(B)
          restricting NOx substitution to the nonattainment area baseline emissions or any
          reference to Section 182(b)(1)(B) that contains that limitation.

          The legal basis is more ambiguous, however, when it comes to non-attainment
          areas counting VOC emission reductions occurring in areas outside of their
          boundaries toward ozone attainment goals. EPA attorneys told us that the statute
          allowing NOx substitution for VOCs allows reasonable further progress plans to
          include a combination of NOx and VOCs reductions. They also said that the Act
          does not state that the VOCs combined with NOx are subject to the same
          restrictions as the 9-percent VOC reductions specified in Section 182(c)(2)(B).
          However, the one nonattainment area ROP Plan that claimed outside VOC
          reductions (Milwaukee-Racine area) did not include NOx substitution. The post-
          1996 ROP plan contained only VOC control measures. One attorney also referred
          us to the general reasonable further planning requirements in Section 172 that do
          not refer to restricting VOC reductions to nonattainment area baseline emissions.
          However, the Section 172 contains no specific VOC reduction requirements. The
          basis of both VOC and NOx reductions required in post-1996 ROPs is contained
          in Section 182(c)(2)(B). This section requires that post-1996 ROPs contain a
          minimum 9-percent reduction in VOC baseline emissions. As previously stated,



                                          33
the 9-percent reduction is further referenced to Section 182(b)(1)(B), which
restricts such emission reductions to nonattainment area baseline emissions.

In each post-1996 ROP Federal Register notice we reviewed, Section 182(c)(2)(B)
was cited as the basis of the required amount of either VOC or NOx reductions
included in the plans. For example, the Illinois post-1996 ROP for the Chicago-
Gary-Lake County severe nonattainment area, which claimed 261.97 tons per day
in NOx reductions for sources outside the nonattainment area, cited the ROP Plan
Section 182(c)(2)(B) as the basis of the required amount of precursor reductions:

       The plan was submitted to meet the Act's requirement, in section
       182(c)(2)(B), that the State demonstrate a 9 percent reduction of
       VOC emissions in the Chicago ozone nonattainment area for the
       3 year period between 1996 and 1999.

Whether an ROP includes only VOC reductions, NOx reductions, or a
combination of VOC and NOx reductions, the minimum amount of required
reductions is determined under Section 182(c)(2)(B), which requires that VOC
reductions be within the nonattainment area baseline emissions.

The EPA attorneys we contacted said that a person could reasonably interpret the
“substitution” of NOx for VOCs as carrying the same restrictions. Also, they said
that a person could reasonably interpret that the VOC reductions used in
combination with NOx reductions in a reasonable further progress plan are the
same VOC reductions cited in Section 182(c)(2)(B), and these reductions would,
therefore, be limited to reductions in the nonattainment area baseline emissions.
EPA’s response to the OIG’s draft report, included as Appendix H to this report,
stated that Office of General Counsel attorneys are responsible for advising
program offices on the legalities of various issues, such as the policy for outside
emission reduction credit, and providing their opinion on whether the policy or
guidance in question could be successfully challenged in court. A senior OAQPS
official said the policy was probably not explicitly authorized by the Act but that
EPA has to make policy decisions in such gray areas to provide flexibility to State
and local programs.

Policy Not Subjected to Rulemaking or Public Comment

EPA’s “Substitution of Credits for ROP Emission Reductions” was never
subjected to rulemaking procedures or public comment, nor was it issued as more
formal policy guidance. The outside emission credit policy was included in an
attachment to a policy guidance memorandum issued in December 1997. EPA
subsequently issued a Notice of Availability in the Federal Register (Vol. 63, page
8196, February 18, 1998), but the Notice did not include the specific guidance
involved and did not seek stakeholder opinions or public comments.



                                34
         Policy May Be Inconsistent With Original Purpose

         As previously stated, this policy was based on a Federal Advisory Committee Act
         committee recommendation to EPA. Two committee members told us that the
         original intent of the recommendation was to broaden emission controls to areas
         outside of nonattainment area boundaries in order to address sources that
         impacted a nonattainment area. However, the subsequent policy allows
         nonattainment areas to claim emission reductions that have already occurred
         under other Federal and State regulations. Because the reductions in these areas
         have already occurred, they do not represent a broadening of nonattainment area
         controls and neither facilitate nor accelerate attainment. One of the committee
         members interviewed told us that the policy, as written, appears to be a
         mechanism to allow States “cheap” emission reduction credits for meeting the
         required reductions in post-1996 ROP Plans. A senior OAQPS official also
         recalled that the purpose of the policy was to broaden controls, but he said it was
         not EPA’s intention that the policy be limited to new controls or the broadening of
         current controls, or that outside reductions should accelerate attainment.

Conclusions

         The legal basis of the policy allowing States to claim outside emission reductions
         in post-ROP Plans is ambiguous, and appears to conflict with the emission
         reduction requirements for post-1996 ROP Plans. Because of its potentially
         harmful impact on ozone precursor emissions, the policy – if continued – should
         be subjected to the notice-and-comment rulemaking process to provide the public
         with an opportunity to comment on the merits of the policy. In our view, if this
         policy is to continue, revisions are needed. At a minimum, a revised policy
         should: (1) encourage the broadening of emission controls to outside sources;
         (2) require atmospheric modeling rather than arbitrary distances; (3) ensure that
         outside emission reductions represent appropriate reductions, net of growth; and
         (4) require that the baseline emissions from all outside areas (from which credits
         are claimed) be used to calculate the required emission reduction amount for post-
         1996 ROPs. Also, the policy should specify how outside emission reductions
         would be apportioned among multiple nonattainment areas to preclude double-
         counting, and that outside areas/sources be included in subsequent PEIs.

Recommendations

         We recommend that the Assistant Administrator for Air and Radiation:

         4-1    Subject the policy claiming outside emissions to the notice-and-comment
                rulemaking process, which will allow broad public comment and
                feedback.



                                         35
         4-2    Revise policy for nonattainment area outside emission reduction credit to:

                a. Encourage broadening of controls for sources in outside areas in order
                   for a nonattainment area to claim emission reduction credits.

                b. Require atmospheric modeling to support the impact of outside
                   emissions and sources on nonattainment area ozone levels.

                c. Require that the emission baselines from all selected outside areas be
                   included in ROP baseline emissions for calculating required emission
                   reductions and measuring achievement of reductions.

                d. Establish a methodology, such as atmospheric modeling, to document
                   the extent of benefits that NOx and VOC emissions reductions from
                   outside the area have on individual nonattainment areas to prevent
                   improper double-counting of emission reductions when a State has
                   multiple nonattainment areas.

                e. Require that outside sources or areas included in post-1996 ROPs also
                   be included in subsequent PEIs for each applicable nonattainment area.

Agency Comments and OIG Evaluation

         The Agency’s response generally addressed recommendations presented in
         Chapter 4.

         In regard to Recommendation 4-1, the Agency contends that each Federal Register
         Notice for ROPs that include credit for outside emission reductions allows public
         comment on the policy that allows these credits. We agree that ROP notices
         could provide a forum for public comment; however, this has not been the case
         for prior notices that included credit for outside emission reductions. These
         notices only referenced the policy and provided little or no details regarding the
         policy and the statutory basis for the policy under the Act. Additionally, ROP
         notices were normally long, complex documents, and the use of outside emission
         reductions and the references to the policy were difficult to ascertain within this
         document. While we acknowledge that it is possible, we do not believe that past
         ROP notices appropriately highlighted nor presented sufficient information for a
         meaningful public discourse on the subject policy and its ramifications.
         Therefore, the OIG continues to believe that the policy should be subjected to
         public comment in an open, transparent, and equitable manner.

         The Agency indicated that it would consider the various components of
         Recommendation 4-2 during its assessment of existing policies and guidance as
         part of the rulemaking process for implementation of the 8-hour standard. EPA’s
         response also requested an editorial change related to certain statements attributed
         to EPA’s Office of General Counsel attorneys as shown in the draft report. The

                                          36
statements were changed as requested. Details of changes requested by EPA and
OIG’s related changes to the final report are shown in Appendix H.




                              37
                                  Measurement

                               Chapter 5
    Reliable Processes Needed to Measure Overall
      Emission Reductions and Related Impacts
         In the 14 years since passage of the 1990 Amendments to the Act, EPA has not
         issued rules requiring States to demonstrate their progress toward reducing
         precursor emissions, nor has EPA issued guidance on how such demonstrations
         should be conducted, despite the Act’s mandate to do so. Review of 10 serious
         and severe ozone nonattainment areas indicated that EPA and States had no
         reliable methods to assess the overall success of State emission reduction
         programs. EPA regions and States either did not measure reductions by individual
         nonattainment areas, or used methods that were unreliable, erroneous, or did not
         demonstrate achievement of reductions. According to OAQPS officials, guidance
         that would incorporate the Act’s timeframes could not be developed, so no
         guidance was issued. Also, due to the lack of goals and performance measures
         (see Chapter 7), there was little incentive for EPA to promulgate the guidance or
         ensure that States measured their progress. Consequently, EPA and States have
         not adequately measured the effectiveness of nonattainment area emission
         controls and whether emissions have been progressively reduced as required by
         the 1990 Act. More importantly, EPA is unsure whether recent changes in ozone
         levels are the result of permanent reductions in precursor emissions or the result
         of other factors, such as changes in weather or economic trends.

1990 Act Required Measurement of Emission Reductions

         The 1990 Act requires each State to submit a Compliance Demonstration within
         90 days after each ROP Plan milestone date that demonstrates that the required
         emission reductions have been achieved. According to the compliance
         demonstration provisions of Section 182(g)(2),

                For each nonattainment area referred to in paragraph (1), not later than
                90 days after the date on which an applicable milestone occurs (not
                including an attainment date on which a milestone occurs in cases where
                the standard has been attained), each State in which all or part of such
                area is located shall submit to the Administrator a demonstration that the
                milestone has been met.... The Administrator shall determine whether or
                not a State's demonstration is adequate within 90 days after the
                Administrator's receipt of a demonstration which contains the information
                and analysis required by the Administrator.




                                         38
          The Act further provided that if a State could not adequately demonstrate that the
          required emission reductions were achieved, the State could be subject to
          enforcement actions or sanctions.

EPA Did Not Issue Rules or Guidance for Compliance Demonstrations

          EPA refers to the compliance demonstrations required by the Act as “milestone
          compliance demonstrations.” However, according to interviews of air program
          officials at OAQPS, five EPA regions, and two States, EPA never issued rules
          requiring States to perform milestone compliance demonstrations, and has never
          issued guidance as to what information and analyses these demonstrations should
          contain. As a result, milestone compliance demonstrations have not been
          completed for most nonattainment areas. For the 10 nonattainment areas included
          in our review, only 3 milestone compliance demonstrations had been submitted by
          2 States (Georgia and Illinois) for 2 nonattainment areas (Atlanta and Chicago-
          Gary-Lake County). Further, these three compliance demonstrations generally
          contained only a listing of emission controls, the dates that controls were
          implemented, and the assumption that projected emission reductions were
          equivalent to actual reductions. The three milestone compliance demonstrations
          we reviewed did not contain any measurements of actual emission reductions.
          EPA regional staff indicated that the regions did not review these milestone
          compliance demonstrations because EPA had not issued any guidance on what
          they should contain.

          OAQPS staff explained that milestone compliance demonstration rules and
          guidance had initially been drafted around 1994, but – because of a “disconnect”
          in the Act’s requirements – OAQPS could not develop guidance that met the
          Act’s requirements, so the guidance was never issued. According to OAQPS
          officials, their interpretation of the 1990 Act is that a comparison between the
          1990 baseline emission inventory and subsequent periodic emissions inventories
          should be used in State compliance demonstrations to demonstrate actual
          emission reductions achieved. Milestone compliance demonstrations are required
          from States 90 days after each milestone date, but periodic emission inventories
          are not due until 22 months after the milestone dates. Thus, updated emissions
          inventories are not available when States need them to create their milestone
          compliance demonstrations.

          According to OAQPS officials, EPA attorneys would not approve a milestone
          compliance demonstrations policy that did not meet the Act’s 90-day time frame.
          OAQPS developed some alternative indicators States could use to demonstrate
          that emission reductions were probably achieved, but this did not satisfy EPA
          managers who wanted actual measures of reductions. OAQPS officials were
          asked if statutory changes in the Act’s requirements were sought to remedy the
          timeframe inconsistencies, to which they replied recommendations on statutory



                                          39
          changes could only come from the Assistant Administrator level and no such
          recommendations had been made.

Baseline and Periodic Inventories Needed Updating

          While EPA’s periodic updates to emissions models, methodologies, and factors
          since 1990 have helped improve the quality of more recent emissions inventories,
          substantial effort is required to update older baseline inventories. This will
          require EPA to revisit early assumptions and retrofit newer methodologies to old
          activity profiles. As a result, it becomes more and more difficult, costly, and
          resource intensive to maintain early baseline inventories and, as such, more
          difficult to use them to measure emission reductions. OAQPS staff stated that the
          intent of the Act was that baseline and PEI inventories be used by nonattainment
          areas to gauge their emission reduction progress. However, the Act does not
          specifically require that emission inventories be used for this purpose. Our
          interviews with OAQPS, regional, and State officials disclosed that, due to
          changes in models, methodologies, and emissions factors over the years, a reliable
          comparison between baseline and periodic emission inventories could not be
          conducted unless both inventories were updated.

          Five EPA regions we contacted said they had not required States to update their
          nonattainment area baseline or periodic emission inventories. OAQPS staff
          indicated that EPA had not required the updating of baseline inventories because
          such updating required modeling, which proved expensive and resource intensive
          in past years. However, some States voluntarily updated their baseline inventories
          in 2003 using the latest mobile emission model (MOBILE6), and one State
          (Wisconsin) had updated the 1990 baseline inventories and the periodic emission
          inventories for its one nonattainment area. Also, one State (Maryland) had
          attempted to measure actual emission reductions in its 1996 and 1999 PEIs by
          comparing the current PEI to the 1990 baselines for its nonattainment areas, but
          the baseline inventories had not been updated or adjusted for noncreditable
          emission reductions as required by the Act. Maryland did not submit this
          attempted emission reduction measurement as a milestone compliance
          demonstration.

EPA Regions and States Primarily Used Ambient Trends and
Implementation of Controls to Demonstrate Progress

          Our interviews at six EPA regions and two States indicated that they used a
          combination of ambient ozone trends, ozone exceedance days, and
          implementation of ROP emission controls to gauge reduction of ozone precursor
          emissions. EPA regions and States generally used the projected emissions
          reductions from implemented controls as a measure of progress in reducing
          precursor emissions.


                                          40
                 EPA established “observed ozone levels” as an outcome measure for its ozone
                 precursor emission reduction program. However, because ozone is not emitted,
                 but formed in a complex, atmospheric chemical reaction of other emitted
                 pollutants, no direct correlation exists between ozone levels and the reduction of
                 precursor emissions. The impact of emission reductions on ozone levels is
                 generally estimated through use of atmospheric models that include additional
                 factors that affect ozone levels, such as meteorological conditions, temperature,
                 and wind velocity.

                 For example, EPA and external studies of recent downward trends in
                 nonattainment ozone levels pointed to weather conditions (cooler summers and
                 more rain than usual), in addition to emission reductions, as the primary reasons
                 for reduced ambient ozone levels. In addition, an EPA study and one Georgia
                 study of meteorologically adjusted ozone levels for major metropolitan areas
                 found no statistically significant downward trends in ozone concentrations in the
                 periods 1990-2002 and 1981-2001, respectively. Further, an OAQPS analysis of
                 1991-2001 ambient VOC and NOx concentrations for two ozone nonattainment
                 areas found no statistically significant downward trends in ozone or VOC and
                 NOx concentrations resulting from emission reductions. Further, a 1996 study12
                 by two OAQPS ozone experts stated the following:

                         Tracking progress in attaining the ozone NAAQS (National
                         Ambient Air Quality Standards) is often confounded by the effect of
                         interannual variations in meteorological conditions, which, in
                         turn, affect the annual (seasonal) distribution of ozone. Large
                         interannual variations in meteorology can thus mask the
                         underlying trends in ozone levels and may suggest changes in air
                         quality that are not actually related to emission reductions.

                 However, changes in meteorological conditions and wind patterns can be
                 temporary and generally cannot be controlled; reduction of precursor emissions is
                 the only known method for permanently reducing ozone pollution.

Guidance and Rules for Compliance Demonstrations May Be Issued
for 8-Hour Standard

                 Although the 1994 initial draft guidance has never been issued, EPA has begun
                 updating the guidance as part of the implementation guidance for the new 8-hour
                 ozone standard. In April 2004, an OAQPS official told us that the guidance might
                 be issued in 2004, but could be delayed because of other priorities related to
                 8-hour implementation.



        12
           “Assessment of Interannual Ozone Variation in Urban Areas From A Climatological Perspective,”
published in the Atmospheric Environment, Vol. 30, No. 14, pp 2615-2625, 1996.

                                                      41
         The draft milestone compliance demonstration guidance indicates that
         comprehensive emission inventories are the most effective method for assessing
         emission reductions, but acknowledges that this method may not be accomplished
         within the Act’s 90-day deadline. As a result, EPA proposed an alternative
         method that uses a “weight of evidence” approach whereby States must provide
         evidence that control measures specified in their ROPs have been properly
         implemented, and a best estimate of emission reductions achieved based on
         growth rates, air quality trends, and other factors. This approach allows ambient
         air monitoring and emission/air quality modeling as support for emissions
         reductions. However, as previously discussed, ambient ozone levels alone are not
         an accurate measure of emission reductions. The draft milestone compliance
         demonstration guidance does not require the use of relevant factors, such as
         meteorology-adjusted ozone trends, or trends in ambient concentrations of VOCs
         and NOx, as indicators of emission reductions. Including these would be
         beneficial.

Conclusions

         EPA and States need reliable methods for measuring emission reductions of
         nonattainment areas and the impact of such reductions, excluding other factors, on
         ambient ozone levels. Without reliable measurement methods, EPA is unable to
         determine the effectiveness of implemented controls and has no assurance that the
         progressive emission reductions occurred.

         Demonstrations of emission reductions have become increasingly important since
         implementation of the stricter 8-hour standard and the lack of reasonably
         available, proven control techniques for some areas. Most 1-hour nonattainment
         areas, which are now 8-hour nonattainment areas, have already implemented most
         of the readily available, least expensive emission controls. These areas will need
         to be innovative in developing and promulgating future control measures.
         Accordingly, EPA needs to know whether these controls are effective in achieving
         required reductions and, thereby, facilitate attainment of the 8-hour standard
         within the time frames established for each area.

Recommendations

         We recommend that the Assistant Administrator for Air and Radiation:

         5-1    Expedite issuance of the milestone compliance guidance, but restrict the
                use of observed ambient zone levels as a stand-alone indicator of emission
                reductions. The guidance should also require the use of meteorologically
                adjusted ozone trends and trends in ambient concentrations of VOC and
                NOx in the weight of evidence approach.




                                         42
         5-2    Instruct States to utilize indicators, as reflected in the draft milestone
                compliance demonstration guidance, and/or provide annual updates to
                emissions inventories (one third of sources per year or one third of States
                per year) to determine potential or actual emission reductions within the
                Act’s 90-day time frame for milestone compliance demonstrations.

         5-3    Require that nonattainment areas update baseline inventories and,
                subsequently, perform more in-depth assessments of actual emission
                reductions, once the applicable PEIs are completed. This subsequent
                determination of actual emission reductions may not meet the milestone
                compliance demonstration 90-day time frame but will provide a measure
                of progress that is not currently available.

         5-4    Incorporate the use of updated NEI data and other available measures,
                where appropriate, into milestone compliance demonstration guidance as
                top-down indicators or measures of nonattainment area progress in
                reducing precursor emissions.

         5-5    Require State and local agencies to update past baseline and periodic
                emission inventories based on the latest models, emission factor, and
                methodologies, and complete milestone compliance demonstrations for
                1990 through 1999 (or later milestone year) for nonattainment areas based
                on the issued milestone compliance guidance. Further, for future
                inventories, require States to continuously update inventories as new
                emissions data and methods are developed, to provide timely assessments
                of nonattainment area progress in reducing precursor emissions.

Agency Comments and OIG Evaluation

         The Agency indicated that it would evaluate the current draft milestone
         compliance guidance and determine the feasibility of incorporating the changes
         recommended in Recommendations 5-1, 5-2, and 5-4. Regarding
         Recommendations 5-3 and 5-5, the Agency questioned whether the updating of
         baseline inventories for comparison with future PEIs (Recommendation 5-3), and
         the updating of baseline and periodic inventories to measure emission reductions
         achieved by nonattainment areas between 1990 and 1999 (Recommendation 5-5),
         represent an effective use of Agency resources. The Agency stated that the
         current focus of ozone program resources is on implementation of the more
         protective 8-hour ozone standard. The Agency response further noted that EPA
         and States will rely on indicators included in the draft milestone compliance
         guidance to determine whether emission reductions were achieved without any
         requirement for measurement of actual reductions through the use of NEI or State
         emission inventories for each nonattainment area.




                                         43
We agree that the Agency should focus resources on implementation of the 8-hour
standard. However, as noted here and in Chapter 2, EPA’s efforts to implement
the 8-hour standard will be significantly enhanced if the Agency better
understands the effectiveness of prior precursor emissions reductions strategies.
This should help the Agency properly design and effectively implement emission
controls under the 8-hour standard. These efforts may be especially important for
those major metropolitan areas that have made so little progress in reducing ozone
precursor emissions since 1990. In our view, determining how to implement the
8-hour standard more effectively than occurred under the 1-hour standard
represents an effective use of Agency resources. Also, the additional milestone
requirement for States to update past baseline and/or periodic inventories for
comparison to the most recent PEI would provide a realistic measure of emission
reduction achievements under the 8-hour standard and, as such, would also
represent an effective use of Agency resources to achieve the 8-hour standard.
The use of indicators alone will not fully meet the Act’s requirement that States
demonstrate the attainment of specific, mandated precursor emission reductions
for each nonattainment area. The Agency’s specific responses to each
recommendation in this chapter and a detailed OIG evaluation are included in
Appendix H.




                                44
                                          Chapter 6
   Opportunities Exist to Enhance Measurement of
      Emission Reductions and Ozone Trends
                EPA could make better use of available data and methodologies to more
                accurately assess the effectiveness of emission controls and their impact on ozone
                levels. Our interviews with OAQPS staff and EPA officials in five regions
                disclosed that relatively little use has been made of available emissions data,
                meteorologically adjusted ozone methodologies, and ambient precursor
                monitoring data to develop long-term trends and assess the actual emission and
                related ozone reductions for individual nonattainment areas. Greater use of these
                data and techniques would enable EPA and States to more readily recognize
                shortcomings of current control mechanisms and help them to develop and
                implement contingency plans when necessary, and better protect the public from
                unhealthy ozone. OAQPS officials agreed that this would be a valuable tool, but
                said that resource constraints had prevented more extensive trend analyses of
                ozone precursor (VOC and NOx) monitoring data.

Updated NEI Could Represent A More Consistent Measure

                In 2003, EPA initiated an update of 1990 through 1999 NEI data based on EPA’s
                latest models, emission factors, and methodologies. Because in most cases the
                data have been adjusted for State-developed inventories,13 the NEI could be used
                to accurately assess emissions reductions. OAQPS is presently in the process of
                producing emissions data for 2000 and 2001. With adjustments for non-creditable
                reductions (certain emissions resulting from pre-1990 controls), these emissions
                data could potentially be used by nonattainment areas to measure actual
                reductions in precursor emissions. Under the 2002 Consolidated Emission
                Reporting Rule, States are required to provide State-wide emissions inventories to
                OAQPS. State emissions inventories will then be used to update the NEI, making
                it an accurate baseline from which States can develop future milestone
                compliance demonstrations for ozone precursor emissions

                OAQPS officials agreed that the updated NEI could serve as a source of data for
                measuring ozone precursor emission reductions by individual nonattainment
                areas. However, they were hesitant about using the data for milestone compliance
                demonstrations, noting that State and local agencies may not accept NEI data
                since it is a top-down database (EPA runs the models and chooses data). The Act
                provides for a bottom-up approach, whereby States develop and submit to EPA
                demonstrations that required reductions have been achieved. However, since EPA


    13
         See Chapter 2 for discussion of State adjustments to NEI.

                                                       45
          adjusts the NEI data every 3 years for State and local periodic inventories, States
          may have fewer objections. Our contacts with EPA staff in five regional offices
          indicated that most were willing to consider use of the updated NEI data for
          milestone demonstrations. Also, some States had already accepted certain NEI
          data for use in their nonattainment area PEIs, and indicated they would be willing
          to consider the use of the updated NEI data for milestone compliance
          demonstrations.

Meteorologically Adjusted Ozone Data May Also Be Useful

          In the mid-1990s, EPA developed a statistical trend model to normalize the effects
          of meteorological conditions on observed ozone levels. This model produces
          meteorologically adjusted ozone values that take into account meteorological
          conditions and thus more accurately reflects the impact of emission reductions on
          ozone levels over time. OAQPS uses meteorologically adjusted ozone data in
          national and regional air quality trend reports, but our research indicates that EPA
          regions and States do not generally use meteorologically adjusted data to assess
          ozone precursor emissions reductions or evaluate the effectiveness of their
          controls for individual nonattainment areas. Staff in five EPA regions and two
          States were aware of EPA’s meteorologically adjusted ozone methodology, but
          most had not used it to perform long-term ozone trend analyses for individual
          nonattainment areas.

PAMS Data Could Provide Good Measure of Emission Control
Effectiveness

          The 1990 Act required EPA, in partnership with State and local agencies, to carry
          out more extensive, enhanced monitoring of ozone levels and ozone precursor
          emissions. In response, EPA established the Photochemical Assessment
          Monitoring Station (PAMS) to collect detailed data on ambient concentrations of
          VOCs, NOx, and ozone, primarily within urban ozone nonattainment areas.
          States began implementing PAMS networks around 1994, and began collecting
          reliable data in 1995 or 1996. States operate the PAMS networks and upload the
          data into EPA’s Air Quality System. Currently, there are about 8 to 9 years of
          PAMS data for most serious to extreme nonattainment areas in the Air Quality
          System.

          Interviews of air program officials at five EPA regions and two States disclosed
          that States had developed PAMS data analysis plans and done some analyses of
          annual and seasonal observations of ambient VOC and NOx concentrations.
          However, we found little long-term trend analyses of PAMS data. OAQPS staff
          indicated that the PAMS network produced reliable data on ambient VOC and
          NOx concentrations, and OAQPS had extracted this data from the Air Quality
          System into a separate database for trends analysis. However, only limited
          analytical work regarding individual nonattainment areas had been performed thus

                                           46
                 far. In the 2003 National Air Quality and Emission Trends Report, OAQPS
                 provided an analysis of ambient VOC and NOx trends on a national basis, as well
                 as a limited trends analysis of PAMS data for the Atlanta and Chicago
                 nonattainment areas. OAQPS officials indicated that the staff assigned to this
                 project were subsequently reassigned without replacement and no additional
                 analyses of the PAMS data have occurred.

                 A January 2004 National Research Council report14 also suggests that EPA and
                 States thus far have made little use of PAMS data to develop long-term trends in
                 ambient concentrations of VOCs and NOx within urban nonattainment areas. The
                 report states:

                         The chief objective of PAMS data collection is to provide an air
                         quality database that will assist air pollution control agencies to
                         assess and refine O3 [ozone] control strategies and specifically
                         evaluate the trends in and effectiveness of controls implemented on
                         VOC and NOx emissions in an area.... In principle, the data from the
                         PAMS network could be extremely useful for the regulatory and
                         scientific communities. However, it appears that the full potential of
                         the data has yet to be realized.

                 Since PAMS collects data on the ambient concentrations of precursor emissions,
                 long-term trend analyses of these data could provide a measure of whether
                 ambient concentrations of these compounds for each nonattainment area are
                 increasing or declining. Such trend analyses could be further used as a measure of
                 the success of Federal, regional transport, and local controls in reducing precursor
                 emissions and identifying areas where additional controls or other improvements
                 are needed.

Conclusions

                 As EPA develops new ozone control strategies and guidance for the 8-hour
                 standard, the Agency has the opportunity to make better use of available data and
                 methods to measure emission reductions, assess the effectiveness of emission
                 controls in reducing precursor emissions, and evaluate the impact of emission
                 reductions on ozone levels. These tools are especially warranted for
                 nonattainment areas still struggling to achieve the 1-hour ozone standard. More
                 effective use of these tools and methods may identify areas where (1) declines in
                 ozone levels are due to temporary meteorological factors rather than emission
                 reductions, (2) required emission reductions have not been achieved, and
                 (3) precursor emission reductions have not resulted in reduced ozone levels.
                 This information could allow EPA and States to identify shortcomings with


        14
          Air Quality Management in the United States, National Research Council of the National Academies,
January 2004.

                                                      47
         current control strategies, develop and implement contingency plans when
         necessary, and better protect public health.

Recommendations

         We recommend that the Assistant Administrator for Air and Radiation:

         6-1    Develop analytical procedures and processes for EPA and/or States to
                utilize updated NEI data for measuring the progress of individual 8-hour
                nonattainment areas in reducing precursor emissions and complying with
                the Act’s emission reduction mandates.

         6-2    Issue guidance for the development of meteorologically adjusted ozone
                trends for individual nonattainment areas, updated annually, to better
                isolate the impact of emission reductions on ozone levels.

         6-3    Provide resources to develop PAMS data analyses and identify trends in
                ambient VOC and NOx concentrations for individual ozone nonattainment
                areas. Such trends could be used to assess the effectiveness of Federal,
                regional, and local emission controls and identify where additional
                controls may be warranted.

Agency Comments and OIG Evaluation

         The Agency generally agreed with the expanded use of the data and analyses
         presented in this chapter. The Agency indicated that some improvements to the
         approaches and techniques involved would be needed before they could be used to
         evaluate the progress of individual nonattainment areas in reducing precursor
         emissions and related ozone levels. However, as previously stated in Chapter 2,
         EPA has already used these techniques and approaches, in a limited manner, to
         evaluate ozone levels and the impact of emission controls on ambient emission
         and ozone levels for certain nonattainment areas.

         The Agency’s specific responses to each recommendation presented in this
         chapter and a detailed OIG evaluation are included in Appendix H.




                                        48
                                Chapter 7
              Specific Performance Goals and
                 Measures Not Developed
          EPA and States have not developed specific, quantifiable emission reduction
          goals and measures for ozone nonattainment areas, although the Act requires these
          areas reduce emissions by specific amounts within mandated timeframes. In
          addition to the Act, the Government Performance and Results Act of 1993
          requires Federal agencies to develop goals and performance measures for each
          major program activity. EPA and State staff indicated that goals and measures for
          ozone precursor emission reductions had not been developed because EPA had
          not promulgated guidance and methods for measuring these reductions (see
          Chapter 5). Without goals and measures to provide accountability, there is little
          incentive for staff to promulgate rules and guidance for measuring emission
          reductions.

Statutes Require Goals and Measures

          Section 182 of the Act specifies that ozone precursor emissions within
          nonattainment areas are to be reduced by specific amounts by certain milestone
          dates. For example, VOC baseline emissions for each nonattainment area should
          be reduced 15 percent by November 15, 1996. Further, Section 4 of the
          Government Performance and Results Act provides that each agency shall
          (1) prepare an annual performance plan covering each program activity;
          (2) establish performance goals to define the level of performance to be achieved
          by a program activity; (3) express such goals in an objective, quantifiable, and
          measurable form; and (4) establish performance indicators to be used in
          measuring or assessing the relevant outputs, service levels, and outcomes of each
          program activity.

EPA Strategic and Annual Plans Included Only
Emission Reductions From Federal Rules

          EPA Strategic Plans, issued in 2000 and 2003, included goals for NOx and VOC
          emission reductions related to some national Federal programs and associated
          rules, such as power plant NOx emissions and mobile source NOx and VOC
          emissions. However, there were no strategic goals for VOC and/or NOx
          reductions by ozone nonattainment areas. Further, EPA’s Annual Plans for 1999
          through 2003 did not include goals and performance measures for emission
          reductions by individual nonattainment areas. As in the strategic plan, annual
          plans included goals only for VOC and NOx reductions related to some national
          Federal programs and associated rules.


                                          49
EPA Regional and State Plans Did Not Include
Specific Emission Reductions for Nonattainment Areas

          EPA Regional annual and multi-year goals and measures are negotiated between
          regional staff and OAQPS prior to the beginning of each fiscal year. The
          agreed-to annual goals and measures are subsequently included in Memorandums
          of Agreement between EPA regions and OAQPS. The agreements for 2000 to
          2003 that we reviewed for two EPA regions (Regions 4 and 5) did not contain
          specific, numeric goals for ozone precursor emission reductions by nonattainment
          areas. Additionally, our interviews in six EPA regions further indicated that most
          regional annual plans did not generally have specific goals and measures for
          ozone precursor emission reductions achieved by individual nonattainment areas.
          Officials in three regions said EPA had not developed methods and guidance for
          measuring or demonstrating that emission reductions had been achieved. Most
          EPA regions indicated that they rely upon air quality, ambient ozone trends, and
          tracking of State implementation of emission controls to measure overall emission
          reductions by area.

          At least two EPA regions (Regions 1 and 5) indicated that they had developed
          regional strategic plans, but only one region included a specific strategic goal for
          nonattainment area emission reductions. Region 1 had established a specific
          strategic goal of reducing ozone precursor emissions in 8-hour ozone areas by
          3 percent annually between 2002 and 2010. However, the region’s strategic plan
          did not show how this goal would be measured.

          Interviews with EPA officials in six regions and review of annual or multi-year
          work plans for three States disclosed that States had not developed goals or
          measures for emission reductions required by the Act. States listed general goals
          for reduced emissions, but did not establish specific goals or measures for
          achieving clean air goals. For example, the New Hampshire Performance
          Partnership Agreement for 2003 and 2004 included the following general goal
          without specific measures: “Reduce emissions of criteria pollutants and achieve or
          maintain mandated air quality standards for the protection of public health and the
          environment.”

          Furthermore, States generally had not attempted to measure or demonstrate
          emission reductions achieved by nonattainment areas. Two States (Georgia and
          Illinois) submitted one or more milestone compliance demonstrations to EPA but
          these did not measure or demonstrate actual emission reductions, and EPA regions
          did not review these demonstrations because EPA had not required that States
          prepare or submit them. Additionally, one State (Maryland) tried to calculate
          emission reductions achieved as part of its periodic emission inventory process by
          comparing the baseline emission inventories to the latest inventory. However, the
          State had not updated the baseline inventories based on the methods used to

                                           50
         develop the periodic emission inventory and the State did not adjust the baseline
         inventories for noncreditable emission reductions, as required by the Act.

         OAQPS staff acknowledged that EPA regions and States may not have specific
         nonattainment area goals for ozone precursor emission reductions because EPA
         has not promulgated rules or guidance on State measurement of emission
         reductions and the submission of milestone compliance demonstrations that
         would include such measurements.

Conclusions

         EPA’s lack of goals and measures for mandated reductions undermines the
         legislative intent of the Act in establishing specific emission reduction
         requirements for ozone precursor emissions. In effect, the absence of goals for
         emission reductions has resulted in a lack of emphasis in measuring overall
         reductions in emissions for individual nonattainment areas. EPA needs to
         expedite the issuance of rules requiring States to demonstrate that required
         emission reductions have been achieved by nonattainment areas, and promulgate
         guidance on methods States should use to measure emission reductions. EPA
         should then establish specific goals and measures for emission reductions by
         nonattainment areas in EPA and State performance plans. The recent listing of
         nearly 474 counties that are in nonattainment for the 8-hour standard provides an
         excellent opportunity for EPA to expedite the issuance of rules requiring States to
         demonstrate that required emission reductions have been achieved by
         nonattainment areas, and promulgate guidance on methods States should use to
         measure emission reductions. EPA should then establish specific goals and
         measures for emission reductions by nonattainment areas in EPA and State
         performance plans.

Recommendations

         Once milestone compliance demonstration rules and guidance are issued, we
         recommend that the Assistant Administrator for Air and Radiation:

         7-1    Establish annual and multi-year goals and performance measures for ozone
                precursor emission reductions by individual nonattainment areas and
                require State and local agencies to submit evidence that these goals have
                been met.

         7-2    Once annual goals and measures are established, include the goals and
                measures in EPA, State, and local agencies’ annual and strategic plans,
                and provide accomplishments toward these goals in EPA’s annual
                performance reports.




                                          51
Agency Comments and OIG Evaluation

         In response to Recommendations 7-1 and 7-2, the Agency indicated that its
         strategic planning activities were already sufficient to address these
         recommendations. For example, in response to Recommendation 7-1, the Agency
         referred to a strategic 2010 goal for people living in areas with unhealthy ozone.
         While we appreciate this larger goal for ambient ozone, our recommendation
         pertains to establishing performance measures for precursor emission reductions
         (NOx and VOCs) by individual nonattainment areas. As noted in our report,
         ambient ozone is our most complex, difficult to control, and pervasive urban air
         pollutant. In recognition, the 1990 Act mandated ever increasing levels of
         precursor emissions reductions until attainment is achieved. Thus, we continue to
         believe that Recommendation 7-1 is appropriate and necessary to assuring timely
         ozone attainment. For Recommendation 7-2, EPA indicated that the Agency’s
         strategic goals, objectives, and performance measures reflect the broader goal of
         protecting public health and, thereby, the measurement of areas and populations
         with clean air for criteria pollutants. While we appreciate these larger goals, we
         believe the Agency strategic and annual plans should also include goals for
         reducing ozone precursor emissions in accordance with the 1990 Act. EPA’s
         current strategic and annual plans already include goals for NOx emission
         reductions from power plants, as well as VOC and NOx emission reductions from
         stationary and mobile sources based on Federal rules.

         The Agency’s specific responses to each recommendation presented in this
         chapter and a detailed OIG evaluation are included in Appendix H.




                                         52
                                          Chapter 8
                Quality Assurance Reviews and Plans
                         Need Improvement
                Most EPA regions contacted did not receive and/or review nonattainment area
                periodic emissions inventories developed by States to ensure that these inventories
                were properly developed using acceptable models, methods, and emission factors.
                This was because regions did not consider these emissions inventories to be
                significant regulatory documents that required review and approval. Generally,
                States only submitted summary inventory data to OAQPS for updating the ozone
                precursors in EPA’s NEI database. Consequently, EPA did not routinely perform
                quality assurance reviews for PEI development. Additionally, OAQPS did not
                have an approved Quality Assurance Project Plan (QAPP) for NEI data to ensure
                data quality and consistency in accordance with EPA guidance. States we
                reviewed did not have approved QAPPs for emission inventory and ozone
                monitoring data that complied with EPA requirements for data quality.

Act Requires PEIs, EPA Policy Requires QAPPs and Data Quality
Objectives

                The Act requires that nonattainment areas update their baseline emission
                inventories every 3 years; these updates are referred to as periodic emissions
                inventories, or PEIs. States use PEIs for planning, assessing progress in emission
                reductions, and modeling for attainment of standards. EPA uses PEIs to update or
                adjust the NEI, which is used, in turn, for air dispersion modeling, strategy
                development, regulation setting, tracking emission trends, performance
                measurement, and releasing reports to the public.

                Because of the importance of environmental data in decision-making, EPA issued
                an Agency order15 nearly 20 years ago requiring that data be of known and
                acceptable quality in order to be useful. A primary way that EPA ensures that
                environmental data is acceptable is through the use of approved QAPPs. EPA’s
                quality assurance requirements state that work funded by EPA that involves the
                acquisition of environmental data generated from direct measurement activities,
                collected from other sources, or compiled from computerized databases and
                information systems shall be implemented in accordance with an approved QAPP.
                Except when specifically stated, all QAPPs prepared by non-EPA organizations
                must be approved by EPA prior to any data gathering or use, except under special
                circumstances when immediate action is necessary. The order defines
                environmental data as information collected directly from measurements, and


     15
          EPA Order 5360.1A2, revised May 5, 2000; initial Order 5360.1 issued 1984.

                                                      53
         includes environmental data collected by EPA and all EPA-funded organizations
         (such as States).

         EPA’s QAPP guidance also requires that QAPPs contain Data Quality Objectives
         (DQOs) and performance criteria for the environmental data being collected.
         EPA’s Guidance for the Data Quality Objectives Process (EPA QA/G-4), dated
         August 2000, defines DQOs as “qualitative and quantitative statements... that
         clarify study objectives, define the appropriate type of data, and specify tolerable
         levels of potential decision errors that will be used as the basis for establishing the
         quality and quantity of data needed to support decisions.”

EPA Regions Did Not Receive and/or Review PEIs
         Only three of seven regions (Regions 1, 4, and 6) required States to submit PEIs,
         according to officials in the seven EPA regions we contacted, and one of the three
         did not require PEIs from all of its States. Two regions (Regions 1 and 4)
         indicated they reviewed PEIs, but none of the seven had formally approved any
         PEIs. Only one region we interviewed (Region 1) had provided comments to a
         State regarding PEI quality. The remaining four regions (Regions 2, 3, 5, and 9)
         generally indicated that State submission of PEIs to regional offices was not a SIP
         requirement for these States. Table 8.1 summarizes the responses we received
         from 7 regions for 13 nonattainment areas.

         Officials in four EPA regions told us that they did not require PEI submissions
         and that, if a PEI was submitted, they did not perform an in-depth review, nor did
         they approve it, largely because EPA had determined that PEIs were not of
         “regulatory significance.” EPA policy only required that nonattainment area
         baseline inventories be approved by EPA regions. Four regions referred us to
         September 1992 and September 1994 EPA policies, but we found that these two
         policies only excluded PEIs from rulemaking until they became significant
         regulatory documents. Neither policy exempted PEIs from review and approval
         by regional offices for quality assurance purposes, and in fact called for regional
         receipt, review, and approval of PEI summary data. For example, the September
         1994 memorandum from OAQPS to regional air program chiefs, “1993 Periodic
         Emission Inventory Guidance,” stated:

                The review and approval of the 1993 periodic emissions inventory is
                the responsibility of the Regional office. In accordance with the
                memorandum of September 29,1992, on “Public Hearing Requirements
                for 1990 Base-Year Emissions Inventories for Ozone and Carbon
                Monoxide Nonattainment Areas,” rulemaking on the 1993 periodic
                emission inventory can be deferred until it has regulatory significance.
                In any case, a submittal of a 1993 periodic emission inventory is
                required to avoid a “finding of Failure to Submit.”



                                           54
              We found no current EPA guidance requiring in-depth regional reviews of the
              methodologies and factors that States used to develop PEIs. An atmospheric
              modeling expert indicated that he had encountered significant problems in State
              emission inventories used for ozone attainment modeling. He said he had found
              incorrect methodologies were used in identifying emission points and developing
              and maintaining State emission inventories. He further indicated that EPA needed
              to perform better quality assurance reviews of State emission inventories.

OAQPS Did Not Receive Complete Data from States

              As shown in Table 8.1 below, many regional offices did not receive State PEIs for
              nonattainment areas, and the States that submitted electronic files to OAQPS only
              submitted summary data on the ozone precursor emissions in the nonattainment
              area. OAQPS used this summary information to develop the NEI for milestone
              years (1993, 1996, and 1999). Although OAQPS had quality assurance
              procedures regarding content and formatting of the PEI data received from States,
              it did not receive information on the models, emission factors, and other methods
              used by the States to develop the summary inventory data. Without quality
              control information regarding the development and collection of PEI data,
              OAQPS cannot assure the accuracy or quality of State PEIs, or subsequent NEIs.
              For the seven EPA regions we reviewed, Table 8.1 shows their review of PEI’s.


               Table 8.1: Regional Receipt and Review of Nonattainment Area PEI’s
                                                                 Required
                                                                   PEI                       Comments
   Region        State            Nonattainment Area             Submittal     Reviewed       to State      Approval
     1          MA-NH         Boston-Lawrence-Worcester              yes          yes            yes          no
     1            NH          Portsmouth-Dover-Rochester             yes          yes            yes          no
                                                                          a
     1            RI          Providence                             no            no             no          no
     1            MA          Springfield                            yes          yes            yes          no
                                                                          b                         b
     2          NY-NJ         New York-New Jersey-Long Is.           no            no            no           no
     3            MD          Baltimore                              no            no             no          no
     3        MD-DC-VA        Washington, DC                         no            no             no          no
                                                                                        c
     4            GA          Atlanta                                yes          yes             no          no
     5           IL-IN        Chicago-Gary-Lake County               no            no             no          no
     5            WI          Milwaukee-Racine                       no            no             no          no
     6            TX          Dallas                                 yes           no             no          no
     9            CA          Sacramento Metro                       no            no             no          no
     9            CA          San Joaquin Valley                     no            no             no          no

   a Providence did not publish or document PEIs for 1996 and 1999; PEI data submitted directly to OAQPS.
   b Region 2 only received and reviewed the 1996 PEI for New Jersey; no PEIs received from New York.
   c Region 4 informally reviewed Atlanta PEIs but provided no comments to the State.




                                                        55
States Generally Did Not Have Approved QAPPs

              Only one (Region 6) of the five EPA regions we contacted had an approved QAPP
              for State emissions data (Texas), but it did not contain DQOs to ensure the
              consistency and accuracy of the State data. Only two of the regions (Regions 5 and
              6) had State QAPPs for air monitoring data, including ozone data. QAPPs for
              State air monitoring data provided by Region 5 had not been approved by the
              region or the States and both Region 5 and 6 QAPPS did not contain DQOs. The
              EPA-approved Texas QAPP for air monitoring data16 stated the following in
              Section A7, Data Quality Objectives (DQO) for Measurement Data:

                    The tolerable limits on the probability of making a decision error with
                    respect to attainment or nonattainment of the NAAQS (National Ambient
                    Air Quality Standards) for individual criteria pollutants in specified
                    areas is not addressed in the federal regulations and is not attempted in
                    this plan. This results in a break in the DQO process between the
                    decision to be made and the quality of the data needed to make the
                    decision within a defined error tolerance. Because of this, the
                    measurement quality objectives for this project in terms of data
                    accuracy, precision, and completeness are based on available
                    monitoring technology and many years of practical monitoring
                    experience rather than the DQO process.

               Three regions (Regions 1, 3, and 4) could not provide any QAPPs for ozone air
               monitoring data. Some regions believed State Quality Management Plans would
               suffice in lieu of QAPPs, but such plans are broad, covering all of a State’s
               environmental programs, and do not include accuracy and precision criteria or
               DQOs. One region stated that since EPA had not promulgated the DQOs for
               ozone air monitoring data, the region had not required QAPPs. Another region
               indicated that its States still used EPA-approved quality assurance plans from the
               mid-1980s, before QAPPs were required, and is in the process of negotiating
               current State QAPPs for air monitoring data, including ozone.

NEI Did Not Have An Approved QAPP

               OAQPS staff stated that until a few years ago they did not believe a QAPP was
               necessary for NEI ozone precursor emissions data because a significant amount of
               these data came from other sources, such as States and power plants. OAQPS
               does, however, maintain its own internal QAPP for data it collects or develops
               from modeling. In July 2003, OAQPS provided the OIG with a copy of a draft,
               unapproved QAPP for NEI data. It did not contain DQOs, as required by EPA’s
               guidance, and quality assurance staff at OAQPS indicated that DQOs for emission

       16
            Texas Commission on Environmental Quality, NAMS/SLAMS Network and U.S./Border Support
Activities Quality Assurance Project Plan for 2002 and 2003.

                                                  56
         data produced by States or EPA have not yet been developed. The draft still had
         not been finalized as of May 2004.

DQOs for Emission and Ozone Data Not Promulgated

         OAQPS staff referred us to NEI planning and preparation documents for DQO-
         type guidance related to NEI data. However, these documents primarily establish
         how OAQPS will obtain and assimilate emissions data from external sources and
         perform quality assurance on data input. The documents did not contain specific
         precision and acceptance criteria for emissions data collected or developed by
         OAQPS through modeling or other methodologies. An OAQPS official indicated
         that DQOs for ozone data, which have to be issued as a regulation, have been
         developed but the DQOs have not been released.

         An OAQPS official indicated that States should have QAPPs for ozone and other
         air monitoring data based on the pre-1990 precision and acceptance criteria, even
         though the DQOs have not been issued. However, the pre-1990 requirement for
         precision for ozone data was plus or minus 15 to 20 percent, whereas the ozone
         DQO will require a more strict precision level of plus or minus 7 percent.

Conclusions

         States use nonattainment area PEIs for many critical activities, such as planning
         and modeling for SIP revisions and attainment demonstrations. EPA also uses
         State emissions inventories to adjust the NEI and the NEI data are used in
         regulatory planning and public information releases. Therefore, adequate quality
         assurance of these data is critical. Despite the important role of State emissions
         data, EPA has no consistent process for ensuring the quality of the State PEIs.
         EPA regions did not require, receive, and/or review PEIs. Additionally, OAQPS
         did not receive sufficient information regarding State inventory development and
         methodologies to provide quality assurance for inventories used to update and
         adjust the NEI. Further, QAPPs for ozone air monitoring data need improvement.
         Some States did not have QAPPs for air monitoring data; others had air
         monitoring QAPPs that did not include required DQOs. EPA has not developed
         DQOs for ozone precursor emissions data, and the ozone DQOs it has developed
         have not been released.

Recommendations

         We recommend that the Assistant Administrator for Air and Radiation:

         8-1    Develop DQOs, using EPA DQO development guidance, for State- and
                NEI-generated emissions data for use in applicable QAPPs.

         8-2    Expedite completion and approval of the draft QAPP for NEI data.

                                         57
         8-3    To the extent possible, expedite the regulatory process for releasing ozone
                DQOs for use in State air monitoring QAPPs.

         8-4    Inform EPA regions that approved State QAPPs are needed for emissions
                and ozone air monitoring data accumulated or developed by States within
                each region’s boundaries.

         8-5    Promulgate policies and procedures which require regions to obtain State
                PEIs and review the PEIs for quality and compliance with EPA emission
                inventory development guidance.

Agency Comments and OIG Evaluation

         The Agency generally agreed with the recommendations presented in this chapter.
         The Agency’s specific responses to each recommendation presented in this
         chapter and a detailed OIG evaluation are included in Appendix H.




                                         58
                                                                                   Appendix A

                 Details on Scope and Methodology

To assess whether emission reduction controls have been as effective as originally projected in
reducing ozone precursor emissions, we interviewed air program officials at EPA’s OAQPS, five
EPA regions, and the States of Georgia and Wisconsin. Further, we reviewed Agency guidance
regarding planning, implementation, and oversight of programs to reduce ozone precursor
emissions (NOx and VOC) and the following pertinent documentation:

•   EPA Annual Performance Reports for 2000 through 2003.
•   SIPs for Georgia and Wisconsin, including revisions for ozone attainment demonstrations.
•   Emission control assessments, evaluations, and compliance reports for Georgia and
    Wisconsin.
•   SIP revisions involving ROP Plans for 10 nonattainment areas.
•   Emission control development and implementation for ROP Plans for 10 nonattainment
    areas.
•   OAQPS emissions trend analyses for 25 serious to extreme nonattainment areas.

To assess whether EPA and States adequately measured the effectiveness of emission controls in
reducing overall precursor emissions as required by the Act, we interviewed air program officials
at OAQPS, five EPA regions, and the States of Georgia and Wisconsin. We also interviewed
external atmospheric scientists/engineers and modeling experts; reviewed Clean Air Act
requirements in Section 182 and Government Performance and Results Act requirements in
Sections 3 and 4; and researched other documentation related to:

•   Projected and actual measurements of emissions by five EPA regions and two States for
    10 ozone nonattainment areas.
•   PAMS data analyses by States and EPA for ambient concentrations of VOCs and NOx within
    nonattainment areas.
•   EPA Air Quality System and external data on ozone exceedance days, observed ozone levels,
    and ozone trends between 1990 and 2003.
•   EPA Strategic Plans for 2000 and 2003.
•   EPA Annual Plans for 1999 through 2004.
•   Regional Memorandums of Agreement and/or Strategic Plans for EPA Regions 3, 4, and 5.
•   Section 105 air program work plans for Georgia and Wisconsin.

To assess whether emission reduction plans and related controls had been properly completed
and implemented to reduce precursor emissions by 3 percent annually within the 1990 Act’s time
frames, we interviewed officials at OAQPS, six EPA regions, and two States; downloaded and
analyzed emission data from NEI for 25 serious to extreme nonattainment areas; and reviewed
documentation related to:



                                               59
•        ROP Plans for 10 ozone nonattainment areas in five EPA regions.
•        SIP attainment demonstrations for Georgia and Wisconsin.
•        Baseline and periodic emission inventories for 10 nonattainment areas.
•        Emission control evaluations and compliance reports for Georgia and Wisconsin.

To gain an understanding of EPA, State, and local agency responsibilities in planning for and
reducing ozone precursor emissions, we reviewed regulations, guidance, and policies involving
the development and implementation of SIPs, ROP Plans, emission control measures, baseline
emission inventories, periodic emission inventories, and quality assurance for air monitoring and
emission inventory data. We also obtained budget and staffing information for EPA’s ozone
program for fiscal years 2000 through 2003 from OAQPS and the Office of the Chief Financial
Officer.

To identify statutory requirements for EPA and States to classify ozone nonattainment areas;
promulgate SIPs, ROP Plans, and emission controls; and reduce ozone precursor emissions, we
reviewed Sections 110, 171-172, and 181-183 of the Clean Air Act.

Our scope was limited to OAQPS, five EPA Regions (1, 3, 4, 5, and 6), and 10 serious to severe
ozone nonattainment areas within these regions, with the following exceptions: certain
information was obtained from Regions 2 and 9 related to three other nonattainment areas,
analyses of NEI data involved 12 serious or severe ozone nonattainment areas, and air quality
data and related studies for the total 25 serious to extreme nonattainment areas were obtained and
reviewed. Details on the 12 serious to severe ozone nonattainment areas (which includes the
aforementioned 10) are in Table A.1.

                                         Table A.1: 12 Nonattainment Areas Reviewed
                                           EPA                          Current 1-Hour     Total     Population 2000
          Nonattainment Area              Region        State(s)        Classification    Counties     (thousands)
    Atlanta                                   4            GA               Severea         13            3,699
    Baltimore                                 3            MD               Severe           6            2,512
    Boston-Lawrence-Worcester                 1          MA-NH              Serious         12            5,883
    Chicago-Gary-Lake County                  5           IL-IN             Severe          10            8,758
    Dallas-Fort Worth                         6            TX               Serious          4            4,590
    Milwaukee-Racine                          5            WI               Severe           6            1,839
    Portsmouth-Dover-Rochester                1            NH               Serious          2             192
    Providence                                1             RI              Serious          5            1,048
    Sacramento Metro                          9            CA               Severe           6            1,978
                                                                                      b
    San Joaquin Valley                        9            CA              Extreme           8            3,191
    Springfield                               5            MA               Serious          4            815
                                                                                     a
    Washington DC                             3        DC-MD-VA             Severe          16            4,545

     a
         Areas reclassified from serious to severe nonattainment during 2003.
     b
         Area reclassified from severe to extreme nonattainment in April 2004.




                                                                   60
Prior Related Coverage

Government Accountability Office (formerly General Accounting Office)

•   Air Pollution: EPA Could Take Additional Steps to Help Maximize the Benefits from the 2007
    Diesel Emissions Standards, GAO-04-313, March 11, 2004

•   Clean Air Act: Key Stakeholders' Views on Revisions to the New Source Review Program, GAO-04-
    274, February 2, 2004

•   Clean Air Act: New Source Review Revisions Could Affect Utility Enforcement Cases and Public
    Access to Emissions Data, GAO-04-58, October 21, 2003

•   Clean Air Act: EPA Should Use Available Data to Monitor the Effects of Its Revisions to the New
    Source Review Program, GAO-03-947, August 22, 2003

•   Environmental Protection: Federal Planning Requirements for Transportation and Air Quality
    Protection Could Potentially Be More Efficient and Better Linked, GAO-03-581, April 28, 2003

•   Emissions from Older Electricity Generating Units, GAO-02-79, June 2002

•   Meeting Electricity Demands Will Increase Emissions of Some Harmful Substances, GAO-03-49,
    October 2002

•   Environmental Protection: Wider Use of Advance Technologies Can Improve Emissions
    Monitoring, GAO-01-313, June 2001

•   Emission Sources Regulated by Multiple Clean Air Act Provisions, GAO/RCED-00-155, May 2000

•   Status of Implementation and Issues of the Clean Air Act Amendments of 1990, GAO/RCED-00-72,
    April 2000

•   The Border Smog Reduction Act’s Impact on Ozone Levels, GAO/RCED-99-212, July 1999

•   Delays In Motor Vehicle Inspection Program Jeopardize Attainment of Ozone Standard,
    GAO/RCED-98-175, June 1998

•   Air Pollution - Limitations of EPA’s Motor Vehicle Emissions Model and Plans to
    Address Them, GAO/RCED-97-210, September 1997

EPA OIG

•   Consistency and Transparency in Determination of EPA’s Anticipated Ozone Designations, Report
    No. 2002-S-00016, August 15, 2002

•   Clean Air Design Evaluation Results, Report No. 2002-M-000013, April 23, 2002

•   EPA and State Progress In Issuing Title V Permits, Report No. 2002-P-00008, March 29, 2002



                                                 61
•   Consolidated Report on OECA’s Oversight of Regional and State Air Enforcement Programs, Report
    No. E1GAE7-03-0045-8100244, September 25, 1998

•   Consolidated Review of the Air Enforcement and Compliance Assistance Programs, Report No.
    E1GAE5-05-0169-7100306, September 30, 1997

•   EPA’s Air State Implementation Plan Program Consolidated Report, Report No. E1KAE6-05-0044-
    6400100, September 30, 1996

•   Emission Factor Development, Report No. E1KAF6-24-0008-6100318, September 30, 1996




                                               62
                                                                                                                          Appendix B

                        Timeline of Clean Air Act Requirements

                                                   Illustration B.1:
  Clean Air Act Timeline for ROP and Emission Inventory Submittals and Emission Reduction Milestones Through 2003

11/1990    11/1992   11/1993      11/1994      09/1995   11/1996     02/1997    09/1998    11/1999   02/2000      09/2001   11/2002   02/2003

CAAA

            BEI

              15% ROP

                               9% ROPs

                                            1993 PEI

                                         15% ROP Milestone

                                                              15% MCD

                                                                           1996 PEI

                                                                   Additional 9% ROP Milestone

                                                                                                 9% MCD

                                                                                                               1999 PEI

                                                                                                     Additional 9% ROP Milestone

                                                                                                                                   9% MCD

CAAA = Clean Air Act Amendments
BEI = Baseline Emissions Inventory
MCD = Milestone Compliance Demonstration
Milestone = Date percent emissions reduction should be achieved.
PEI = Periodic Emissions Inventory
ROP = Rate of Progress Plan




                                                                      63
                                                                                              Appendix C

                Details on EPA Analyses of
       Meteorologically Adjusted Ozone Observations

In 2003, OAQPS developed and analyzed 1990 through 2002 meteorologically adjusted ambient
8-hour ozone observations for 53 metropolitan areas, which included 19 serious, severe, and
extreme ozone nonattainment areas. OAQPS used a method developed by OAQPS experts17 to
statistically adjust raw ambient ozone observations to exclude the effects of variations in weather
patterns on ambient ozone levels.

As noted in Chapter 2, our analysis of the meteorologically adjusted ozone levels and charts
developed by OAQPS for the 19 nonattainment areas indicated that, once weather had been
excluded as a factor in ozone formation, 12 areas had achieved little or no improvements in
ozone levels over the 13-year period.

This OAQPS study included only a summary of the methodology used and charts for each of the
53 metropolitan areas showing meteorologically adjusted trends in ozone from 1990 through
2002. There was no written analysis for each of the 53 areas. OAQPS’s general summary of the
analysis stated, in part, the following:

        Generally, annual variations in unadjusted ozone are quite large compared with
        annual ozone variations after adjustment [for weather conditions]. For [example]
        Baltimore, most of the apparent upturn in ozone between 2000 and 2002 is related to
        more favorable meteorological conditions in 2000 and 2001 compared with 2002.

Charts produced by OAQPS staff for the Baltimore nonattainment area follow. The raw ambient
ozone observations show a significant drop in ozone levels for the 2000-2001 period. However,
the meteorologically adjusted chart does not indicate a significant decrease in ozone for the same
period, indicating that the drop in ozone levels was weather related.




        17
          “Assessment of Interannual Ozone Variation in Urban Areas From A Climatological Perspective,”
Atmospheric Environment, Volume 30, No. 14, pp 2615-2625, 1996, William Cox and Shao-Hang Chu, EPA.

                                                     64
Illustration C.1:




       65
                                                                                  Appendix D

     Details on State Delays in Submitting ROP Plans

Submission and Approval of 15-Percent ROP Plans

The 10 serious and severe nonattainment areas in our review involved 14 ROP Plans that
required a 15-percent reduction in VOCs (net of growth) by November 15, 1996. Of these
14 ROP Plans, 5 were submitted to EPA by the required date of November 15, 1993, and 9 were
submitted approximately 2 months to almost 2 years late. Only 1 of the 14 plans received EPA
final approval prior to the milestone date of November 15, 1996. For the other 13 ROP Plans, 11
received final approval from 8 months to 6 years after the milestone date, and two have not yet
received final approval.

None of the 15-percent ROP Plans were approved or disapproved within 18 months of
submission. Elapsed time between initial State submission and EPA final approval ranged from
2 to 11 or more years. Nine plans received conditional approvals, but only 1 was approved or
disapproved within 1 year after the conditional approval, as required by the Act. Two ROP Plans
received both “interim” and “final” conditional approvals, but such “conditional” approvals are
not mentioned in the Act.

Table D.1 shows the date that States initially submitted the 15-percent ROP Plans to EPA and the
dates that these plans received final EPA approval. The table also shows the number of State
revisions required for each and the approximate time taken by States to make these revisions.




                                              66
                                                      Table D.1: 15-Percent ROP Plans
                                                                                                                Elapsed        Final
                                   15% ROP                                                                       Time        Approval
                                   Submittal     Originally No.          Interval                              Submittal       After
        Nonattainment               Due Per      Submitted  of          Between       Conditional    Final         to       Milestone
            Area                     CAA          by State Rev.         Revisions     Approvals     Approval     Final      11/15/1996

Atlanta                            11/15/93       11/15/93     2        1-3 years      09/12/97      Nonea     11+ years     7+ years
                                                                                       04/26/99

Baltimore                          11/15/93      07/12/95      2        1-2 years      10/09/97b    02/03/00   4.5 years     4 years
                                                                                       10/07/98

Boston-Lawrence-Worcester          11/15/93
  -Massachusetts                                 11/15/93c     5        1-5 yearsd     07/14/97     08/28/02   8.75 years    6 years
  -New Hampshire                                 02/03/94      2        1-2 years         NA        12/07/98     5 years     2 years

Chicago-Gary-Lake County           11/15/93
  -Illinois                                       11/15/93     6        1-1.5 years       NA        12/18/97    5 years      1 year
  -Indiana                                        01/13/94     2        1.5- years        NA        07/18/97   3.5 years    8 months

Dallas-Fort Worth                  11/15/93       05/09/94     4        1-3 years      11/10/98      Nonee     4.3 years     7+ years

Washington, DC Area                11/15/93
  -Maryland                                       07/12/95     2        2-3 years      09/23/97     07/19/00     5 years     4 years
  -District of Columbia                           05/15/95     2         1 year        07/07/98     08/05/99   4.25 years    3 years
  -Virginia                                       05/15/95     2        1-2 years      06/24/97     10/06/00    5.5 years    4 years

Milwaukee-Racine                   11/15/93       11/15/93     1        1-2 years         NA        03/26/96   2.75 years     None

Portsmouth-Dover-Rochester         11/15/93       02/03/94     2        1-2 years         NA        12/07/98   4.75 years    2 years

Providenceg                        11/15/93       03/15/94     1         4 years       04/17/97f    12/08/98   4.75 years    2 years

Springfield                        11/15/93       11/15/93     6        1-3 years         NA        08/28/02   8.75 years    6 years
a
    Region 4 issued a “final conditional interim approval” for Atlanta 15-percent ROP Plan on April 26, 1999 in 64 FR 20186. Region 4
    did not issue a “final” approval after conditions were met for 15-percent ROP Plan.
b
    07/12/95 submittal did not include sufficient emission reductions to meet 15-percent requirement and account for growth for 1990-1996
    period. Also, I&M program only conditionally approved. Federal Register Volume 65, page 6246, dated 02/03/2000, listed four problems
    that Baltimore must rectify, as stated in 10/09/97 conditional approval.
c
    EPA ruled that the 11/15/93 ROP Plan was incomplete.
d
    Processing of ROP Plan was suspended in 1999 due to air quality meeting 1-hour standard for period 1996-1998. However, area
    subsequently violated standard again for period 1999-2001. ROP Plan processing initiated again in 2002.
e
    EPA proposed approval of 15-percent and post-1996 9% ROP Plans on 01/18/2001; however, final approval has not been issued.
f
    The 04/17/97 rule was a limited approval/limited disapproval rather than a conditional approval. See 62 Federal Register 18712, 04/17/97.
g
    Rhode Island Department of Environmental Management stated that the State did not publish 1996 and 1999 periodic inventories. The
    emissions data in the State systems at the time was electronically submitted to Air Quality System/NEI but no documentation was
    retained.




    Delayed approval of 15-percent ROP Plans can be attributed to many factors, including the
    number of revisions made by States, the extensive time taken by States to revise the plans, and
    the time taken by EPA to review and approve the plans once received. As can be seen in the
    Table D-1, 15-percent ROP Plans were revised or modified as many as six times prior to final
    approval. States took from less than 1 year to as many as 5 years to submit revisions to the plans.
    Another problem stemming from major statutory and EPA policy guidance changes in the mid-
    1990s is that States were allowed to claim up to 100 percent of projected emission reductions for
    decentralized I&M programs. Prior to these changes, EPA had allowed States credit for only
    50 percent of projected emission reductions from decentralized I&M systems. State revisions to
    their programs based on the new guidance delayed conditional and/or final approval of
    15-percent ROP Plans. At least one region indicated that it did not pressure a particular State

                                                                   67
with a centralized I&M program to submit its revised ROP Plan because the other States with
decentralized programs were still in the process of revising their ROP Plans based on the new
guidance. Also, many States failed to implement their I&M programs, further delaying ROP
Plan approval.

According to ambient ozone monitoring data, 4 of 10 nonattainment areas met the 1-hour
standard in 1998 through 2000, but the areas subsequently violated the standard again.
Processing of all ROP Plans, including the 15-percent and 9-percent plans that had not been
approved by 1998 and 1999, was suspended once the areas attained the standard, but ROP Plan
development was reinitiated once an area again violated the standard. Suspension of ROP Plan
processing contributed to significant delays in finalizing the 15-percent and 9-percent ROP Plans
for these four areas. Suspension of ROP development for these areas is discussed in more detail
below.

Submission and Approval of 9-Percent ROP Plans

The 14 post-1996 (9-percent) ROP Plans reviewed required that each nonattainment area achieve
a 9-percent reduction, net of growth, in either VOC and/or NOx emissions by November 15,
1999. These ROP Plans were to be submitted to EPA by November 15, 1994. Only three were
submitted on time, and only one received final EPA approval prior to November 15, 1999. Two
post-1996 ROP Plan have not yet received final approval from EPA and the remaining 12 were
not granted final approval until 2 months to 3.5 years after the deadline. EPA issued a policy
memorandum in March 1995, Ozone Attainment Demonstrations, that extended the date to mid-
1997 for serious and above nonattainment areas to submit their first post-1996 ROP Plan. EPA
issued the memorandum because States were having difficulty in developing timely and
acceptable emission inventories, ROP Plans, and attainment demonstrations within the time
frames provided in the Act.

Table D.2 shows the submission, number of revisions, and final approval dates of State’s post-
1996 ROP Plans for 10 serious or severe nonattainment areas.

As with the 15-percent ROP Plans, the 9-percent plans were subject to several revisions and
extensive time intervals for revision, review, and approval. None of the 9-percent plans received
EPA approval or disapproval within 18 months as required by the Act. The elapsed time
between ROP Plan submittal and EPA final approval ranged from 2 to 7 or more years. Only the
Washington area post-1996 ROP Plans received conditional approvals.

States also had problems developing the Act’s required ozone attainment demonstrations, which
delayed final approval for many ROP Plans. In most cases, the post-1996 plans were contingent
upon emission reductions from enhanced vehicle I&M programs, and several States were late in
implementing the enhanced programs (Georgia, Massachusetts, and Texas).




                                               68
                                                   Table D.2: Post-1996 (9%) ROP Plans
                                                                                                                                    Final
                                   9% ROP                             Interval                                     Elapsed        Approval
                                  Submittal    Originally   No.       Between                                       Time            After
          Nonattainment            Due Per     Submitted     of      Revisions/    Conditional      Final         Submittal      Milestone
              Area                  CAA         by State    Rev.        Final      Approvals       Approval        to Final      11/15/1999

Atlanta                            11/15/04     11/15/03      2       2-3 years         NA         03/18/99       5.5 years          NA

Baltimore                          11/15/94     12/24/97      2      1-3 years          NA         09/26/01       3.75 years       2 years
                                                04/24/98

Boston-Lawrence-Worcester          11/15/94
  -Massachusetts                                11/15/94      6       5 years           NA         08/28/02d      7.75 years       3 years
  -New Hampshire                                09/27/96      1       6 years           NA         04/16/02d       5.5 years      2.5 years

Chicago-Gary-Lake County           11/15/94
  -Illinois                                     12/18/97      3      >1 yeara           NA         12/18/00        3 years         1 year
  -Indiana                                      12/17/97      1    2 mo.-2 years        NA         01/26/00        2 years        2 months

Dallas-Fort Worth                  11/15/94     03/19/99      2      >1-1 year          NA           Noneb        7+ years        5+ years

Washington, DC Area                11/15/94
  -Maryland                                     12/24/97      1      1-1.5 years     09/28/00      01/03/01        3 years          1 year
  -District of Columbia                         11/03/97      1                      10/19/00      04/17/03c       3 years        3.5 yearsc
  -Virginia                                     12/19/97      1                      10/19/00                      3 years
                                                                                     02/03/03c

Milwaukee-Racine                   11/15/94     12/11/97      4    1 mo.-2 years        NA         10/10/01        4 years         2 years

Portsmouth-Dover-Rochester         11/15/94     09/27/96      1       6 years           NA         04/16/02       5.5 years       2.5 years

Providence                         11/15/94     11/15/94      0       3 years           NA         06/08/01        3 years        1.5 years

Springfield                        11/15/94     11/15/94      6      >1-2 years         NA         08/28/02       7.75 years       3 years
a
    Illinois amendments to post-1996 plan were submitted 12/17/99, 01/14/00, and 01/21/00. All amendments were after emission reductions were
    to be achieved, 11/15/99.
b
    EPA proposed approval of 15-percent and post-1996 9-percent ROP Plans on 01/18/2001; however, final approval has not been issued.
c
    Federal court vacated the post-1996 (1999) ROP Plan approved 01/03/01; however, none of the emission targets, reduction credits, or
    calculations were changed when ROP Plan was reapproved on 04/17/03. The 02/03/03 conditional approval is contained in Federal Register
    Vol. 68, page 5246, dated 02/03/03.
d
    Processing of ROP Plan was suspended in 1999 due to air quality meeting 1-hour standard for period 1996-1998. However, area subsequently
    violated standard again for period 1999-2001. ROP processing initiated again in 2002.




          Impact of Clean Data Policy on ROP Plans

          Region 1 had four nonattainment areas that achieved attainment of the 1-hour in 1998 through
          2000, based on air monitoring data, but later violated the standard again in 2001 or 2002. The
          processing of the post-1996 ROP Plans were suspended once the area air monitoring data for the
          previous 3-years showed attainment of the 1-hour standard. The processing was not reinitiated
          until the areas again violated the 1-hour standard. As a result, ROP Plan development and
          approvals for these areas were delayed.




                                                                    69
Region 1 indicated that a May 1995 EPA policy,18 referred to as the “Clean Data Policy,”
provided that certain SIP requirements could be suspended once air monitoring data indicate
attainment, i.e., 3 years with a total of three or less 1-hour exceedances. However, Section
107(d)(1)D, E of the Act indicates that SIP requirements are to remain in effect until an area is
officially redesignated as being in attainment based on permanent enforceable emission
reductions and an approved a maintenance plan that will ensure continued attainment. However,
the 1-hour attainment for these areas was partially due to changes in meteorological conditions,
not permanent and enforceable emission reductions.

In these cases, Region 1 suspended processing and implementation of ROP Plans based only on
ambient monitoring data that showed that these areas had experienced three or less violations in
the prior 3-year period. In addition to ambient ozone monitoring data, new methodologies and
data currently exist that allow EPA regions to better assess the permanence of attainment. For
example, EPA has PAMS data, collected since the mid-1990s, that permits trend analysis of
ambient VOC and NOx concentrations over time. Such a trend analysis of monitoring system
data could be used to determine whether ambient precursor concentrations of NOx and VOCs
have been sufficiently reduced to assure attainment despite changes in weather. Similarly, before
suspending ROP Plan requirements, EPA could determine whether upwind contributing sources
have been sufficiently controlled to allow attainment, and require a meteorologically adjusted
ozone trend analysis for nonattainment areas that attain based on ambient ozone monitoring data
to better assure the permanence of such attainments.




        18
             Policy referred to as “Clean Data Policy” was issued on May 10, 1995, in memorandum from OAQPS
Director to regional air program directors, titled “Reasonable Further Progress, Attainment Demonstration, and
Related Requirements for Ozone Nonattainment Areas Meeting the Ozone National Ambient Air Quality Standard.”

                                                      70
                                                                                   Appendix E

   Growth Factors Used In Projecting ROP Emissions
                   for Atlanta Area

For the Atlanta area, which is just one example of an area that did not reflect historical growth
rates, substantial differences existed between VOC and NOx target levels and the relevant PEIs.
The differences for VOCs and NOx emissions, ranged from 104.11 tons per day in VOCs for the
15-percent ROP Plan to 175.06 tons per day in NOx for the post-1996 ROP Plan. These
differences represented 23.4 to 39.8 percent understatements of the respective emission target
levels. More importantly, the understatements indicate that required VOC and NOx emission
reductions could be deficient as much as 104 and 175 tons per day, respectively. This potential
deficit in emission reductions is significant considering that the 15-percent ROP Plan only
contained emission control measures projected to reduce VOC emissions by 117 tons per day and
the post-1996 ROP Plan contained only 50.10 tons per day in NOx reductions.

Officials with Georgia’s Air Protection Division indicated that the State may have used a growth
rate as low as 1 to 2 percent in projecting milestone year emissions for the 15-percent and post-
1996 ROP Plans. The State officials further indicated that they no longer possessed
documentation of the actual growth rates/factors used or how these rates/factors were
determined. The officials admitted that the 1- to 2-percent growth factors may have been too
low, resulting in the significant differences between target levels and PEI emissions data.

Information obtained from the Atlanta Regional Planning Commission indicated that a growth
rate of 1 or 2 percent for the Atlanta metropolitan area would be substantially below the actual
population and employment growth rates prior to and after the 15-percent and post-1996 ROP
Plan milestone dates. Population growth in the Atlanta metropolitan area for the period 1980
through 1990 averaged about 3 percent per year. From 1990 to 1995 and 1995 to 2000, the
population grew at 2.4 and 2.8 percent annual rates, respectively. Atlanta area employment
between 1980 through 1990 expanded at a rate of over 4.5 percent with the employment rate
declining slightly to between 2.8 and 4 percent between 1990 and 1997 and increasing again to
between 3.7 and 4.3 percent between 1997 and 1999. Based on this information, the State’s use
of a 1- or 2-percent growth rate in projecting 1996 and 1999 precursor emissions is questionable.

The Atlanta Regional Planning Commission also commented on EPA’s proposed approval of the
Atlanta post-1996 ROP Plan and stated that Georgia was using outdated vehicle miles traveled
estimates in the ROP projections and calculations related to Atlanta area emissions. Federal
Register Volume 64, page 13340, dated March 18, 1999, stated the following:

    Comment: The Atlanta Regional Commission (ARC) submitted a letter on September 9,
    1998, providing comment on the 9 percent plan. The comment concerned the use of
    vehicle miles traveled (VMT) estimates. ARC updated the VMT estimates in 1996. The
    9 percent plan used the VMT estimates previously provided to the Georgia
    Environmental Protection Division (GAEPD) by ARC rather than the 1996 updated

                                               71
    VMT estimates. ARC recalculated the transportation emissions budget using the
    updated VMT and requested in the September 9, 1998, letter that this higher emissions
    budget be used as the applicable transportation conformity budget.

EPA acknowledged that the vehicle miles traveled estimates used by Georgia were not current
but stated that the region would address this problem in the region’s action on the Atlanta
attainment demonstration, which will occur in a future Federal Register notice.




                                              72
                                                                                               Appendix F

    Outside NOx Reductions Claimed in Post-1996
 Chicago-Gary-Lake County Nonattainment Area ROP
In the post-1996 ROP Plan for the Illinois portion of the Chicago-Gary-Lake County
nonattainment area, Illinois claimed NOx emissions reductions of 40 to 60 percent, or 221.92
tons per day, between 1990 and 1999 at nine power plants outside of the Chicago and East St.
Louis nonattainment areas. The State used the 1990 Illinois Attainment Area NOx emissions
(NOx emissions outside of Chicago and East St. Louis nonattainment areas) as the ROP baseline
for computing required NOx reductions in the post-1996 ROP Plan. The post-1996 ROP Plan
was required to include a 9-percent reduction in baseline VOCs or NOx emissions for the
Chicago area. These emission reductions from outside the nonattainment area represented almost
7 percent of the total 9 percent in required reductions. The other 2 percent came primarily from
projected VOC reductions within the Chicago nonattainment area.

In response to our request for technical support for the Acid Rain NOx reductions claimed in the
post-1996 ROP Plan, Region 5 provided NOx reduction percentages for five of the power plants
as shown in an EPA 1998 Acid Rain compliance report.19 Region 5 indicated that they did not
possess any information on the NOx reductions for the remaining plants. The Region’s response
did not mention Hennepin Units 1-2, which were listed in the post-1996 ROP Plan and the 1998
Acid Rain compliance report. The Acid Rain report showed only an 8-percent decrease in NOx
emissions for Hennepin Units 1-2 between 1990 and 1998. Also, post-1996 ROP NOx emission
reductions were claimed through 1999. In addition, this compliance report only reflects the Acid
Rain Phase I reductions through 1998. However, the post-1996 ROP Plan also included
reductions from early implementation of Phase II controls. Furthermore, the 1998 compliance
report only included 1990 and 1998 NOx emission rates and percent reductions. There was no
conversion of these rates to show daily NOx emission reductions for comparison to the State
reductions claimed in the post-1996 ROP Plan.

Our analysis of 1990 through 1999 NEI data for the nine power plants indicated that annual NOx
reductions were only reduced 12.5 percent between 1990 and 1999. These data do not support
the State’s claim of 40 to 60 percent in daily NOx reductions. NEI data20 indicated that one plant
actually increased NOx emissions by 74.4 percent, or 16,497 tons per year, between 1990 and
1999, while the State claimed a reduction of 14.3 tons per day for the same period.
A comparison between 1990 and 1999 NOx emissions for these plants, per the NEI, is shown in




        19
            1998 Compliance Report Acid Rain Program (EPA-430-R-99-010, Office of Air and Radiation, Acid
Rain Division), dated July 1999.

        20
           NEI NOx data for power plants is generally based on Continuous Emissions Monitor Systems, which is
the best emission monitoring technology currently available.

                                                      73
Table F.1. (Note: Baldwin units 1-3 were listed separately in the post-1996 ROP Plan for a total
of nine plants. However, the NEI does not separate these units.)

                                Table F.1: NEI NOx Data for Illinois Power Plants
        Power Company -           1990 NOx Emissions          1999 NOx          1990-1999        Percent
         Emission Units                  (tpy)a             Emissions (tpy)     Reductions      Reduction
        Dominion Energy -
          Kincaid 1-2b                  39,477.82              27,118.68            12,359.14     31.3
            Electric Energy -
            Joppa Steam 1-6             20,869.82              8,446.82              12,423       59.5
                Cilco -
              Edwards 2-3               18,003.38              10,193.49            7,809.89      43.4
             Illinois Power -
               Baldwin 1-3              57,159.77              55,026.84            2,132.93       3.7
      Commonwealth Edison -
         Powerton 5-6                   22,176.91              38,674.09        -16,497.18 *      -74.4b
             Illinois Power -
              Vermillion 1-2            3,367.42               1,962.23             1,405.19      41.7
             Illinois Power -
              Hennepin 1-2              4077.39                3032.04              1045.35       25.6

                     Totals            161,132.51             144,454.15            20,678.32     12.5
        a
            tpy = tons per year
        b
            Negative numbers represent increased NOx emissions.


Assuming constant demand on these units throughout the year, the total 20,678.32 tons per year
reduction would equate to only 56.65 tons per day. The State post-1996 ROP Plan claimed a
NOx reduction of 221.97 tons per day between 1990 and 1999 for these same power plants. NEI
data also indicated:

•   only a 0.27 percent decrease in total NOx emissions and a 3.83 percent reduction in NOx
    emissions for all electric utilities in the Illinois Attainment Area (counties outside of Chicago
    and East St. Louis nonattainment areas) between 1990 and 1999.
•   3 percent increase for total NOx emissions Statewide between 1990 and 1999.
•   1.57 percent increase between 1990 and 1999 in power plant NOx emissions within the
    Illinois portion of the Chicago-Gary-Lake County nonattainment area.

According to the 1990 baseline and 1999 periodic emission inventories, there was an increase of
14 tons per day in total NOx emissions for the Illinois portion of the Chicago-Gary-Lake County
nonattainment area.

Illinois had received an EPA waiver for NOx reductions within its portion of the Chicago-Gary-
Lake County nonattainment area on the premise that a reduction in these emissions may increase
ozone levels even though these emissions potentially impacted ozone levels in Chicago and all
downwind nonattainment areas such as the Milwaukee-Racine severe nonattainment area.
Illinois had not implemented any controls on nonattainment area NOx sources until the NOx SIP
Call reductions became effective in 2004. An OAQPS official stated that many of these waivers
were granted based on questionable justifications.


                                                       74
                                                                                   Appendix G

       Examples on Use of Outside Emission Credits

Post-1996 ROP Plans for two of the three nonattainment areas claiming outside emission
reductions included only the baseline emissions for the selected sources when calculating
required emission reductions. However, the post-1996 ROP Plan for the third nonattainment
area did include the entire emissions baseline for the outside area where emission reductions
were claimed.

The Illinois post-1996 ROP Plan for the Chicago-Gary-Lake County severe nonattainment area
included NOx reductions based on Tier I vehicle emission rules, Federal non-road engine
standards, and the Federal Acid Rain program that occurred outside the nonattainment area. In
calculating the required NOx reductions for the ROP, Illinois used the entire NOx baseline for all
counties outside of the Illinois ozone nonattainment areas.

Wisconsin, in the post-1996 ROP Plan, claimed emission reduction credit of about 6.5 tons per
day for certain VOC sources outside of the Milwaukee-Racine nonattainment area. These
reductions were based on prior Statewide VOC rules. The State determined that VOC emissions
from 14 counties outside of the Milwaukee-Racine nonattainment area affected the
nonattainment area’s ability to achieve the 1-hour ozone standard. For the 14-county area, the
State included in ROP calculations of required VOC reductions only the 1990 baseline VOC
emissions (28.53 tons per day) for autobody refinishing, degreasing, and organic solvent use.
The use of baseline emissions only for these specific sources assumes that other VOC sources
within the 14-county area did not increase emissions and offset or exceed any reductions by the
selected sources. If the State had selected these same VOC control measures within the
nonattainment area, the State would have had to calculate emission reductions and project
emissions growth – per Clean Air Act statutes – against the entire anthropogenic VOC baseline
for the Milwaukee-Racine nonattainment area (362 tons per day). According to the NEI, the
1990 total VOC anthropogenic emissions for the 14-county area were 119,286 tons per year, or
an estimated 326.8 tons per day. However, the State included only 28.53 tons per day of these
emissions in the ROP baseline. Most of the VOC reductions projected in the Milwaukee-Racine
post-1996 ROP Plan resulted from controls within the nonattainment area. Therefore, to ensure
VOC reductions, net of growth, for the entire area in which VOC reductions were claimed, the
ROP baseline should have combined VOC baseline emissions for the 6-county Milwaukee-
Racine nonattainment area and the 14-county outside area.

The New Hampshire portion of the post-1996 ROP Plan for the Boston-Lawrence-Worcester
severe nonattainment area included Acid Rain NOx reductions for a specific power plant located
outside New Hampshire’s portion of the nonattainment area. According to the NEI, Merrimack
County, New Hampshire, in which the power plant is located, had total 1990 NOx emissions of
29,338.43 tons per year, or an estimated 80.4 tons per day. The State included only the power
plant’s 1990 baseline NOx emissions of 26.3 tons per day in the ROP total NOx baseline of
59.7 tons per day. This NOx baseline was used to calculate required NOx reductions and project
growth in NOx emissions for New Hampshire’s portion of the Boston-Lawrence-Worcester area.
However, limiting the outside NOx baseline to the power plant emissions assumes that other
                                               75
NOx sources in the surrounding outside area would not grow and/or offset the power plant
reductions. The post-1996 ROP Plan also included NOx reductions from Reasonably Available
Control Technology controls within the nonattainment area. Therefore, to assure NOx
reductions, net of growth, for the entire area in which emission reductions were claimed, the
ROP baseline should have been the combined NOx baseline for New Hampshire’s portion of the
nonattainment area and Merrimack County.




                                             76
                                                                                      Appendix H

                     Agency Response to Draft Report
                           and OIG Evaluation
    Note: The OIG’s evaluation of the Agency’s response appears in italics, in a box, after each
    comment.



MEMORANDUM

SUBJECT: OIG Draft Evaluation Report
         EPA and States Not Making Sufficient Progress in Reducing Ozone
         Precursor Emissions in Some Major Metropolitan Areas
         Assignment No. 2003-0000499

FROM:          Jeffrey R. Holmstead
               Assistant Administrator for Air and Radiation

TO:            J. Rick Beusse, Director for Program Evaluation
               Air Quality Issues, OIG

       Thank you for the opportunity to comment on the draft report concerning
progress in reducing ozone precursor emissions in some major metropolitan areas.
The report reflects a significant effort from your staff and provides insightful
recommendations for our consideration. Attached is our response addressing the
report and recommendations. Our response also reflects input from the EPA Office of
General Counsel and several Regional Offices.

       In general, some of the recommendations concerning the draft rule for milestone
compliance demonstrations seem reasonable and we will investigate how they can be
implemented. Other of the recommendations are good in theory, but practical
considerations constrain us from implementing them. Highlights of our comments
include:

•         Resource constraints are a major consideration. The Office of Air and Radiation
          (OAR) has many statutorily required programs and resources to support those
          programs has remained stagnant for years. We must prioritize our efforts,
          putting our resources where we think we can get the most good for dollar spent.
          For several years now, our ozone program has focused on implementing the
          more health-protective 8-hour ozone standard rather than the 1-hour standard
          that is due to be revoked under regulation on June 15, 2005. Rather than
          spending resources looking back, we have chosen to focus on moving forward
          and developing programs and guidance that will assist states in getting the
          reductions necessary to meet the new standard. We believe public health will be
          served by this choice.




                                                  77
    OIG Evaluation: We agree that EPA should focus its resources on the current and future
    implementation of the 8-hour standard. Where possible we have focused the recommendations
    to future implementation actions that should help EPA and the States attain the 8-hour
    standard in a timely manner. However, we continue to believe that EPA needs to look closely
    at past implementation of the 1-hour standard to see what was accomplished and what was
    not accomplished, which controls worked as expected and which did not, and which aspects of
    their ozone strategy need improvement in order to implement the 8-hour standard more
    effectively than occurred under the 1-hour standard. As noted in our report, delays in
    implementation of 1-hour emission controls and related inadequate emission reductions have
    prolonged the exposure of millions of people to unhealthy ozone levels. In addition, if many
    nonattainment areas could not meet the 1-hour standard, attainment of the 8-hour standard
    will be even more complex and difficult for these areas. EPA needs to learn from the past how
    to better address these current and future challenges in reducing ozone precursor emissions.


•         OAR has already required large reductions in nitrogen oxides (NOx), a major precursor to
          ozone, through the NOx SIP call, heavy-duty diesel rule, the Tier II tailpipe rule and off-
          road engines. These reductions, some which have just come into play this year, go a long
          way toward meeting the Clean Air Act (CAA) goal of emission reductions contemplated
          through the rate-of-progress plans (ROP). We anticipate further reductions under the
          proposed Clean Air Interstate (CAIR) rule.

    OIG Evaluation: We recognize that EPA has implemented many national and regional
    controls that should significantly impact NOx emissions in the future. These controls should
    further reduce ambient ozone levels. However, these controls were not timely designed and/or
    implemented to meet emission reduction mandates of the Act. As a result, the effects of
    unhealthy ozone levels on public health have been substantially prolonged past the 1990 Act’s
    milestones for the 1-hour ozone standard. Additionally, as indicated in our report, the
    effectiveness of these national and regional controls should still be measured in precursor
    emissions reductions at the local level, especially in those major metropolitan areas that have
    struggled to meet the 1-hour standard.



•         The report expresses concern that the policy allowing States to claim ROP emission
          reductions for sources outside the nonattainment area allows for potential double-
          counting of emission reductions and does not ensure that emission reductions do more
          than just offset emissions growth. The 1997 Ozone Transport Assessment Group
          analyses indicated reductions in NOx from upwind sources does, in fact, reduce ozone
          levels in downwind communities. This study was the basis for EPA’s NOx SIP call and
          is more a co-benefit than a double-counting.




                                                  78
 OIG Evaluation: In some cases, emission reductions by sources outside nonattainment areas
 could benefit more than one nonattainment area. However, modeling would be required to
 demonstrate that the outside sources actually impacted multiple areas and to what extent each
 area benefitted from these reductions. In our view, the credit given in ROPs should be limited
 to the extent of benefit received by each nonattainment area. The current policy does not
 provide for or require modeling to demonstrate outside emission sources’ impact on
 individual nonattainment areas and does not limit credit for such emission reductions to the
 actual benefit received by individual nonattainment areas from such reductions. Under the
 policy, nonattainment areas are generally allowed credit for all emission reductions achieved
 by outside sources within specified distances outside the nonattainment area boundaries
 without any demonstration of the actual impact of these specific emissions on the area’s
 nonattainment of the ozone standard. We believe that any “double counting” or “co-benefit”
 of outside emission reductions by multiple nonattainment areas should be limited to the extent
 of benefit received by each area based on appropriate atmospheric modeling.



If you have any questions about this response, please contact Gail Whitfield at 919-541-1451.

Attachment

cc:    John Price, Office of Inspector General
       Steve Page, Director, Office of Air Quality Planning and Standards, OAR
       Lydia Wegman, Director, Air Quality Strategies and Standards Division, OAQPS
       Peter Tsirgotis, Director, Emissions, Monitoring, and Analysis Division, OAQPS
       Kay Holt, Director, Planning, Resources, and Regional Management Staff, OAQPS
       Kevin McLean, Office of General Counsel
       Pete Cosier, OAR Audit Coordinator
       Yvonne W. Johnson, OAQPS Audit Coordinator




                                               79
                  Detailed Comments on August 16, 2004 Draft OIG Report

Suggested changes:

On page 3, in title of Table 1:2: after the word “Nonattainment” insert for “1-hour ozone
NAAQS”. In the footnote, change “designated” to “re-designated”.

Also on page 3, “Twenty-one of the 25 . . . to a lower nonattainment “classification” rather than
“designation”.

 OIG Evaluation: The final report reflects the changes requested above.



To the last paragraph on page 3, add “These designations because [ sic, became] effective for 113
of the 126 areas on June 15, 2004. The remaining 13 (“Early Action Compact” or “EAC”) areas
received deferred effective dates for their designations. Furthermore, one of the original 113
areas subsequently received a deferred effective date.”

 OIG Evaluation: We agree with the effective dates for 8-hour designations shown above.
 However, we did not add this information as requested because the information did not
 directly relate to or provide clarification for any of the issues addressed in the report.



On page 6, the report presents the 3% requirement in a way that implies that it is a 3% annual
requirement. Actually, it is 3% per year as averaged over a 3 year period.

 OIG Evaluation: We modified the report to clarify that the 3-percent per year emission
 reduction requirement pertained to the average annual reduction required over each 3-year
 period.



On page 33, an OGC attorney was quoted as defining their job “as attorney advisors is to find
language gaps and ambiguities in statutes that allow EPA flexibility in promulgating policy
guidance.” OGC attorneys are responsible for advising program offices on the legalities of
various issues and providing their opinion on whether the policy or guidance in question would
be successfully if challenged in court. That is a more accurate statement of their role. OAR
rules, policies and guidance are frequently challenged, both by industry and by environmentalists.
When establishing policies that affect large sectors of the population, it is critical to review the
legal angles. We would request that the two sentences in the middle of the page beginning
“However, according . . . score given to the policy” be stricken from the report and the above
italicized sentence be substituted.




                                                80
 OIG Evaluation: The draft report reflects the actual statements made to the OIG by an EPA
 attorney who was involved in reviewing the outside emission credit policy. This statement was
 provided to allow the reader to understand Office of General Counsel’s role in the questioned
 policy, and was not central to our finding that the legal basis of the policy was unclear; thus
 we made the changes in the final report as requested by the Agency. The OIG will refer to the
 Agency response as the source of the statement in the final report.


On use of data from EPA’s National Emissions Inventory (NEI) database to prove or disprove
whether an area reduced its emissions by the required amount: OIG’s analysis produces dubious
results for several reasons. First, the Act requires that States demonstrate reductions on a tons
per summer day (TPSD) basis; using the NEI only allows for one to analyze reductions using
annual emissions data. This is a significant difference. Additionally, EPA’s NEI database
simply doesn’t have the same quality of data as State-prepared inventories. Second, the draft
report points out that a major failing of the NEI is its lack of documentation of methods used by
the States to prepare the emission estimates. However, we would like to point out that each
State’s hard-copy inventory includes methods as part of the report, making them available for
assessment with the inventory. Third, the draft report finds that using periodic emission
inventories (PEIs) to compare back to baseline numbers is problematic: “. . . Our interviews with
OAQPS, regional, and State officials disclosed that, due to changes in models, methodologies,
and emissions factors over the years, a reliable comparison between baseline and periodic
emission inventories could not be conducted unless both inventories were updated.”

Although EPA has updated past inventory estimates to make them consistent with current
estimates in various ways, such as updating past inventory year on-road emission estimates with
estimates produced by the most current version of the Mobile model, such efforts still do not
produce emission estimates that match SIP emission inventory estimates for all years, and again,
represent annual, not daily emission values.




                                               81
 OIG Evaluation: As stated in our report, the Act requires that States demonstrate that
 precursor emissions have been reduced an average of 3 percent annually “net of growth” for
 each 3-year period subsequent to the enactment of the 1990 Act. The Act does not require
 that States demonstrate attainment of emission reductions in “tons per summer day.” Also,
 EPA adjusts the NEI every 3 years based on State emissions data that is expressed in tons per
 day or tons per summer day to a tons per year expression.

 EPA has indicated that the NEI is the highest quality emissions data maintained by the Agency
 and has used this data for regulatory planning and support; national, regional, and State
 emission trends; and public information reports. However, the Agency now states that the
 NEI is not of sufficient quality to indicate whether nonattainment areas met emission
 reduction requirements in the Act, and asserts that State SIP inventories are best for such
 measurements. According to EPA documentation and our analysis, state inventory data is
 used every 3 years to update NEI; therefore, NEI and State emissions data should reflect the
 same level of quality. Further, the Agency routinely provides NEI-developed emissions data to
 States for their use in developing their nonattainment periodic emissions inventories, and we
 found at least three states had used NEI data in their periodic inventories rather than
 developing their own data. The Agency further asserts that State inventories cannot be used to
 measure nonattainment area accomplishments in reducing precursor emissions because
 baseline and subsequent periodic inventories were produced using different models and
 factors. EPA has stated that requiring updates to baseline and periodic inventories would be
 too burdensome on States. These contentions by EPA would leave no actual, comparable
 emissions data available, State or national, to assess nonattainment progress as required by
 the Act. However, the OIG looked for emissions data that could provide a reliable indicator
 as to whether nonattainment areas had achieved precursor emission reductions required by
 the Act. Noting that the NEI was being updated for the 1990 to 1999 period based on the
 latest models and emissions factors, EPA senior officials – including some regional officials –
 said that this updated NEI data would provide a reliable indicator of whether nonattainment
 areas met emission reduction mandates. This is the data we used in our analysis.



We believe OIG has interpreted Tables 3.1 and 3.2 in the report incorrectly when they say
“Negative differences between the target levels and PEIs for seven nonattainment areas indicate
that the target levels were underestimated.” This indicates OIG believes that projected emission
inventories are used in the establishment of target emission levels, and therefore that
underestimates of the projected emissions can cause ROP shortfalls because it leads to
inadequate planning for emission reductions. In fact, projected emission estimates aren’t used in
establishing the target level. Target levels are directly determined by subtracting the required
ROP reductions, non-creditable reductions, etc. from the baseline inventory. It’s a straight
subtraction of known amounts from a known baseline. It can be miscalculated, but not
underestimated. It would be true to say that “negative differences between projected, controlled
emission levels and PEIs indicate that growth may have been underestimated, and so not enough
emission reductions were planned for.” But it’s incorrect to say that negative differences target
levels and PEIs indicate target levels were underestimated.




                                               82
 OIG Evaluation: The OIG did not use projected emission inventories in either Table 3.1 or
 3.2. Actual, “calculated” target levels, as documented in the 15-percent and post-1996 ROP
 Plans, were used in these tables to show differences between actual periodic emission
 inventories and calculated target inventories.

 The OIG agrees that the draft report statement cited by the Agency is not technically correct.
 The total emission reductions needed to achieve the target levels were under projected, not the
 target levels. The cited sentence has been changed to read: “Negative differences between the
 target levels and PEIs for seven nonattainment areas indicate that the growth of projected
 emissions may have been underestimated and ROP emission controls and related reductions,
 (to include emissions growth) were inadequate to achieve the subject target levels.”



Regarding Recommendations:

Chapter 2:
2-1   Perform an in-depth evaluation of the compliance of all serious to extreme nonattainment
      areas with emission reduction requirements using, at a minimum, precursor emissions
      data contained in the Agency’s NEI database.

Response: OAR has chosen to focus its efforts on developing plans and strategies that will
implement the more health-protective 8-hour standard rather than evaluate progress toward the 1-
hour standard which is scheduled to be revoked on June 15, 2005. Since EPA will no longer be
determining whether areas have met their 1-hour ROP milestones after June 15, 2005, it seems
more appropriate to focus our efforts and our resources on implementing the 8-hour ozone rule.
Implementation rules will incorporate development of the ROP plans and assessing progress
toward those plans.




                                               83
 OIG Evaluation: We agree that the Agency should focus resources on implementation of the
 8-hour standard. However, the Agency and States need to measure and assess the actual
 effectiveness of controls implemented under the 1-hour standard before developing controls
 for the 8-hour standard. This assessment could be a valuable tool in identifying controls that
 were not effective, overestimates of projected emission reductions, and methods for increasing
 the effectiveness of controls in 8-hour ROPs.

 Many new nonattainment areas were designated under the 8-hour standard. These areas will
 be implementing many of the emission controls already implemented by 1-hour nonattainment
 areas. EPA needs to know how effective these 1-hour controls were in reducing emissions and
 identify where improvements may be needed before developing 8-hour emission control plans
 for these areas. An assessment of actual reductions achieved by 1-hour controls could identify
 the need for EPA to adjust the expected emission reductions from these controls and/or the
 need to develop alternative controls to meet 8-hour milestones. A more viable method for
 assessing control effectiveness is to measure emission reductions that actually occurred from
 implementation and compare reductions achieved to the projected or expected reductions
 included in 1-hour plans. Finally, EPA needs to identify 1-hour areas that did not achieve
 required emission reductions for the 1-hour standard and implement all available contingency
 measures. Implementation of contingency measures should further reduce emissions in these
 areas and better facilitate the achievement of the more stringent 8-hour standard for areas
 that have struggled for years to meet the less stringent 1-hour standard. Therefore, we
 continue to believe that the recommendations in Chapter 2 are valid, realistic actions that
 EPA needs to take to ensure a more effective implementation of the 8-hour standard.



2-2    Implement contingency measures, where appropriate, if nonattainment areas have not met
       the Act’s emission reduction requirements, including the use of enforcement and/or
       sanctions as authorized under Section 185 of the Act.

Response: Section 182(g)(3) – not the enforcement or sanctions provisions of the Act –
establishes the process for when a serious, severe, or extreme area has not met the emission
reduction obligations in a ROP plan. Under this provision, if an area has not met the emission
reduction targets, the statute provides three options for the state:
•       to have the area reclassified to the next higher classification,
•       to implement specific additional measures adequate, as determined by the Administrator,
        to meet the next milestone as provided in the applicable contingency plan, or
•       to adopt an economic incentive program as described elsewhere in the Act.

The Administrator may require the state to adopt additional controls only if he/she determines
that the state-selected option is inadequate. Additionally, we note the provision referenced in the
report, section 185, applies only when a severe or extreme nonattainment area fails to attain the
standard by the area’s attainment date. This provision does not apply to areas that fail to meet
ROP milestones.




                                                84
 OIG Evaluation: We agree that Section 185 only pertains to sanctions for failure of a severe
 or extreme nonattainment area to attain the ozone standard by the statutory attainment date.
 This statutory reference was changed in the final report. However, Section 179 indicates that
 sanctions may be taken if an area fails to submit an adequate ROP that will attain the
 required reductions by the applicable milestone date and if an area fails to adequately
 implement ROPs. As indicated in the report, some ROP controls were not timely or
 adequately implemented in order to attain required emission reductions by statutory milestone
 dates.



Chapter 3
3-1   Develop oversight procedures and guidance that will expedite development, approval,
      and implementation of ROP Plans and related emission controls.

Response: Consistent with our focus on implementation of the 8-hour standard, EPA has
proposed options for addressing the ROP requirement for areas covered under subpart 2 and
intends to issue a final rule (the phase 2 portion of the 8-hour ozone implementation rule) that
would cover development and approvability of the ROP plans and the timing of emission
controls.

 OIG Evaluation: The OIG appreciates EPA’s efforts to address the need for better oversight
 procedures and guidance as it simultaneously develops its final rules for implementing the
 8-hour ozone standard; however, we continue to believe that new oversight procedures and
 guidance need to be developed that specifically show how the new 8-hour procedures and
 guidance will improve the development and implementation of 8-hour ROPs as compared to
 1-hour ROPs that were the subject of our evaluation.



3-2    Require evaluation of proposed ROP Plans by EPA regional air programs to assure the
       propriety of ROP assumptions, projections, and related emission reductions in
       comparison to available emission databases and historical data.

Response: The Regional Offices have responsibility for reviewing all aspects of SIPs, including
the ROP plans. OAR also includes this as an item in the annual guidance issued to Regions and
States.
 OIG Evaluation: The OIG recognizes that regions have the responsibility for reviewing State
 SIP submissions. However, as pointed out in Chapter 3, EPA Regions did not always
 throughly review State support for ROP Plans. We continue to believe that EPA needs to
 require regions to perform in-depth reviews of State technical support for ROP submissions.



3-3    Develop guidance for analyzing and comparing periodic emission inventories to projected
       emission target levels and evaluating assumptions used in applicable ROP Plans, in order
       to: (1) reconcile differences between projected and actual inventories, (2) identify any
       incorrect assumptions or projections and understatement of needed emission reductions,
       and (3) establish improvements that may be needed in the ROP development process, and
       ensure training of staff in conducting these analyses.

                                                85
Response: As noted in the draft report on page 39, OAQPS is developing a rule for the
compliance milestone demonstration for the 8-hour ozone standard. In the process of developing
that rule, OAQPS intends to address this recommendation.

 OIG Evaluation: The OIG appreciates EPA’s efforts to address the need for better oversight
 procedures and guidance for milestone compliance demonstrations as it simultaneously
 develops its final rules for implementing the 8-hour ozone standard.



3-4    When EPA staff determine that an understatement [sic; may have meant
       “overstatement?”or “underachievement”] of emission reductions has occurred, require
       States to implement contingency or other measures needed in a timely manner to ensure
       that required emission reductions are achieved.

Response: As noted above in response to recommendation 2-2, Section 182(g)(3) – not the
enforcement or sanctions provisions of the Act – establishes the process for when a serious,
severe, or extreme nonattainment area has not met the emission reduction obligations in an ROP
plan. Under this provision, if an area has not met the emission reduction targets, the statute
provides three options for the state:
•       to have the area reclassified to the next higher classification,
•       to implement specific additional measures adequate, as determined by the Administrator,
        to meet the next milestone as provided in the applicable contingency plan, or
•       to adopt an economic incentive program as described elsewhere in the Act.

The Administrator may require the state to adopt additional controls only if he/she determines
that the state-selected option is inadequate. Additionally, we note the provision referenced in the
report, section 185, applies only when a severe or extreme nonattainment area fails to attain the
standard by the area’s attainment date. This provision does not apply to areas that fail to meet
ROP milestones.

 OIG Evaluation: While we appreciate the Agency’s views, the response did not address the
 content of this recommendation, as Section 185 of the Act is not a part of this
 recommendation. The OIG’s recommendation only provides that EPA should require
 implementation of contingency measures, as required under Section 182(g)(3), when an area
 has not met emission targets. As shown in Chapter 3, our comparison of PEIs to target
 emission levels, indicated that many nonattainment areas did not achieve emission targets.
 The recommendation did not provide, as stated in OAR’s response, that EPA require States to
 implement additional controls, only implementation of contingency measures that should have
 already been included in approved ROPs and ozone attainment demonstrations.



3-5    Revise EPA's "Clean Data" policy to require meteorologically adjusted ozone trend
       analyses and trend analyses of ambient VOC and NOx concentrations for nonattainment
       areas that attain the ozone standard based on ambient ozone monitoring data, to better
       assure the permanence of such attainments before suspending ROP Plan development and
       approval.



                                                86
Response: OAQPS is evaluating incorporating these recommendations into the Clean Data
Policy.

 OIG Evaluation: The OIG appreciates EPA’s efforts to address these recommendations as it
 revises the Clean Data Policy.



3-6    Require that EPA make and publish a determination that the ozone standard has been
       achieved through permanent and enforceable emission reductions before suspending ROP
       Plans and related emission reductions required by the Act.

Response: Current EPA guidance for redesignation to attainment requires a determination that
the reductions are permanent; EPA will reassess the Clean Data Policy to determine whether
such a determination can be incorporated into that policy.

 OIG Evaluation: The OIG appreciates EPA’s efforts to address these recommendations as it
 revises the Clean Data Policy.



Chapter 4
4-1   Subject the policy claiming outside emissions to the notice-and-comment rulemaking
      process, which will allow broad public comment and feedback.

Response: Each time the Agency approves a SIP that relies on the policy allowing , the public
has an opportunity to comment on the reliance on reductions from outside the nonattainment
area.

 OIG Evaluation: We agree that ROP notices could allow public comment. However, the
 policy has only been referenced in ROP notices and not presented in detail for public
 comment. Additionally, ROP notices are usually long and complex and the use of outside
 emission reductions are buried within this long, technically complex document. The public
 has received few details regarding the policy in past ROP notices. The ROPs did not present
 a clear picture of the impact of this policy on nonattainment area emissions or any
 information on the statutory basis for the policy under the Act. Therefore, the OIG continues
 to consider Recommendation 4-1 valid.



4-2    Revise policy for nonattainment area outside emission reduction credit to:
       •    Encourage broadening of controls for sources in outside areas in order for a
            nonattainment area to claim emission reduction credits.
       •    Require atmospheric modeling to support the impact of outside emissions and
            sources on nonattainment area ozone levels.
       •    Require that the emission baselines from all selected outside areas be included in
            ROP baseline emissions for calculating required emission reductions and measuring
            achievement of reductions.



                                               87
       •     Provide a methodology for apportioning outside area NOX or VOC emissions
             reductions among nonattainment areas to prevent double-counting of emission
             reductions when a State has multiple nonattainment areas.
       •     Require that outside sources or areas included in post-1996 ROPs also be included
             in subsequent PEIs for each applicable nonattainment area.

Response: As part of the rulemaking process implementing the 8-hour ozone standard, the
Agency is assessing existing policies and guidance. We will take these comments into
consideration, along with other comments received from stakeholders, as we proceed with
implementation of the 8-hour ozone NAAQS. Also, Federal rules such as the NOx SIP call, new
vehicle standards, and the proposed CAIR rule will provide emission reductions that will
significantly reduce ozone levels in many of these areas and promote adequate ROP. Since
upwind sources are known to contribute to downwind ozone pollution, controlling these source
through regional programs will contribute to reducing the ozone levels in more than one
nonattainment area. That isn’t double-counting.

 OIG Evaluation: We appreciate OAR’s plans to consider Recommendation 4-2 during its
 assessment of existing policies and guidance as part of the rulemaking process for
 implementation of the 8-hour standard.



Chapter 5
5-1   Expedite issuance of the milestone compliance guidance, but restrict the use of observed
      ambient ozone levels as a stand-alone indicator of emission reductions. The guidance
      should also require the use of meteorologically adjusted ozone trends and trends in
      ambient concentrations of VOC and NOX in the weight of evidence approach.

Response: We will evaluate the current draft milestone compliance rule to determine the
feasibility of this recommendation. We must remember our overall goal is to meet the health-
protective air quality standard for ozone, not just reduce precursor emissions. The ROP is a tool
designed to help areas meet the standard, it is not the measure used for designation of areas as
attainment or nonattainment.

5-2    Instruct States to utilize indicators, as reflected in the draft milestone compliance
       demonstration guidance, and/or provide annual updates to emissions inventories (one
       third of sources per year or one third of States per year) to determine potential or actual
       emission reductions within the Act's 90-day time frame for milestone compliance
       demonstrations.

Response: In the draft of the proposed rule, EPA is contemplating reliance on indicators to meet
the milestone compliance demonstration. At this time, it is not technically feasible for States to
complete quality assured emissions inventories for most source categories based on actual
emissions generating activities in a 90-day time frame.

 OIG Evaluation: Emission inventories are the best measure of actual emission reductions.
 Indicators will not provide assurance that emissions have been sufficiently reduced to meet the
 requirements of the Act. Updated inventories should be used as part of the milestone
 demonstration whenever feasible.

                                                88
5-3    Require that nonattainment areas update baseline inventories and, subsequently, perform
       more in-depth assessments of actual emission reductions, once the applicable PEIs are
       completed. This subsequent determination of actual emission reductions may not meet
       the milestone compliance demonstration 90-day time frame but will provide a measure of
       progress that is not currently available.

Response: We believe that the IG is recommending that OAR should require that whenever a
state has revised an emission inventory model or method, for example a method of estimating
emissions from mobile sources, as part of preparing the PEI, the baseline inventory (e.g., for
2002 in the case of an 8-hour ozone area) should be recalculated with the new method so that
actual reductions from base year to PEI year can be estimated without the confounding influence
of method changes.

Assuming our interpretation of this recommendation is correct, we appreciate the issue.
However, we are not certain that we have legal authority to require a state to revise its baseline
inventory once submitted, or that it would be the best use of state and EPA resources in all cases.
For some changes in method, it may be technically impossible to re-estimate the baseline
inventory years later, for example, if source testing methods change. We address the
intercomparison issue on a case-by-case basis when, during review of a PEI submittal, it seems
material to the area’s progress toward attainment.

 OIG Evaluation: The OIG did not intend, as suggested in the Agency’s response above, that
 States update baseline inventories each time a new model or factor is promulgated. The
 recommendation provides that States should update baselines in order to be comparable to the
 most recently developed PEI, so that actual emission reductions achieved can be measured.
 The OIG continues to believe that this additional requirement would provide a realistic
 measure of emission reduction achievements under the 8-hour standard and, as such, would
 also represent an effective use of Agency resources to achieve the 8-hour standard. The use of
 indicators alone will not fully meet the Act’s requirement that States demonstrate the
 attainment of specific, mandated precursor emission reductions for each nonattainment area.



5-4    Incorporate the use of updated NEI data and other available measures, where appropriate,
       into milestone compliance demonstration guidance as top-down indicators or measures of
       nonattainment area progress in reducing precursor emissions.

Response: We will evaluate the current draft milestone compliance rule to determine the
feasibility of this recommendation.

 OIG Evaluation: We appreciate OAR’s plans to consider Recommendation 5-4 during its
 assessment of milestone compliance guidance as part of the rulemaking process for
 implementation of the 8-hour standard.



5-5    Require State and local agencies to update past baseline and periodic emission inventories
       based on the latest models, emission factors, and methodologies, and complete milestone
       compliance demonstrations for 1990 through 1999 (or later milestone year) for

                                                89
       nonattainment areas based on the issued milestone compliance guidance. Further, for
       future inventories, require States to continuously update inventories as new emissions
       data and methods are developed, to provide timely assessments of nonattainment area
       progress in reducing precursor emissions.

Response: The focus of the EPA ozone program is on implementation of the more protective 8-
hour standard, including guidance on the ROP program. We do not feel it would be a good
expenditure of our resources to document progress or failures against the 1-hour standard that
will be revoked under regulation on June 15, 2005.

 OIG Evaluation: As previously stated in response to Recommendation 2-1, we believe that if
 the Agency better understands nonattainment area progress in reducing emissions under the
 1-hour standard, it can more effectively design and implement emission controls under the 8-
 hour standard. In our view, determining how to implement the 8-hour standard more
 effectively than occurred with the 1-hour standard represents an effective use of resources.



Chapter 6
6-1   Develop analytical procedures and processes for EPA and/or States to utilize updated NEI
      data for measuring the progress of individual areas in reducing precursor emissions and
      complying with the Act’s emission reduction mandates.

Response: We are broadly examining the issues of program tracking, assessment, and
accountability in response to the recent National Academy of Sciences committee report on air
quality management. To be clear, any policy, procedures, or guidance we would issue at this
point would support implementation of the 8-hour NAAQS.

 OIG Evaluation: This recommendation was intended to address future EPA and State
 analyses of NEI to determine the progress of nonattainment areas in reducing precursor
 emissions. The recommendation is directly related to implementation of the 8-hour standard
 and measurement of emission reductions by individual nonattainment areas under this
 standard. We have modified the recommendation in the final report to indicate that actions
 recommended apply to the 8-hour standard.



6-2    Issue guidance for the development of meteorologically adjusted ozone trends for
       individual nonattainment areas, updated annually, to better isolate the impact of emission
       reductions on ozone levels.

Response: While EPA has developed and used approaches to meteorologically adjust ozone
trends (e.g., EPA 454/K-04-001, http://www.epa.gov/airtrends/ozone.html), adjusted trends for
specific areas or regions may not adequately adjust for all influences caused by meteorology. We
are exploring more sophisticated adjustments and when a better approach is developed and
demonstrated, we will make it available to States.




                                               90
 OIG Evaluation: In 2003, the EPA developed meteorologically adjusted ozone trends for
 major United States metropolitan areas, many of which are ozone nonattainment areas. An
 EPA analyses of these trends was included in publically released reports. If EPA’s prior
 meteorologically-adjusted trends for many large nonattainment areas were sufficiently
 reliable to be included in EPA’s ozone trends reports, we do not understand the need for more
 sophisticated adjustments before utilizing the approach as an indicator of the impact of
 emission reductions on ozone levels. More precise measures of meteorologically-adjusted
 ozone levels would improve the approach as an indicator but the current approach has
 already been deemed by EPA as sufficiently reliable for trends analyses and public
 information.



6-3    Provide resources to develop PAMS data analyses and identify trends in ambient VOC
       and NOx concentrations for individual ozone nonattainment areas. Such trends could be
       used to assess the effectiveness of Federal, regional, and local emission controls and
       identify where additional controls may be warranted.

Response: This is a resource allocation issue. The EPA has intermittently analyzed PAMS data
for special studies but such analyses have been a lower priority during the last few years than
other air quality analyses for ozone and fine PM. However, we re-initiated PAMS data analysis
in FY 2004. This analysis will involve technical challenges in relating ambient VOC
concentrations to various meteorological factors influencing emissions and atmospheric
transformations, and developing statistical relationships with factors such as activity levels and
regional transport. This approach will likely require an iterative, exploratory analysis to
determine the most relevant factors in evaluating the effectiveness of control programs and
identifying additional control measures. In addition, there are PAMS siting “gaps” as not all 8-
hour ozone nonattainment areas participate in this program. Considering these challenges, we
are committed to PAMS data analysis provided sufficient resources can be allocated to PAMS
data acquisition and analysis.

 OIG Evaluation: The older 1-hour nonattainment areas already have PAMS networks.
 Therefore, PAMS data for these areas is already available for trend analysis to identify the
 direct impact of emission reductions on ambient concentrations of ozone precursor emissions.
 PAMS is probably one of the best methods available to assess the direct impact and
 effectiveness of emission controls on individual nonattainment areas. We agree that the
 Agency should pursue the resources necessary to perform PAMS data/trend analyses for
 individual nonattainment areas.



Chapter 7
7-1   Establish annual and multi-year goals and performance measures for ozone precursor
      emission reductions by individual nonattainment areas and require State and local
      agencies to submit evidence that these goals have been met.

Response: The Agency’s 2003 Strategic Plan includes objectives regarding ozone improvements
for nonattainment areas. Sub-objective 1.1.1 states that by 2010 air quality with respect to 8-hour
ozone will be improved to heathy levels (i.e., meet the NAAQS) for 60 percent of the people who
live in areas not meeting the national standard in 2001. The objective further states that air

                                                91
quality will improve for an additional 27 percent of the people who live in areas not meeting the
8-hour standard in 2001.

7-2    Once annual goals and measures are established, include the goals and measures in EPA
       and State and local agencies’ annual and strategic plans, and provide accomplishments
       toward these goals in EPA’s annual performance reports.

Response: The Agency’s goals, objectives, and performance measures are based on the broader
overall goal of protecting public health, and as such, reflect measuring areas and population with
clean air for the various criteria pollutants. Our instructions from OMB are that the goals be
meaningful. We feel we are doing this by addressing the public health issue.

The State implementation plans (SIP) for nonattainment and maintenance areas; specifically
attainment demonstrations, rate-of-progress plans, and maintenance plans, provide emission
targets for each of the ozone precursors. These targets are approved as part of the SIP
rulemaking process. In the case of on-road mobile source sector, these targets are “budgets” that
are used in implementing the transportation conformity requirements.

 OIG Evaluation: The Agency suggests that its strategic planning activities were already
 sufficient to address recommendations 7-1 and 7-2; however, our recommendations pertain to
 establishing performance measures for precursor emission reductions (NOx and VOCs) by
 individual nonattainment areas. As noted in our report, ambient ozone is our most complex,
 difficult to control, and pervasive urban air pollutant. In recognition of this fact, the 1990 Act
 mandated ever increasing levels of precursor emissions reductions until attainment is
 achieved. Thus, we continue to believe that Recommendation 7-1 is appropriate and
 necessary to assuring timely and permanent ozone attainment. For Recommendation 7-2,
 EPA indicated that the Agency’s strategic goals, objectives, and performance measures reflect
 the broader goal of protecting public health and, thereby, the measurement of areas and
 populations with clean air for criteria pollutants. While we appreciate these larger goals, we
 believe the Agency strategic and annual plans should also include goals for reducing ozone
 precursor emissions in accordance with the 1990 Act. Current Agency strategic and annual
 plans include goals for NOx emission reductions from power plants, as well as VOC and NOx
 emission reductions from stationary and mobile sources based on Federal rules.



Chapter 8
8-1    Develop DQOs, using EPA DQO development guidance, for State- and NEI-generated
      emissions data for use in applicable QAPPs.

Response: In FY 2005, EPA will develop data quality objectives (DQOs) for the 2002 NEI as
part of the development and finalization of the Quality Assurance Project Plan (QAPP) for the
2002 NEI and then may consider the role these DQOs – or an augmented version of them –
should play with respect to state-generated emission inventories. The DQOs will be used in
future versions of the NEI (i.e., 2005 version and beyond).

8-2    Expedite completion and approval of the draft QAPP for NEI data.




                                                92
Response: EPA will finalize the draft QAPP for the 1999 NEI by the end of this calendar year.
We will develop a separate, improved QAPP for the 2002 NEI. This will complement the
planned first-ever external peer review of the 2002 NEI.

8-3    To the extent possible, expedite the regulatory process for releasing ozone DQOs for use
       in State air monitoring QAPPs.

Response: These DQOs were developed for ozone monitoring and are part of the regulatory
change to EPA’s ambient air quality monitoring requirements implementing the National
Monitoring Strategy. These changes will be proposed in 2005.

8-4    Inform EPA regions that approved State QAPPs are needed for emissions and ozone air
       monitoring data air monitoring data accumulated or developed by States within each
       region’s boundaries.

Response: EPA QA Policy has had a long standing requirement for QAPPs for any organization
accepting federal funds for the collection of environmental data. The Regions are aware of this
requirement. OAQPS has developed a format for collecting information from the Regions
assessing the State, Local and Tribal QAPPs for the Ambient Air Quality Monitoring Program
within the Region. We will soon be working with Regional Offices to compile this assessment
information.

 OIG Evaluation: We appreciate EPA’s plans to develop data quality objectives for ozone
 precursor emissions data and ensure their use in State and national emissions inventories as
 expeditiously as practicable.




                                              93
                                                                                Appendix I

                                    Distribution

EPA Headquarters

Assistant Administrator for Air and Radiation (6101A)
Agency Followup Official (2710A)
Agency Followup Coordinator (2724A)
Audit Followup Coordinator, Office of Air and Radiation (6102A)
Audit Followup Coordinator, Office of Research and Development (8102A)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Director, Office of Regional Operations (1108A)
Associate Administrator for Public Affairs (1101A)
Director, Office of Air Quality Planning and Standards (C404-04)
Deputy Director, Office of Air Quality Planning and Standards (C404-04)
Director, Air Quality Strategies and Standards Division (C504-01)
Leader, Ozone Policy and Strategies Group (C539-02)
Director, Emissions, Monitoring and Analysis Division (C304-02)
Leader, Air Quality Trends Analysis Group (C304-01)
Leader, Emission Inventory & Factors Group (D205-01)
Leader, Monitoring and Quality Assurance (C339-02)
Audit Liaison, Office of Air Quality Planning and Standards (C404-2)
Inspector General (2410)


EPA Regions

Regional Air Program Directors




                                             94
